1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
GARY E. ALBRIGHT, et al.,
Plaintiff-Appellants
CLAUDE J. ALLBRITTON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
PERRY LOVERIDGE, et al.,
Plaintiffs
NEAL ABRAHAMSON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
GARY E. ALBRIGHT, et al.,
Plaintiffs
DANIEL EARL HIGGINS, III, MICHAEL J. OPOKA,
ZELDA L. OPOKA,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
Nos. 2019-2078, 2019-2080, 2019-2090, 2019-2316

2a

Appeals from the United States Court
of Federal Claims in Nos. 1:16-cv-00912-NBF,
1:16-cv-01565-NBF, 1:18-cv-00375-NBF,
Senior Judge Nancy B. Firestone
DECIDED: DECEMBER 1, 2020

Before PROST, Chief Judge, LINN and TARANTO,
Circuit Judges.
PROST, Chief Judge.
These consolidated appeals stem from a
“rails-to-trails” conversion in Oregon. The Court
of Federal Claims determined that the twenty-six
deeds at issue each conveyed fee simple title, not an
easement from Appellants’ predecessors-in-interest
to the railroad.1 See generally Loveridge v. United

1

Like the parties, we identify the deeds by the grantor’s
name or, if the grantor executed more than one deed, by both the
grantor’s name and the book and leading page number. The deeds
at issue on appeal are Beals 18/40 (J.A. 20, 1219); Bryden (J.A. 24,
1234); Burgholzer 83/99 (J.A. 26, 1238); Cummings (J.A. 35, 1263);
DuBois 24/40 (J.A. 41, 1281); Friday (J.A. 44, 1296); Galvani (J.A.
45, 1300); Gattrell (J.A. 46, 1302); Goodwin (J.A. 50, 1310); Hagen
(J.A. 51, 1312); Jeffries (J.A. 63, 1357); Rinck (J.A. 88, 1438);
Rupp (J.A. 92, 1446); Slattery (J.A. 96, 1462); Smith (J.A. 97,
4871); Stowell (J.A. 100, 1473); Thayer 11/355 (J.A. 103, 1478);
Watt 12/343 (J.A. 112, 1478); Watt 12/344 (J.A. 113, 1502); Watt
12/345 (J.A. 114, 1504); Westinghouse 85/39 (J.A. 117, 1504);
Wheeler Lum- ber 16/3 (J.A. 119, 2133); Wheeler Lumber 16/5 (J.A.
120, 4773); Wilson 75/244 (J.A. 122, 1524); Woodbury 16/481 (J.A.
123, 4864); and Woodbury 23/399 (J.A. 124, 4829).

3a

States, No. 16-912L, 2019 WL 495578 (Fed. Cl. Feb. 8,
2019) (“Reconsideration”); Loveridge v. United States,
139 Fed. Cl. 122 (2018) (“Decision”). For that reason,
the Court of Federal Claims concluded that Appellants
have no compensable property interest in the land to
which the deeds pertain. Appellants appealed. We
affirm.
I
The United States Surface and Transportation
Board (“STB”) has regulatory authority over rail
carriers who wish to discontinue or abandon any part of
their railroad line. 49 U.S.C. §§ 10501(b), 10903.
Discontinuance “allows a railroad to cease operating a
line for an indefinite period while preserving the rail
corridor for possible reactivation of service in the
future.” Preseault v. Interstate Commerce Comm’n, 494
U.S. 1, 4 n.3 (1990) (“Preseault I”). Abandon- ment
“removes the line from the national rail system and
terminates the railroad’s common carrier obligation for
the line.” Chi. Coating Co., LLC v. United States, 892
F.3d 1164, 1166 (Fed. Cir. 2018). A railroad seeking to
abandon any part of its railroad line must either file a
standard abandonment application under 49 U.S.C. §
10903 or seek an exemption under 49 U.S.C. § 10502.
See Caldwell v. United States, 391 F.3d 1226, 1228 &
n.3 (Fed. Cir. 2004).
A provision of the National Trails System Act
Amendments of 1983, Pub. L. No. 98-11, sec. 208(1), 97
Stat. 42, 48 (codified as amended at 16 U.S.C. §
1247(d)), provides an alternative to abandonment called
“railbanking,” which preserves the possibility of future

4a

use of the land for railroad purposes but permits a trail
sponsor to both take responsibility for the land and
convert it in the interim to a recreational trail.
Preseault I, 494 U.S. at 6–7; Chi. Coating, 892 F.3d at
1167. To initiate this process, a prospective trail
sponsor must first notify the STB of its interest to
repurpose the land to interim trail use. Preseault I,
494 U.S. at 7 n.5; Chi. Coating, 892 F.3d at 1167 & n.3.
If the railroad agrees to negotiate an interim trail
use/rail- banking agreement with the prospective trail
sponsor, the STB issues a Certificate of Interim Trail
Use (“CITU”) or, in the case of exemption proceedings,
a Notice of Interim Trail Use (“NITU”). See 49 C.F.R.
§ 1152.29(c)–(d); Caquelin v. United States, 959 F.3d
1360, 1363 (Fed. Cir. 2020); Chi. Coating, 892 F.3d at
1167. The CITU or NITU provides the parties with a
period of time to negotiate a trail use agreement. See 49
C.F.R. § 1152.29. If the parties reach an agreement,
upon notifying the STB, the corridor is railbanked, and
the trail sponsor may convert the rail segment to a trail.
See Preseault I, 494 U.S. at 7.
Turning now to this case, on May 26, 2016, the Port
of Tillamook Bay Railroad (“POTB”) filed an exemption
notice with the STB to abandon the portion of its rail
line located between milepost 775.1 (near Banks,
Oregon) and milepost 856.08 (near Tillamook, Oregon).
On June 7, 2016, the Salmonberry Trail
Intergovernmental Agency (“STIA”) asked the STB to
issue a NITU for the segment. The STB issued the
NITU on July 26, 2016, after POTB expressed its
willingness to negotiate with STIA for interim trail use
and railbanking. STIA and POTB ultimately reached an

5a

interim trail use agreement and notified the STB of the
agreement on October 23, 2017.
Shortly after the NITU issued, Plaintiffs-Appellants
filed the underlying action in the Court of Federal
Claims, alleging that the conversion of the land to
interim trail use amounted to a Fifth Amendment
taking. One hundred thirty-two deeds were initially at
issue in the case. Twenty-six deeds remain at issue in
this appeal. Appellants contend that “their
predecessors-in-interest granted only easements to the
railroad which terminated when the railroad became
dormant” and, as a result, “conversion of the rail
corridor gave rise to a” compensable Fifth Amend- ment
taking. See Decision, 139 Fed. Cl. at 127. In re- sponse,
the government argued that there was no compensable
taking because the deeds at issue “conveyed the
property within the rail corridor to the railroads in fee
simple absolute.” Id. The Court of Federal Claims
agreed with the government, concluding on partial
summary judg- ment that the twenty-six deeds at issue
conveyed fee sim- ple title to the railroad and that,
therefore, no Fifth Amendment taking occurred.
Appellants appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(3).
II
We review de novo the decision of the Court of
Federal Claims on summary judgment. Cienega
Gardens v. United States, 331 F.3d 1319, 1328 (Fed.
Cir. 2003); see also Chi. Coating, 892 F.3d at 1169.
“Summary judgment is appropriate where there is no
genuine dispute as to any material fact and the moving

6a

party is entitled to judgment as a mat- ter of law.” Arko
Exec. Servs., Inc. v. United States, 553 F.3d 1375,
1378 (Fed. Cir. 2009) (citing Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247 (1986)); see also R. Ct. Fed. Cl.
56(a).
The Fifth Amendment of the Constitution provides
that “private property [shall not] be taken for public
use, without just compensation.” U.S. CONST. amend.
V, cl. 4. Here, the only issue on appeal is whether the
twenty-six deeds at issue conveyed to the railroad an
estate in fee sim- ple absolute or an easement. If the
deeds conveyed only an easement, then the Appellants
might have a valid takings claim. See Preseault v.
United States, 100 F.3d 1525, 1533 (Fed. Cir. 1996) (en
banc) (“Preseault II”); see also Chi. Coating, 892 F.3d
at 1170; Ellamae Phillips Co. v. United States, 564 F.3d
1367, 1373 (Fed. Cir. 2009). But if the railroad
“obtained fee simple title to the land over which it was
to operate, and that title inures, as it would, to its successors, the [Appellants] would have no right or interest
in those parcels and could have no claim related to
those par- cels for a taking.” Preseault II, 100 F.3d at
1533; see also Chi. Coating, 892 F.3d at 1170; Ellamae
Phillips, 564 F.3d at 1373. To determine the nature of
the conveyance, we apply Oregon law as it is “the law of
the state where the property interest[s] arise[].” Chi.
Coating, 892 F.3d at 1170.
For the reasons below, we agree with the Court of
Federal Claims that each of the twenty-six deeds
conveyed fee simple title to the railroad and,
accordingly, Appellants have no compensable Fifth

7a

Amendment takings claim relating to these deeds.
A
Under Oregon law, “[w]hether an instrument
conveys ownership of land or only an easement depends
upon the intention of the parties.”2 Bouche v. Wagner,
293 P.2d 203, 208 (Or. 1956) (internal quotation marks
omitted); see also Bernards v. Link, 248 P.2d 341, 344
(Or. 1952).
In Wason v. Pilz, a case that did not involve a
railroad deed, the Oregon Supreme Court considered a
deed conveying a parcel of land for road purposes. 48 P.
701, 701–02 (Or. 1897). The court concluded that
because the convey- ance granted land only for limited
purposes, the language of the conveyance was
“indicative of an easement only” and was “controlling
as the measure of the estate granted.” Id.
In Bernards, the Oregon Supreme Court held that
the railroad deed at issue granted an easement, not a
fee simple estate, and stated:
It will be observed from the deed that (1) it was
en- titled “Right of Way Deed”; (2) a
conveyance of the strip was made “for use as a
right of way”; (3) the consideration was only $1

2

The parties dispute whether, under Oregon law, it is
presumed that the parties intended to convey a fee simple
estate unless the intent to pass a lesser estate was expressly stated
or necessarily implied. We need not decide this issue to resolve the
case, as we conclude that the deeds at issue convey a fee simple
estate even if there is no presumption that they did so.

8a

[i.e., the consideration was nominal]; (4) the
conveyance was subject to a condition
subsequent which revested all title in the
grantors in the event the stipulated condition
oc- curred; (5) the grantees were required to
construct for the use of the grantors a cattle
crossing; (6) the description included the
phrase “over and across and out of the land of
the grantors”; (7) the phraseology employed
repeatedly the term “strip of land”; [and] (8)
the grantee was required to “build and keep in
repair a good and substantial fence along each
side of the strip.”
Bernards, 248 P.2d at 343–44. Although “[v]arious
tests ha[d] been suggested by the commentators for
facilitating a determination whether a deed like the one
before [the court] grants an easement or conveys the
fee,” the court “deem[ed] it unnecessary to set forth . .
. a review of the many authorities cited by the parties”
because “the [Wason] decision is determinative of the
issues under consideration.” Id. at 343–44. In
particular, like the deed in Wason, the deed in Bernards
similarly conveyed land only for a limited purpose:
specifically, the deed “convey[ed] . . . for its use as a
right of way for a railroad, a strip of land.” Id. at 342
(emphasis added.
The Oregon Supreme Court considered another
rail- road deed in Bouche but this time concluded that
the deed conveyed fee simple title. 293 P.2d at 210. As
in Bernards, the court stressed the importance of what
the deed purports to convey. Specifically, the court
explained:

9a

A study of the cited cases suggests that the
courts have little difficulty, where a railroad
company is the grantee, in declaring that the
instrument creates only an easement whenever
the grant is a use to be made of the property,
usually, but not invariably, described as for use
as a right of way in the grant.
On the other hand, . . .[c]onveyances to
railroads, which purport to grant and convey a
strip, piece, parcel, or tract of land, and which
do not contain additional language relating to
the use or purpose to which the land is to be
put or in other ways cutting down or limiting,
directly or indirectly, the estate conveyed, are
usually construed as passing an estate in fee.
Id. at 209 (internal quotation marks omitted).
The court further remarked that courts had “express[ed] a divergence of opinion when the conveyance
merely has a reference to the use or purpose to which
the land is to be put, and which is contained in either
the granting or habendum clause, and, except for the
reference, would uniformly be construed as passing title
in fee.” Id. The court explained that the “confusion . .
. arises for the most part in the failure to distinguish
the twofold meaning of the words ‘right of way.’” Id.
Specifically, the term right of way is “sometimes used to
describe a right belonging to a party, a right of passage
over any tract; and it is also used to describe that strip
of land which railroad companies take upon which to
construct their road-bed.” Id. (quoting Joy v. City of
St. Louis, 138 U.S. 1, 44 (1891) (emphasis omitted)).

10a

In considering the 1921 deed at issue in the case,
the court concluded that “it was the intention of the
parties that the fee in the land should pass,” reasoning:
The conveyance is not entitled (1) a “right of
way deed”; (2) the granting clause conveys
land, not a right; (3) the consideration was
substantial ($650); (4) there is no reverter
provided for; (5) the words “over and across the
lands of the grantors” do not appear; and (6)
the land conveyed is described with precision.
Id. at 206, 209–10. The court explained further that
“[t]he only indication that the parties may have
intended an easement should pass is the incidental
reference to a ‘right of way’ in the covenant following
the granting and habendum clause,” but that term
“could have referred to either the right of passage or to
the land itself,” and there was nothing in the deed that
limited the use the grantee might make of the land. Id.
at 209.
The court also concluded that the 1919 deed at
issue “conveyed the fee simple title to the land
involved,” reasoning:
[The deed] contained no mention of a right of
way; it described the subject of the grant as “a
strip of land,” not as a “right,” and there was
no statement of the purposes for which it was
granted; it de- scribed the land conveyed with a
relatively high degree of precision; and the
habendum clause is of the type usually
employed to convey a fee simple title.

11a

Id. at 206–07, 210.
B
We conclude that each of the twenty-six deeds
conveyed fee simple title, not merely an easement, and
we thus affirm the decision of the Court of Federal
Claims.
Importantly, the granting clauses of all twenty-six
deeds at issue purport to convey land—not an
easement, not a right of way, and not property for
specified purposes. Seventeen of the deeds provide, with
at most minor and immaterial grammatical differences:
“[The grantors] bargain, sell, grant, convey, and
confirm” to the railroad company “and to its successors
and assigns forever, all of the following described real
property . . . to wit: a strip of land . . . .” (emphasis
added).3 Four deeds provide, again with at most minor
and immaterial grammatical differences: “[The
grantors] grant, bargain and sell, convey[,] and confirm
. . . all that certain lot, piece, parcel and tract of land .
. . .” (emphasis added).4 Four more deeds provide, yet
again with at most minor immaterial grammatical
differences: “[The grantors] bargain, sell, grant,
convey[,] and confirm . . . a strip of land. . . .” (emphasis

3

These deeds are Beals 18/40, Burgholzer 83/99,
Cummings, DuBois 24/40, Goodwin, Jeffries, Rinck, Slat- tery,
Smith, Thayer 11/355, Watt 12/343, Watt 12/344, Watt 12/345,
Westinghouse 85/39, Wheeler Lumber 16/3, Wheeler Lumber 16/5,
and Wilson 75/244.
4

These deeds are Friday, Galvani, Hagen, and Stowell.

12a

added).5 And the remaining deed—Bryden—provides:
“[The grantors] grant, bargain, sell and convey . . . all
of the following bounded and described real property. .
. a strip of land. . . .” (emphasis added).
Although four of the deeds—Bryden, Friday, Smith,
and Stowell—include the word “right of way,” the deeds
do so only in their descriptions of the property conveyed
and only to describe the land itself, not to describe what
was being conveyed. Reconsideration, 2019 WL 495578,
at *51–52, 56–57; see Bouche, 293 P.2d at 209
(discussing the “twofold meaning” of right of way).
In addition, although seven deeds—DuBois,
Gattrell, Goodwin, Rinck, Slattery, Wheeler Lumber
16/3, and Wheeler Lumber 16/5—further indicate that
the right to operate a railroad is conveyed, this
language is clearly em- ployed merely to confirm that
the conveyance includes that right, not to limit the
interest conveyed to that right. E.g., J.A. 50–51, 1310
(providing that “real property” is conveyed to the
railroad “and to its successors and assigns forever[,] . .
. together with the appurtenances[,] tenements[,] and
hereditaments thereunto belonging or in anywise
appertaining, together also with the right to maintain
and operate a railroad thereover” (emphasis added));
J.A. 120– 121, 4773 (providing that “real property” is
conveyed to the railroad “and to its successors and
assigns forever . . . [t]ogether with the appurtenances,
tenements[,] and hereditaments thereunto belonging or

5

hese deeds are Gattrell, Rupp, Woodbury 16/481, and
Woodbury 23/399.

13a

in anywise appertaining[,] . . . grantors confirming also
to the grantee, its successors and assigns, the right to
build, maintain and operate a line of railway thereover”
(emphasis added)).
In addition, none of the deeds provide for a reverter
or otherwise contain language limiting the use that the
grantee could make of the land. To the contrary, each of
the deeds purport to convey land to the grantee and “to
its successors and assigns forever.” And twenty-five of
the twenty-six deeds specify that the land is conveyed
with all appurtenances, tenements and hereditaments.
The deeds at issue are thus much more akin to the 1921
deed in Bouche than to the deed in Bernards. Compare
Bouche, 293 P.2d at 209 (concluding that the 1921 deed
conveyed a fee simple in part because “there [was] no
reverter provided for”), with Bernards, 248 P.2d at 342
(deed at issue provid- ing that “should [the grantee] fail
so to build such railroad, this grant shall become null
and void, and the title to said strip so conveyed shall
revert to said grantors and their successors in
interest”).
In sum, like the granting clause at issue in Bouche,
the granting clauses in all the deeds at issue here
plainly pur- port to convey real property. And the deeds
state that the property is conveyed to the grantee and
its successors and assigns “forever.” The granting
clauses do not purport to convey an easement, a right of
way, or something else that would indicate an intent to
convey an easement, such as property for specific
purposes like the deed at issue in Ber- nards. Nor do the
deeds provide for reverter or otherwise limit the uses
the grantee can make of the land. These observations

14a

strongly support the conclusion that the deeds
transferred fee simple absolute title to the land. See
Bouche, 293 P.2d at 209–10; Bernards, 248 P.2d at
342–44.
Nothing points us to a different conclusion.
Appellants argue that the deeds’ use of the phrase
“strip of land” evidences that the deeds conveyed only
an easement. Appellants rely on Bernards’s
“observation” that the deed at issue, which the court
construed as conveying an easement, “employed
repeatedly the term ‘strip of land.’” Bernards, 248 P.2d
at 343.
Appellants’ argument is unpersuasive. For starters,
the Bouche court stated that “[c]onveyances to
railroads, which purport to grant and convey a strip . .
. of land” and do not otherwise limit the estate
conveyed “are usually construed as passing an estate
in fee.” Bouche, 293 P.2d at 209. The Bouche court
also specifically concluded that the 1919 deed at issue
conveyed fee simple title in part because “it described
the subject of the grant as ‘a strip of land,’ not as a
‘right.’” Id. at 210. Accordingly, although the deeds
describe the land conveyed as a strip, that fact, standing
alone, does not evidence that the parties to the deed
intended to convey only an easement.
Even assuming Appellants are correct that
Bernards attached significance to the deeds’ use of the
term “strip of land,” Bouche appears to have reduced or
eliminated such significance. And it is not at all clear
that Bernards did attach great significance to the term,
considering Bernards merely observed that the deed

15a

included the term but otherwise rested heavily on
Wason—which did not relate to the significance of the
term strip of land—in reaching its decision. See
Bernards, 248 P.2d at 343–44. Furthermore, at most
Bernards attached significance to “repeated[]” use of
the term strip of land, but here the deeds use the term
infrequently: most use the term only once to describe
the land being conveyed, and the deeds that more often
use the term do so only because they describe more
than one strip of land.
Appellants further point to a number of Oregon
Supreme Court cases stating that it is against public
policy to have numerous strips of land all held
separately in fee simple absolute. See, e.g., Cross v.
Talbot, 254 P. 827, 828 (Or. 1927). This argument is
also unpersuasive. Our decision relies on the relevant
Oregon case law, including Bernards and Bouche.
Appellants have failed to persuade us that Bernards and
Bouche are not good law or otherwise do not already
account for this public policy, particularly con- sidering
that the Oregon Supreme Court announced this public
policy long before Bernards and Bouche. Furthermore,
we note that it is beyond question that, under Oregon
law, railroads sometimes obtained fee simple title to
strips of land used for their rail lines. See, e.g., Bouche,
293 P.2d 203. This is such a case.
In addition, Appellants contend that the deeds do
not describe the land with precision, which favors
finding that the deeds convey an easement. This
argument falls short because each of the deeds describes
the land conveyed with at least some precision. In
particular, each deed identifies the boundaries of the

16a

strip of land conveyed in reference to the centerline of
the railroad that had been surveyed and located before
executing the deeds. Under such circum- stances, it can
hardly be said that the deeds failed to adequately
specify the boundaries of the land conveyed. See, e.g.,
Restatement (First) of Property § 471 (1944) (observing that “a conveyance creating an estate” can describe
the land conveyed “in any of many different ways,”
including “by reference to an area to be located by
survey with reference to a known point or points”).
Appellants also highlight that many of the deeds
use the term “through” or “across,” which they contend
is similar to the Bernards deed’s usage of “over and
across and out of the land of the grantors.” Bernards,
248 P.2d at 342–43. We are not convinced. The deed in
Bernards used that phrase in the granting clause to
describe what was conveyed, and the usage suggested
that the deed conveyed not a possessory interest in the
property itself but rather a nonpossessory right of way
over and across the land. See id. In contrast, here the
deeds do not use “through” and “across” to limit what
was conveyed by the deed. Rather, the deeds use the
terms only in the description of the property conveyed
and merely to communicate that the railroad had been
located through certain property.
Furthermore, Appellants argue that, for many of
the deeds, the stated consideration was nominal, which
Appellants contend evidences that the parties intended
to convey only an easement. Under these
circumstances, reciting nominal consideration is
insufficient to overcome the other factors supporting a
determination that the deeds convey an estate in fee

17a

simple absolute. We also note that, on at least one
occasion, an Oregon appellate court gave little weight to
a pre-1967 deed’s recitation of nominal consider- ation
of $1 on the basis that “[i]t was not until 1967 that the
legislature” began “requiring that conveyances state
true and actual consideration,” and there was “no
evidence that one dollar was the true consideration.”
Realvest Corp. v. Lane Cnty., 100 P.3d 1109, 1118 & n.6
(Or. Ct. App. 2004). Likewise, the deeds at issue here
were all executed prior to 1967, and there is no evidence
that the recited consideration is the true consideration.
Finally, Appellants contend that we should construe
the deeds as passing an easement because each deed
specifically states that the railroad had already
surveyed and located a railway across the grantor’s land
prior to executing the deed. Appellants rely on our
decision in Preseault II. There, we interpreted Vermont
law as providing that where a railroad company’s
survey and location of the railway precedes the
execution of a written instrument, the survey and
location, not the subsequent written instrument, “is the
operative determinant.” Preseault II, 100 F.3d at
1536–37. We explained that railroads in Vermont had
eminent domain power to acquire easements in land
necessary to operate rail lines. Id. We reasoned that
where a railroad company surveys and locates its right
of way prior to any written agreement, such action
evidences the company’s intent to acquire only an
easement pursuant to its eminent domain authority,
and any subsequent written conveyance “retain[s]
[that] eminent domain flavor.” Id.
Appellants’ reliance on Preseault II is unpersuasive.

18a

Preseault II applied Vermont law, not Oregon law, and
we are unaware of any authority in Oregon that
supports Appellants’ position. To the contrary, the 1921
deed construed in Bouche plainly indicated that it was
executed after the railroad was “located and
established,” and the Bouche court gave no significance
whatsoever to that. Bouche, 206 Or. at 206, 209. We do
not accept Appellants’ invitation to depart from Bouche.
Furthermore, even the Supreme Court of Vermont
has not interpreted Preseault II to support Appellants’
position. In Old Railroad Bed, LLV v. Marcus, the
Supreme Court of Vermont explained that “[t]o the
extent that . . . Preseault [II] holds that a location
survey automatically converts a subsequent fee-simple
conveyance into an easement, we know of no law in
Vermont or elsewhere to support such a claim.” 196 Vt.
74, 79 (2014). Indeed, a location survey does not
“preclude[] a railroad from subsequently purchasing, or
the landowner from subsequently conveying, a deeded
fee-simple interest.” Id. at 81. For at least these
reasons, we do not read Preseault II as broadly as
Appellants, and even if we did, Preseault II would
nevertheless not justify departing from Bouche and
Bernards.
In short, we conclude that the twenty-six deeds at
issue here each conveyed an estate in fee simple
absolute, not an easement, to the railroad company.
Importantly, each of the deeds purports to convey land,
not an easement, right of way, or property for specified
purposes. In addition, the deeds purport to convey the
land forever and do not provide for reverter or

19a

otherwise restrict the use the grantee could make of the
land. Even though some of the deeds recite only
nominal consideration and the deeds were executed
after the railroad was surveyed and located, on balance
and under these circumstances, we conclude that the
parties conveyed estates in fee simple absolute to the
railroad company.6
III
We have considered Appellants’ remaining
arguments but find them unpersuasive. For the
foregoing reasons, we affirm the decision of the Court
of Federal Claims.
AFFIRMED

6

We further note that even if we were to conclude, for one
or more deeds, that there was irreconcilably conflicting language
between the granting clause and other parts of the deed, the
granting clause—which purports to convey land, not a right of way
or property for specified purposes—would control. Palmateer v.
Reid, 254 P. 359, 361 (Or. 1927); see also First Nat’l Bank of Or. v.
Townsend, 555 P.2d 477, 478 (Or. Ct. App. 1976) (“There is
also authority for the more technical proposition that if the in- tent
of the parties cannot be discerned from the deed and there is, as
here, an irreconcilable conflict between the granting clause and
other parts of the deed, the estate con- veyed in the granting clause
will prevail.”).

20a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
GARY E. ALBRIGHT, et al.,
Plaintiff-Appellants
CLAUDE J. ALLBRITTON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
PERRY LOVERIDGE, et al.,
Plaintiffs
NEAL ABRAHAMSON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
GARY E. ALBRIGHT, et al.,
Plaintiffs
DANIEL EARL HIGGINS, III, MICHAEL J. OPOKA,
ZELDA L. OPOKA,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
Nos. 2019-2078, 2019-2080, 2019-2090, 2019-2316

21a

Appeals from the United States Court
of Federal Claims in Nos. 1:16-cv-00912-NBF,
1:16-cv-01565-NBF, 1:18-cv-00375-NBF,
Senior Judge Nancy B. Firestone
JUDGMENT

THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT
December 1, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

22a

APPENDIX C
UNITED STATES COURT
OF FEDERAL CLAIMS
PERRY LOVERIDGE, et al.,
Plaintiffs,
v.
THE UNITED STATES,
Defendant.
ALBRIGHT, et al.,
Plaintiffs,
and
THE UNITED STATES,
Defendant.
No. 16-912L and 16-1565L
and No. 18-375L Consolidated
(FILED: February 8, 2019)
NOT FOR PUBLICATION
Motion for Reconsideration; Rails-to-Trails;
Oregon Law; Easement; Fee Simple
OPINION ON PLAINTIFFS’ MOTIONS FOR
RECONSIDERATION

I. INTRODUCTION
The Albright and Loveridge plaintiffs have
asked this court to reconsider its rulings in its
August 13, 2018 Opinion regarding 57 of the 132

23a

deeds at issue in this case.1 The plaintiffs dispute the
court’s findings that under Oregon law, certain deeds
conveyed fee title to the railroad in these rails-to-trails
cases as opposed to an easement. The Albright plaintiffs
ask the court to reconsider its rulings as to 44 deeds
while the Loveridge plaintiffs request reconsideration
with respect to 25 deeds of which 12 are also included in
the Albright plaintiffs’ motion. In total the plaintiffs in
these cases are seeking reconsideration on 57 deeds that
the court determined conveyed a fee to the railroad.
The Albright and Loveridge plaintiffs move for
reconsideration under Rule 59(a)(1) of the Rules of the
United States Court of Federal Claims. Under that
Rule, this court, “in its discretion, ‘may grant a motion
for reconsideration [,]’” but only if “‘there has been an
intervening change in the controlling law, newly
discovered evidence, or a need to correct clear factual or
legal error or prevent manifest injustice.’” Biery v.
United States, 818 F.3d 704, 711 (Fed. Cir. 2016)
(quoting Young v. United States, 94 Fed. Cl. 671, 674
(2010)). Accordingly, “[a] motion for reconsideration
must also be supported ‘by a showing of extraordinary
circumstances which justify relief.”’ Id. (citing Caldwell
v. United States, 391 F.3d 1226, 1235 (Fed. Cir. 2004)).
The Supreme Court has held that motions for
1

Prior to the court issuing its August 13, 2018 decision,
the parties agreed as to whether 30 of the deeds conveyed a fee or
an easement. Additionally, the parties do not challenge the court’s
legal conclusions regarding 45 of the deeds. At issue on
reconsideration are certain deeds which the court determined
conveyed a fee to the railroad and which plaintiffs argue should
have been determined ot have conveyed an easement.

24a

reconsideration “may not be used to relitigate old
matters, or to raise arguments or present evidence that
could have been raised prior to the entry of judgment.”
Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n.5
(2008) (quoting 11 Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 2810.1 (2d ed.
1995)). See also Lone Star Indus., Inc. v. United States,
111 Fed. Cl. 257, 259 (2013) (“A Rule 59 motion ‘must
be based upon manifest error of law, or mistake of fact,
and is not intended to give an unhappy litigant an
additional chance to sway the court.’” (quoting Fru-Con
Constr. Corp. v. United States, 44 Fed. Cl. 298, 300
(1999))). “A court . . . will not grant a motion for
reconsideration if the movant ‘merely reasserts . . .
arguments previously made . . . all of which were
carefully considered by the Court.’” Ammex, Inc. v.
United States, 52 Fed. Cl. 555, 557 (2002) (quoting
Principal Mut. Life Ins. Co. v. United States, 29 Fed. Cl.
157, 164 (1993)). Rather, “the movant must point to a
manifest (i.e., clearly apparent or obvious) error of law
or a mistake of fact.” Id. (citing Principal Mut. Life Ins.
Co., 29 Fed. Cl. at 164); Lucier v. United States, 138
Fed. Cl. 793, 798-99 (2018). “‘Manifest,’ as in ‘manifest
injustice,’ is defined as clearly apparent or obvious,”
Lucier, 138 Fed. Cl. at 799 (quoting Ammex, 52 Fed. Cl.
at 557), and therefore, as the court recently explained,
a party “seek[ing] reconsideration on the ground of
manifest injustice, . . . cannot prevail unless it
demonstrates that any injustice is apparent to the point
of being almost indisputable.” Id. (citations and
internal quotation marks omitted). The plaintiffs
contend that there has been a manifest injustice on the
grounds that the court misapplied Oregon law and that

25a

its rulings are inconsistent with this court’s prior
rulings in Boyer v. United States, 123 Fed. Cl. 430
(2015), a different rails to trails case arising in Oregon.2
II. THE COURT’S RULINGS ARE CONSISTENT
WITH OREGON LAW.
Both the Albright and Loveridge plaintiffs argue
that in its August 13, 2018 Opinion, the court did not
properly consider the factors the Oregon Supreme
Court laid out in Bernards v. Link, 248 P.2d 341 (Or.
1952), opinion adhered to on reh’g, 263 P.2d 794 (Or.
1953) (Mem.), and Bouche v. Wagner, 293 P.2d 203 (Or.
1956) when seeking to determine whether a conveyance
of a strip of land to a railroad conveyed an easement or
a fee simple interest. In Bernards the Oregon Supreme

2

The Loveridge plaintiffs also seek reconsideration with
regard to the Goodspeed 16/487 and Goodspeed 9/200 deeds and the
Smith, Lloyd 16/515 deed under Rule 60(a) for clerical errors. Rule
60(a) provides that “[t]he court may correct a clerical mistake
arising from oversight or omission whenever one is found in a
judgment, order, or other part of the record.” First, the Loveridge
plaintiffs argue that the court switched the text of the deed and
analyses of the Goodspeed 16/487 and Goodspeed 9/200 in its
August 13, 2018 opinion. Upon careful review the court agrees with
the plaintiffs and the discussion of the Goodspeed 16/487 and
Goodspeed 9/200 deeds in this opinion are consistent with this
correction. Second the Loveridge plaintiffs argue that the court
committed a clerical error when it recited the consideration of the
Smith, Lloyd 16/515 deed as $1 rather that $150. The court agrees
and the court’s analysis of the effect of this correction is reflected
in the court’s analysis of the plaintiffs’ Rule 59 motion for
reconsideration of the Smith, Lloyd 16/515 deed. Therefore, the
Loveridge plaintiffs Rule 60(a) motion for reconsideration is
GRANTED.

26a

Court, in finding that an easement had been conveyed
to a railroad, identified eight factors courts have looked
at to determine the intent of the parties to convey an
easement or a fee when the intent is not clear from the
face of the deed. The factors examined include: 1)
whether the deed is entitled a right of way; 2) whether
the interest conveyed is described as a strip of land for
use as a right of way; 3) whether the deed contains a
reverter clause that makes clear that the property will
be returned to the grantor if it no longer will be used as
a right of way; 4) whether the consideration is nominal;
5) whether the grantees have to provide crossings; 6)
whether the phrase “strip of land” is used repeatedly to
describe the interest being conveyed; 7) whether the
property conveyed is described with precision (if not it
is more likely an easement); and 8) whether fencing is
required to be maintained by the railroad. Bernards 248
P.2d at 343. In Bernards, the Oregon Supreme Court
found that a deed conveyed only an easement when the
deed was labeled a right of way deed, nominal
consideration was paid, the grant was for a strip of land
to be used as a right of way for a railroad, the right of
way was not described with precision, the grant was by
its terms for the construction of a railroad and the
property would revert back to the grantors if a railroad
line was not built. Id.
Later in Bouche the Oregon Supreme Court was
asked to decide whether a different deed conveyed an
easement or fee to the railroad. In that decision, the
Oregon Supreme Court explained that courts, in
endeavoring to ascertain the intent of parties where the
intent is not express, but the phrase “right of way” is

27a

used, will generally find an easement when the grant
references the use to be made of the property in the
granting or habendum clause. Bouche, 293 P.2d at 209.
Thus in Bouche, the Oregon Supreme Court held that
a deed conveyed a fee to the railroad where the deed: 1)
described the conveyance as a strip of land without
identifying the grant as only a right; 2) did not include
a statement of purpose; 3) described the land to be
conveyed with precision; and 4) used language in the
habendum clause consistent with the grant of fee. In
reaching this conclusion, the Bouche court explained
that the fundamental task of a court in deciding
whether a deed conveys a fee or an easement to the
railroad is “to ascertain the intent of the original
parties by considering the language of the deed in its
entirety and the surrounding circumstances.” Bouche,
293 P.2d at 208. See also Doyle v. Gilbert, 469 P.2d 624,
626 (Or. 1970); U.S. Nat’l Bank of LaGrande v. Miller,
258 P.2d 205, 209 (Or. 1927)).
In this case, after looking at the language of all of
the deeds, including the ones not in dispute, the court
found that certain of the Bernards/Bouche factors were
not very helpful in discerning whether a deed conveyed
a fee or easement because the parties had agreed that
deeds with these factors conveyed both fees and
easements. For example, the Alderman 11/614, Bryden
74/274, Cone 7/339, Handley 21/99, Hobson 7/39, and
Illingworth 7/164 deeds, which the parties stipulated
conveyed a fee to the railroad, all contained the phrase
“strip of land” and language such as “through” and
“across”. Relying on the parties stipulations and
comparing the language of the deeds that the parties

28a

agreed conveyed either an easement or a fee, the court
concluded that although it would consider the phrase
“strip of land” as an indication of an intent to convey an
easement under Oregon law, the phrase “strip of land”
without more was not very helpful in determining the
parties’ intent in most instances. The court also found
that use of the word “through,” which the Albright
plaintiffs contend is interchangeable with “over and
across,” was also of limited value in discerning the
original parties’ intent because virtually all of the fee
and easement deeds used “through” to describe the
location of the “strip of land” conveyed on the grantor’s
property. Furthermore, the court also found that the
precision used to describe fee interest conveyed was not
consistent between the properties the parties agreed
were conveyed in fee and thus the court did not give
that factor much weight. The Alderman 11/614 deed
contained a far more precise description of the land
being conveyed which included specific references to
boundary markers and precise metes and bounds
description while the Cone 7/339 deed only described
the land being conveyed as a land which runs through
certain parcels.3
In the court’s view limiting the use of certain
factors that were not helpful in discerning the parties’
intent was in keeping with the Oregon Supreme Court’s
3

The government notes that the Restatement (First) of
Property §471, cmt. c. (1944) provides that references to “an area
to be located by survey with reference to a known point or points”
or an “area to be determined by survey” may be sufficient to
indicate the intent to convey a fee. The more precise the more
likely the deed conveys a fee.

29a

decision in Bouche. In that case, the Oregon Supreme
Court explained that under Oregon law, ORS 93.120,
“any conveyance of real estate passes all the estate of
the grantor, unless the intent to pass a lesser estate
appears by express terms, or is necessarily implied in
the terms of the grant.” Thus, the Oregon Supreme
Court went on to explain that in deciding what was
conveyed to a railroad, courts must pay special
attention to whether the deed limits the railroad’s use
of the property to only a right:
[deeds] which purport to grant and convey a
strip, piece, parcel, or tract of land, [but] which
do not contain additional language relating to
the use or purpose to which the land is to be put
or in other ways cutting down or limiting,
directly or indirectly, the estate conveyed . . . . [
convey a fee]. Id. (quoting Annotation, Deed to
Railroad Co. as Conveying Fee or Easement,
132 A.L.R. 142 (1941)).
In view of the foregoing, the court does not find
that reconsideration is warranted solely on the grounds
that the court did not give equal weight or sufficient
weight to all of the eight Bernards/Bouche factors in
deciding whether the original grantor conveyed a fee or
easement to the railroad. This court examined each
deed and applied the Bernards/Bouche factors as
appropriate. Only to the extent that plaintiffs can show
that these factors were misapplied will the court
consider whether reconsideration is warranted.
III.

DIFFERENCES
BETWEEN THE
COURT’S AUGUST 13 OPINION AND

30a

THE RULING IN BOYER DO
WARRANT RECONSIDERATION.

NOT

Both the Loveridge and Albright plaintiffs also
argue that this court’s rulings in the August 13 Opinion
are contrary to, and inconsistent with, the court’s
rulings three years ago in Boyer v. United States, 123
Fed. Cl. 430 (2015) and for this reason the court’s
rulings must be reconsidered. As discussed below, the
court finds that any inconsistencies between the
decisions do not warrant reconsideration of any ruling.
First, the Boyer and Loveridge and Albright cases
involve different railroad lines and deeds and therefore
the Boyer decision is of limited value in discerning the
intent of the original parties to the deeds in this case.4
While non-binding decisions may provide persuasive
authority in certain circumstances, this is ordinarily
only true, “when the facts at issue are substantially
similar.” Tamerlane, Ltd. v. United States, 81 Fed. Cl.
752, 759 (2008) (citing Kerr-McGee Corp. v. United
States, 77 Fed. Cl. 309, 317 n. 10 (2007)). Here, the
facts are not “substantially similar” to those in Boyer.
The deeds and rail line are not the same. Second, in this
case, the parties stipulated to certain deeds and the
court relied on those stipulations in deciding the
original parties’ intent when considering the other
deeds at issue. It is not appropriate to reconsider the
court’s ruling on the deeds in this case based on the
4

In its decision in Boyer the court considered several deeds
in connection with the Portland, Eugene, and Eastern Railway. In
the above-captioned cases the relevant rail line was the Port of
Tillamook Bay Railroad.

31a

court’s ruling in Boyer regarding different rail lines and
different deeds. The court applied the same Oregon law
in both cases. Reconsideration, as noted above, is only
appropriate if the court misapplied Oregon law.
IV. THE INDIVIDUAL DEEDS
Plaintiffs’ motions for reconsideration of specific
deeds are divided into the five categories the court
asked the parties to use on reconsideration. See Oct. 22,
2018 Order. In its order, the court noted that the five
categories may overlap and in that instance, the court
explained that all of a plaintiffs’ objections to the
court’s determination should “be addressed in the first
category where the deed appears.” Id.
A. Category I: Deeds that contain the
language “together with the right to
build, maintain, and operate thereover a
railway” or other similar language.
Category I includes 10 deeds: Brinn 6/328;
Cummings 77/262; DuBois 22/40; Gattrel 13/311;
Goodwin 81/147; Large 5/536; Rinck 77/454; Slattery
94/161; Wheeler Lumber Co. 16/3; and Wheeler Lumber
Co. 16/5.
For each of these 10 deeds in Category I, the
Albright plaintiffs argue based on the language quoted
above (“right to build, maintain, and operate
language”) that although the deeds do not include any
right of way language that under Bouche these deeds
must be read to convey only an easement. Specifically,
the plaintiffs argue that under the standard set forth in
Bouche any deed containing language relating to the

32a

use of the property being conveyed for railroad use
must be construed to convey an easement.
The government argues in support of the court’s
previous ruling that the subject deeds in Category I
convey a fee that plaintiffs have mis-read Bouche.
Bouche states that
[c]ourts have little difficulty, where a railroad
company is grantee, in declaring that the
instrument creates only an easement whenever
the grant is a use to be made of the property,
usually, but not invariably, describe as for the
use as a right of way in the grant. . . . The
courts, however, seem to express a divergence
of opinion when the conveyance merely has a
reference to the use or purpose to which the
land is to be put, and which is contained in
either the granting or habendum clause, and,
except for the reference, would uniformly be
construed as passing title in fee.
The government argues that because the right to
build, maintain, and operate language does not appear
in either the granting or habendum clauses of the 10
deeds and because there is no right of way language in
any of the deeds, the court was correct in determining
that the right to build, maintain, and operate language
does not indicate an intent by the original parties to
grant an easement.
The court agrees with the government and sees no
reason to re-examine its holding concerning the
relevance of the right to build, maintain, and operate
language unless that language appears in connection

33a

with the grant of the property interest being conveyed.
In other words, if the right to build, maintain, and
operate language does not appear to affect the interest
being conveyed, the court sees no reason to change its
holding that such language indicates that the original
parties intended to convey a fee to the railroad.
However, the court will reevaluate each of these deeds
to determine if the right to build, maintain, and operate
language can be read in connection with the grant of
the property interest and thus is better read as a
limitation of that interest.
In further support of their motion for
reconsideration of eight of the ten deeds5 in Category I,
the plaintiffs argue that the court incorrectly
determined that the deeds described the strip of land
conveyed with precision and thus the court should have
determined that the deeds conveyed an easement and
not a fee.6 As stated above, the court will examine
whether it correctly applied the Bernards/Bouche
factors. The court’s review of each of the deeds for
which plaintiffs seek reconsideration in Category I are
set forth below.
1. Brinn 6/328 Deed

5

These deeds are Cummings 77/262; Du Bois 22/40;
Gattrel 13/311; Goodwin 81/147; Rinck 77/454; Slattery 94/161;
Wheeler Lumber Co. 16/3; and Wheeler Lumber Co. 16/5.
6

Additionally, the plaintiffs argue that the Du Bois 22/40;
Wheeler Lumber Co. 16/3; and Wheeler Lumber Co. 16/5 deeds also
contain nominal consideration which also indicates that the parties
intended to convey only an easement and not a fee to the railroad.

34a

The Brinn 6/328 deed (Def.’s Ex. 11)
provides in pertinent part
KNOW ALL MEN BY THESE PRESENTS:
That foR [sic] and in consideration of the sum
of $150.00 to them in hand paid, the receipt
whereof is hereby acknowledged, G. A. Brinn
and Annie Brinn, his wife, do hereby grant,
bargain, sell and convey to the Pacific Railway
and Navigation Company, and to its successors
and assigns forever, all that portion of the land
owned by them embraced in a strip of land 100
ft. wide, being 50 ft. on each side of the center
line of the Pacific Railway and Navigation
Company’s Railway, as now surveyed, located
and adopted thru the lands of the aforesaid G.
A. and Annie Brinn, in Lots 1- 2- 3- 4- 5- 6- 7and 8, [sic] Block “A”, [sic] Plat of East
Garibaldi, Sec. 21, T. 1 N. R. 10 W., W.M., said
center line being more particularly described as
follows:
* * * [Description] * * *
Together
with
the tenements,
hereditaments, and appurtenances thereunto
belonging or in anywise appertaining;
TO HAVE AND TO HOLD unto the Pacific
Railway and Navigation Company, and to its
successoRs [sic] and assigns forever; together
with the right to build, maintain and operate
thereover a railway and telegraph line.
The court had found that the Brinn 6/328 deed

35a

conveyed fee simple title to the railroad because the
language confirming the right to build a railroad did not
limit the railroad’s use of the grant to only railroad
purposes, the amount of consideration was substantial
($150), there was no “right of way” language used in
the title or body of the deed nor any right of reverter if
the railroad discontinued railroad use, and there was no
requirement for the railroad to build structures such as
crossings, cattle guards, or fences to protect the
grantor’s interest.7
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the Brinn 6/328 deed mandates that the court
find the Brinn 6/328 deed conveyed an easement. The
Brinn 6/328 deed does not contain any of the other
factors to suggest that the original parties intended to
convey an easement. Therefore, the motion for
reconsideration is denied.
2. Cummings 77/262 Deed
The Cummings 77/262 deed (Def.’s Ex. 25)
provides in pertinent part:

7

The court compared the Brinn 6/328 deed as well as the
other nine deeds in Category I with the Alley 5/475 deed which was
the first deed analyzed by this court to contain the right to build,
maintain, and operate language. The court notes that although the
plaintiffs are challenging the court’s legal conclusion about the
significance of the right to build, maintain, and operate language
in determining whether a fee or an easement was conveyed, they
are not challenging the court’s determination that the Alley 5/475
deed conveyed a fee and not an easement.

36a

KNOW ALL MEN BY THESE PRESENTS,
That for and in consideration of the sum of
$217.00 to them in hand paid, the receipt
whereof is hereby acknowledged, James
Cummings and Ann Cummings[,] his wife,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Washington and State of Oregon,
to-wit:A strip of land one hundred feet in width,
being fifty feet on each side of and parallel with
the center line of the track of the grantee as the
same is surveyed and located through the West
half of the Southeast quarter of Section 29 in
Township 3 North of Range 4 West of the
Willamette Meridian, containing 7.70 acres
more or less.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the above
named grantee and to its successors and assigns
forever.
The grantors do further covenant that the
grantee may operate a railway line over the
properties above described and also do all
things convenient or useful to be done in

37a

connection therewith. The grantors do
covenant that they are seised of the aforesaid
premises in fee simple; that their estate therein
is free from all liens and encumbrances, and
that they will and their heirs, executors and
administrators shall forever warrant and
defend the above granted premises unto the
grantee herein and unto its successors and
assigns forever against the lawful claims and
demands of all persons.
The court had found that the Cummings 77/262
deed conveyed fee simple title to the railroad because
the language confirming that the right to build a
railroad did not limit the railroad’s use of the grant to
only railroad purposes, the amount of consideration was
substantial ($217), there was no “right of way”
language used in the title or body of the deed nor any
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Cummings 77/262 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the

38a

railroad is sufficient to determine where that land was
and the deed specifically states how many acres of land
was conveyed to the railroad. Additionally, the
description of the land is nearly identical to the
description provided for in several other deeds that both
the plaintiffs and the government agreed conveyed a fee
to the railroad. See Cone 7/3398, Handley 21/999, Hobson
7/3910, Illingworth 7/16411. Furthermore, in the
description of the location of the property interest being
8

The Cone 7/339 deed states in relevant part: “A strip of
land one hundred (100) feet wide being fifty (50) feet on each side
of the centerline of the railway of the grantee as the same is
surveyed and located through Lot One of Block ten in Cone &
McCoy’s Addition to Bay City, according to the recorded plat
thereof; Also through Lots twenty eight, thirty, and thirty one in
J.J. McCoy’s Addition to Bay City, according to the recorded plat
thereof.”
9

Handley 21/99 deed states in relevant part “A strip of
land one hundred (100) feet wide being fifty (50) feet on each side
of the centerline of the railway of the grantee as the same is now
surveyed and located through the south half (1/2) of block “B” in
East Garfald Oregon, all being in Tillamook County State of
Oregon”
10

Hobson 7/39 deed states in relevant part “A strip of land
one hundred (100) feet wide being fifty (50) feet on each side of the
centerline of the railway grantee as the same is surveyed and
located through Lots three, four and seven of section twenty-two,
in Township of North of Range Ten West of Willamette Meridian.”
11

Illingworth 7/164 deed states in relevant part “A strip of
land one hundred (100) feet wide being (50) feet on each side of the
centerline of the railway of the grantee as the same is surveyed and
located through Lot five of section 22, in Township One North of
Range ten west of Willamette Meridian.”

39a

conveyed the parties indicate that the land had already
been surveyed which when read in conjunction with
Restatement (First) of Property §471, cmt. c. (1944)
(See, n. 3 supra) shows sufficient precision in the
description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouce factors weighed in favor of finding
that the Cummings 77/262 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
3. Du Bois 24/40 Deed
The Du Bois 24/40 deed (Def.’s Ex. 32) provides
in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of One
Dollar[]($1.00), the receipt whereof is hereby
acknowledged, Willie G. Du Bois and John E.
Du Bois, her husband, hereinafter called the
grantors, do hereby bargain, sell, grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situated in
the county of Tillamook and state of Oregon,
to-wit:
A strip of land sixty feet in width being
thirty feet on each side of the center line of
grantee’s railway as the same is last located,
staked out, surveyed and being constructed
through the following described tract, to- wit:

40a

Beginning at the […] corner on the south
bank of the Nehalen Bay on the section line
between sections two (2) and three (3) in
township two (2) north. Range ten (10) west in
said county and state and running thence south
on said section line 5.26 chains to a post: thence
south 55° 30° West 5.88 chains to post at the
Southeast corner of the tract of land hereby
described: thence South 55°330° West 6.46
chains to the southwest corner: thence north
34°30° West 6.38 chains to the south bank of
Nehalen Bay: thence easterly up said Nehaluen
Bay following the meanderings thereof to
appoint and post north 34°30° West 5.55 chains
from the said southeast corner of the lands
hereby described; thence south 34°30° east 5.55
chains to the said southeast corner and place of
beginning.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever; the grantors confirming also to the
grantee, its successors and assigns, the right to
build, maintain and operate a line of railway
thereover.
The aforesaid grantors do hereby covenant
that they are the owners in fee simple of the
above granted premises and that they will
forever Warrant and Defend the same unto the

41a

said grantee, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Du Bois 24/40 deed
conveyed fee simple title to the railroad despite the
nominal consideration ($1) because the language
confirming the right to build a railroad did not limit the
railroad’s use to only railroad purposes, there was no
“right of way” language used in the title or body of the
deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the Du
Bois 24/40 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate

42a

that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Du Bois 24/40 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.12
4. Gattrell 13/311 Deed
The Gattrell 13/311 deed (Def.’s Ex. 40)
provides in pertinent part:
Know all Men by These Presents: That for
and in consideration of the sum of One ($1.00),
to him in hand paid, the receipt whereof is
hereby acknowledged, F.J. Gattrell an
unmarried man, hereinafter called the grantor,
does bargain, sell, grant[,] convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its

12

The plaintiffs also argue that because the consideration
in the deed was nominal ($1) the court improperly determined that
the Du Bois 24/40 deed conveyed a fee rather than an easement.
However, the plaintiffs and the government stipulated that that
Johnson 11/353 deed and the Parks 11/329 deed conveyed a fee to
the railroad despite the amount of consideration only being $1.00
and the deed containing “strip of land” and “through”. Thus given
the parties stipulations, the court finds that the fact that the
consideration in the deed was nominal is not determinative in
concluding that the deed conveyed an easement rather than a fee.

43a

successors and assigns forever, a strip of land
sixty (60) feet in width, being thirty (30) feet on
each side of and parallel with the center line of
the railway of the grantee as the same is now
located, surveyed and staked out through lot
two (2) of section twenty nine (29) in township
two (2) North of range ten (10) West of the
Willamette Meridian, in the County of
Tillamook and State of Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the [above
named] grantee and to its successors and
assigns forever, confirming to the grantee
likewise the right to build, maintain and
operate a railway line thereover.
The court had found that the Gattrell 13/311 deed
conveyed fee simple title to the railroad despite the
nominal consideration ($1) because the language
confirming the right to build a railroad did not limit the
railroad’s use to only railroad purposes, there was no
“right of way” language used in the title or body of the
deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final

44a

portion of the deed mandates that the court find the
Gattrell 13/311 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouce factors weighed in favor of finding
that the Gattrell 13/311 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.13

13

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.

45a

5. Goodwin 81/147 Deed
The Goodwin 81/147 deed (Def.’s Ex. 43)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of Three Hundred
and [Fifty] Dollars, to them in hand paid, the
receipt whereof is hereby acknowledged,
Nathan J. Goodwin and M. M. Goodwin his
wife, hereinafter called the grantors, do
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property, situate in the
County of Washington and State of Oregon,
to-wit: A strip of land One hundred feet in
width, being fifty feet on each side of the center
line of the track of the grantee, as the same is
surveyed and located through the east half of
the southwest quarter of section twenty seven
in township three north of range five west,
together with the appurtenances[,] tenements
and hereditaments thereunto belonging or in
anywise appertaining, together also with the
right to maintain and operate a railroad
thereover. TO HAVE AND TO HOLD to the
grantee, and to its successors and assigns
forever. The grantors, above named, do
As such, the court finds that the fact that the Gattrell 13/311 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

46a

covenant with the grantee, and with its
successors and assigns, that they are seized of
the said premises in fee simple, and that they
will, and their heirs, executors and
administrators shall, warrant and defend the
same against the lawful claims and demands of
all persons whomsoever.
The court had found that the Goodwin 81/147 deed
conveyed fee simple title to the railroad because the
language confirming the right to build a railroad did not
limit the railroad’s use to only railroad purposes, the
amount of consideration was substantial ($350), there
was no “right of way” language used in the title or body
of the deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Goodwin 81/147 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government

47a

agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Goodwin 81/147 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
6. Large 5/536 Deed
The Large 5/536 deed (Def.’s Ex. 69)
provides in pertinent part:
Know All Men By These Presents:
That for and in consideration of the sum of
$250.00 to her in hand paid, the receipt whereof
is hereby acknowledged, Mrs. J. Large does
hereby grant, bargain, sell and convey to the
Pacific Railway and Navigation Company, and
to its successors and assigns forever: a strip of
land 100 ft. wide, being 50 ft. on each side of
the center line of the railway of the Pacific
Railway and Navigation Company, as now
surveyed and located thru this land of the
aforesaid Mrs. J. Large in Lots 3 and 4, Sec. 21,
T. 1 N. R. 10 W., W.M. said center line being
more particularly described as follows, to wit:

48a

[Description]
Together with the tenements, hereditaments
and appurtenances thereunto belonging or in
anywise appertaining;
To Have and to Hold unto the Pacific Railway
and Navigation Company and to its successors
and assigns forever; together with the right to
build, maintain and operate thereover a railway
and telegraph line.
The court had found that the Large 5/536 deed
conveyed fee simple title to the railroad because the
language confirming the right to build a railroad did not
limit the railroad’s use to only railroad purposes, the
amount of consideration was substantial ($250), there
was no “right of way” language used in the title or body
of the deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the Large 5/536 deed mandates that the court
find the Large 5/536 deed conveyed an easement.
Therefore, the motion for reconsideration is denied.
7. Rinck 77/454 Deed
The Rinck 77/454 deed (Def.’s Ex. 90)
provides in pertinent part:

49a

KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
Dollar to him in hand paid, the receipt whereof
is hereby acknowledged, and other valuable
considerations moving to him, J. H. Rinck, an
unmarried man, hereinafter called the grantor,
does hereby bargain, sell, grant, convey and
confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forevEr, [sic] all of
the following described real property situate in
the County of Washington and State of Oregon,
to wit:
A strip of land 100 feet wide, being 50 feet
on each side of the centereline [sic] of the track
of the Pacific Railway and Navigation Company
as the same is constructed through the North
half of the northeast quarter of Section 32, in
township 3 North of range 4 west of the
Willamette Meridian containing 3.17 acres.”
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining, granting
also the grantee the right to operate a railway
line thereover as well as the fee of the aforesaid
premises. The grantor does covenant that he is
seased [sic] of the aforesaid premises in fee
simple and that the same are free from all liens
and encumbrances, and that he will and his
heirs, executors and administrators shall
forever warrant and defend the same against
the lawful claims and demands of all persons

50a

whomsoever.
The court had found that the Rinck 77/454 deed
conveyed fee simple title to the railroad despite the
nominal consideration ($1) because the language
confirming the right to build a railroad did not limit the
railroad’s use to only railroad purposes, there was no
“right of way” language used in the title or body of the
deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Rinck 77/454 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of

51a

Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that Rinck 77/454 deed conveyed a fee was correct and
therefore the plaintiffs’ motion for reconsideration is
denied.14
8. Slattery 94/161 Deed
The Slattery 94/161 deed (Def.’s Ex. 101)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of Ten
Dollars to them in hand paid, the receipt
whereof is hereby acknowledged, and other
valuable considerations moving to them, W. C.
Slattery and Delia Slattery, his wife,
hereinafter called the grantors , do bargain,
grant, convey and confirm to Pacific Railway
and Navigation Company, hereinafter called
the grantee, and to its successors and assigns
forever, all of the following described real

14

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Rinck 77/454 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

52a

property situate in the County of Washington
and State[]of Oregon, to-wit: A strip of land one
hundred feet in width, being fifty feet on each
side of the center line of the grantee's railway
as the same is surveyed, staked out and located
through the northwest quArter [sic] of Section
32 in Township 3 North of Range 5 West of the
Willamette Meridian. Together with the
appurtenances, tenements and hereditaments
thereunto belonging, or in any wise [sic]
appertaining, with the right to construct,
maintain and operate a railway thereover. TO
HAVE AND TO HOLD to the grantee and to its
successors and assigns forever. A n d t h e
grantors do covenant with the grantee that
they will warrant and defend the premises
above granted unto the grantee, and to its
successors and assigns against the lawful claims
and demands of all persons whomsoever
claiming or to claim under the grantors.
The court had found that the Slattery 94/161 deed
conveyed fee simple title to the railroad because the
language confirming the right to build a railroad did not
limit the railroad’s use to only railroad purposes, the
amount of consideration was substantial ($10), there
was no “right of way” language used in the title or body
of the deed nor any right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to

53a

build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Slattery 94/161 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Slattery 94/161 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.
9. Wheeler Lumber Co. 16/3 Deed
The Wheeler Lumber Co. 16/3 deed
(Albright, ECF No. 34, Ex. 82) provides in part:
Know All Men by These Presents: That for and

54a

in consideration of the sum of $1.00 to it in
hand paid, the receipt whereof is hereby
acknowledged, The Wheeler Lumber Company,
hereinafter called the grantor, does hereby
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
county of Tillamook and State of Oregon,
to-wit:
A strip of land 60 feet in width, being thirty 30
feet on each side of and parallel with the center
line of the grantee's railway as the same is
located, staked out, and surveyed through the
following described three parcels of real
property, to-wit:
* * * * [Describing the three parcels through
which the strip being conveyed runs] * * *
Together with the appurtenances, tenements
and hereditaments thereunto belonging or in
anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever; the grantors confirming also to the
grantee, its successors and assigns, the right to
build, maintain and operate a line of railway
thereover.
The court had found that the Wheeler Lumber Co.
16/3 deed conveyed fee simple title to the railroad

55a

despite the nominal consideration ($1) because the
language confirming that the right to build a railroad
did not limit the railroad’s use to only railroad
purposes, there was no “right of way” language used in
the title or body of the deed nor any right of reverter if
the railroad discontinued railroad use, nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences to protect the
grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Wheeler Lumber Co. 16/3 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly
identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.

56a

Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Wheeler Lumber Co. 16/3 deed conveyed a fee
was correct and therefore the plaintiffs’ motion for
reconsideration is denied.15
10. Wheeler Lumber Co. 16/5 Deed
The Wheeler Lumber Co. 16/5 deed (Def.’s Ex. 123),
provides in pertinent part:
Know All Men by These Presents, that for and
in consideration of the sum of One Dollar
($1.00) to it in hand paid, the receipt whereof is
hereby acknowledged, The Wheeler Lumber
Company, hereinafter called the grantor, does
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
county of Tillamook and state of Oregon, towit:
A strip of land sixty feet in width being thirty
15

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word throughconveyed a fee. As
such, the court finds that the fact that the Wheeler Lumber Co.
16/3 deed contained only nominal consideration does not change
the court’s conclusion that it conveyed a fee rather than an
easement.

57a

feet on each side of and parallel with the center
line of the grantee’s railway as the same is last
located, staked out, surveyed and being
constructed through Lots Four (4), Five[](5),
Six[](6) and that part of Lot Three (3) lying
west of the lands in said lot heretofore
conveyed by said grantor to Willie G. Du Bois,
all in Section Three (3) and the East Half (E ½)
of Lot One (1) in Section Four (4) and through
all tide lands fronting and abutting on all of the
above described lands, all in Township
Two[](2), North Range Ten
(10) West Willamette Meridian.
Also, a strip of land sixty feet in width being
thirty feet on each side of and parallel with the
center line of the grantee’s railway as the same
is last located, staked out, surveyed and being
constructed through all the tide lands fronting
and abutting on that part of said Lot Three (3)
in said Section Three (3) in said Township
Two[](2) North, Range Ten (20) West,
Willamette Meridian, described as follows: * *
* * [Describing the land through which the
strip being conveyed runs] * * *
Together with the appurtenances, tenements
and hereditaments thereunto belonging or in
anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever; the grantors confirming also to the
grantee, its successors and assigns, the right to

58a

build, maintain and operate a line of railway
thereover.
The aforesaid grantor does hereby covenant
that it is the owner in fee simple of the above
granted premises, and that it will warrant and
defend same unto the said grantee aforesaid, its
successors and assigns, against the lawful
claims and demands of all persons whomsoever.
The court had found that the Wheeler Lumber Co.
16/5 deed conveyed fee simple title to the railroad
despite the nominal consideration ($1) because the
language confirming that the right to build a railroad
did not limit the railroad’s use to only railroad
purposes, there was no “right of way” language used in
the title or body of the deed nor any right of reverter if
the railroad discontinued railroad use, nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences to protect the
grantor’s interest.
Given these findings, which are not disputed, the
court rejects plaintiffs’ contention that the right to
build, maintain, and operate language in the final
portion of the deed mandates that the court find the
Wheeler Lumber Co. 16/5 deed conveyed an easement.
The plaintiffs also argue that the description of the
property conveyed is not precise and thus the court
should have found that the deed conveyed an easement
and not a fee. The court disagrees. First, the description
of the location of the land being conveyed to the
railroad is sufficient to determine its precise location.
Additionally, the description of the land is nearly

59a

identical to the description provided for in several other
deeds that both the plaintiffs and the government
agreed conveyed a fee to the railroad. See Cone 7/339,
Handley 21/99, Hobson 7/39, Illingworth 7/164.
Furthermore, in the description of the location of the
property interest being conveyed the parties indicate
that the land had already been surveyed which when
read in conjunction with Restatement (First) of
Property §471, cmt. c. (1944) shows sufficient precision
in the description of the location of the conveyed land to
conclude that the parties intended to convey a fee.
Thus, the court finds that its original conclusion that
the Bernards factors weighed in favor of finding that
the Wheeler Lumber 16/5 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.16
B. Category II:
Deeds.”

Deeds titled “Railway

Category II includes the following deeds: Batterson
12/163, Easom 11/515, McMillan 11/328, Ostrander
9/205, Roy 11/516, and Shrader & Groat 11/354. The
Albright plaintiffs make two separate legal arguments
16

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Wheeler Lumber Co.
16/5 deed contained only nominal consideration does not change
the court’s conclusion that it conveyed a fee rather than an
easement.

60a

as to why the court should reconsider its determination
that these six deeds conveyed a fee to the railroad. Each
of these legal arguments will be addressed in turn.
i.

Deeds Entitled “Railway Deed” Do Not
Automatically Convey An Easement To
The Railroad.

The Albright plaintiffs contend that these six deeds
should be interpreted as having conveyed only
easements. Plaintiffs argue that “railway” in the title of
a deed, is the same as, or interchangeable with, “right
of way,” Albright Mot. at 8, and that the title of the
deed alone, regardless of whether “Right-of Way Deed”
or “Railway Deed,” is “enough under Oregon law to
find an easement.” Id. at 9.
The Albright plaintiffs did not raise this argument
in their summary judgment motion or reply, but rather
raised the issue for the first time in their objections to
the Court’s Preliminary Findings on summary
judgment, ECF No. 49. The United States therefore
maintains, as it did in oral argument, Oral Arg. Tr.
99:11-20, that the Albright plaintiffs have waived this
argument.
Plaintiffs cite no Oregon law or other controlling
authority in support of their argument, and the court is
aware of no Oregon cases that hold, or even suggest,
that a deed entitled “Railway Deed” cannot convey a
fee. Indeed, to the contrary, as the United States
previously noted, Def.’s XMSJ at 14-15, Oregon law is
clear that railroads can own strips of land in fee. See
Bouche, 293 P.2d at 206, 210. And the Oregon Supreme
Court has held that, in conveyances to railroads, the

61a

phrase “right of way” can refer to the land itself and
not be an indication of the estate being conveyed. Id. at
209. In this case, the Category II deeds do not use either
the terms “right-of way” or “railway” in the body of the
deed, but only in the title. Thus, because railroads can
hold either fee title or easements in strips of land on
which they construct a right of way, the title, “Railway
Deed,” does not dictate that the property interest being
conveyed is an easement, rather it merely indicates that
the deed is a form that can be used when a railroad is a
party to a land conveyance.
In sum, as to this issue, particularly in light of the
substantial consideration for each of the six
conveyances (Batterson - $800; Easom - $800; McMillan
- $300; Ostrander - $550; Roy- $1,000; Shrader & Groat
- $200),17 and based on the absence of any “right of way”
or other limiting language, the court finds that
reconsideration is not needed.
ii. Strip of land, through, and lack of precision
The Albright plaintiffs also challenge each of the
Category II deeds on other grounds the deeds’ use of
“strip of land,” and “through,” and the lack of precision
in their descriptions of the property being conveyed,
which they claim are “additional indicia” indicating
that the deeds were intended to convey easements and
not fees as the court had previously determined. The
court will review each deed in turn for reconsideration.

17

In Boyer, this Court recognized that “where consideration
is substantial, the balance tips in favor of finding a fee . . . .” 123
Fed. Cl. at 439.

62a

1. Batterson 12/163
The Batterson 12/163 deed (Def.’s Ex. 5)
provides in pertinent part:
S. M. Batterson et al
Railway Deed.
to
NO. 7948.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of Eight [sic] Hundred & 00
DOLLARS, [sic] the receipt whereof is hereby
acknowledged, we, S M. Batterson [sic] and
Harriet E. McMaine, sole heirs at law of
William Batterson, deceased, and Pauline O.
Batterson wife of said S. M. Matterson,
hereinafter called the grantors, do hereby
bargain, sell, grant[,] convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) feet wide
being fifty (500 [sic] feet on each side of the
center line of the railway of the grantee, as the
same is surveyed and located through Lots 4, 6
and 7 and the North West quarter of South
East quarter of Section 34 and LOt [sic] 6 of
Section 35, in Township 3 North of Range nine
West of Willamette Meridian.

63a

Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court found that the Batterson 12/163 deed
granted fee simple title to the railroad because “Railway
Deed” on its own did not indicate an intent to convey
an easement, the amount of consideration was
substantial ($800), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds the Batterson 12/163 deed describes

64a

the location of the land being conveyed by the grantor
with sufficient precision to conclude that the original
parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Batterson 12/163 deed conveyed a
fee to the railroad. The court disagrees. First “strip of
land” only indicates an intent to convey an easement
when it is used in connection with language limiting its
use. In this instance it is clear that “strip of land” is
describing the property being conveyed. Similarly,
deeds which contain the word “through” when
describing the location of the “strip of land” does not
indicate an intent by the original parties to convey an
easement. The use of the word “through” is not the
same as “over and across” which the Oregon Supreme
Court found indicated an intent to convey an easement,
and the use of “through” not in connection with a right
to cross does not indicate an intent to convey an
easement but rather is a description of the location of
the property interest being conveyed. As such, the use
of “through” in the Batterson 12/163 deed is not used
in connection with a right and as such does not indicate
an intent by the original parties to convey an easement.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Batterson 12/163 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
2. Easom 11/515 Deed

65a

The Easom 11/515 deed (Def.’s Ex. 33)
provides in pertinent part:
Elnora [sic] F. Easement et vir.
Railway Deed.
to
No. 7463.
Pacific Railway and Navigation Co.
K N O W
A L L
M E N
B Y
THESE[]PRESENTS : [sic] That for and in
consideration of the sum of Eight Hundred &
00/100 DOLLARS, the receipt whereof is
hereby acknowledged, we, Elnora [sic] F.
Easom and Chas. E. Easom, wife and
husband[,] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through Lots One, two,
six and seven in Section thirty six, in Township
three North of Range ten West of Willamette
Meridian, except a certain three acre tract in
said Lot One [sic] heretofore sold to Felix Roy.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above

66a

named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court found that the Easom 11/515 deed
granted fee simple title to the railroad because “Railway
Deed” on its own did not indicate an intent to convey
an easement, the amount of consideration was
substantial ($800), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds the Easom 11/515 deed describes the
location of the land being conveyed by the grantor with
sufficient precision to conclude that the original parties
intended to convey a fee.
Next, the plaintiffs argue that because the deed

67a

refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Easom 11/515 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the courts analysis of the Batterson
12/163 deed in Category II, the use of “strip of land”
and through in the Easom 11/515 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Easom
11/515 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.
3. McMillan 11/328 Deed
The McMillan 11/328 deed (Def.’s Ex. 75)
provides in pertinent part:
Nillus McMillan and wife
Railway Deed.
to
No. 7181.
Pacific Railway and Navigation Co.
KNOW ALL MEN BY THESE PRESENTS,
That for and in onsideration of the sum of
Three Hundred & 00/100 DOLLARS, the
receipt whereof is hereby acknowledged, We,
Nillus McMillan and Sarah McMillan, husband
and wife, hereinafter called the grantors, do
hereby bargain, sell[,] grant, convey and
confirm to PACIFIC RAILWAY AND
NAVIGATION COMPANY, hereinafter called
the grantee, and to its successors and assigns
forever, all of the following described real

68a

property, situate in the County of Tillamook
and State of Oregon, to-wit:
A strip of land Sixty [sic] (60) feet wide,
being thirty (30) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through
Beginning at the mouth of a certain water
ditch in Lot three of Section twenty Township
two North of Range ten west, running hence in
a South easterly direction following said ditch
to its intersection with a small lake, thence out
South across said lake to its South Bank,
thence in an Easterly direction following the
foot of the hill to the East line of said Lot three,
thence North on said line to the Nehalem
Riven, thence Southerly on line of ordinary
high water mark to point of beginning,
containing 10 acres more or less, all in Sec. 20,
T. 2 N. R. 10 W. Also the north half of South
East quarter and West half of North East
quarter of Section 20, T. 2 N. R. 10 W. all being
situated in Tillamook County, Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever. The grantors above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all encumbrances, and that they will

69a

warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
The court found that the McMillan 11/328 deed
granted fee simple title to the railroad because “Railway
Deed” on its own did not indicate an intent to convey
an easement, the amount of consideration was
substantial ($300), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds the McMillan 11/328 deed describes
the location of the land being conveyed by the grantor
with sufficient precision to conclude that the original
parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the McMillan 11/328 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the courts analysis of the
Batterson 12/163 deed in Category II, the use of “strip

70a

of land” and through in the McMillan 11/328 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the McMillan 11/328 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
4. Ostrander 9/205 Deed
The Ostrander 9/205 deed (Def.’s Ex. 80)
provides in pertinent part:
Chas. [sic] Ostrander and wife
Railway Deed.
to
No. 5807.
Pacific Railway and Navigation Co.
KNOW ALL MEN BY THESE PRESENTS,
That for and in consideration of the sum of Five
Hundred Fifty & 00/100 DOLLARS[,] the
receipt whereof is hereby acknowledged, we,
Charles R. Ostrander and Frances A.
Ostrander, husband and wife, of Bay City, in
the County of Tillamook and State of Oregon,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property, situate in the
County of Tillamook and State of Oregon,
to-wit:

71a

A strip of land one hundred (100) feet wide,
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through that certain tract
of land described as follows: Beginning at the
North East corner of Bar View Addition to Bay
City, in Tillamock County, State of Oregon, and
running thence East thirteen hundred (1300)
feet, thence South to the South line of the
Hiram Smith Donation Land Claim, thence
West to the South East corner of a seven and
one half acre tract formerly owned by Peter
Morgan, thence North thirty seven rods more
or less to a slough and being the North East
corner of said seven and one half acre tract,
thence following down said slough in a South
Westerly direction to appoint which would be in
line with the Ease line of Bar View addition
aforesaid, thence North to the place of
beginning.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the

72a

grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court found that the Ostrander 9/205 deed
granted fee simple title to the railroad because “Railway
Deed” on its own did not indicate an intent to convey
an easement, the amount of consideration was
substantial ($550), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds that the Ostrander 9/205 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Ostrander 9/205 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the courts analysis of the
Batterson 12/163 deed in Category II, the use of “strip
of land” and through in the Ostrander 9/205 deed are

73a

not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Ostrander 9/205 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
5. Roy 11/516 Deed
The Roy 11/516 deed (Def.’s Ex. 93) provides in
pertinent part:
Felix Roy
Railway Deed.
to
No. 7464.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
Thousand & 00/100 DOLLARS, the receipt
whereof is hereby acknowledged, I Felix Roy, a
bachelor of Tillamook County, Oregon,
hereinafter called the grantors, [sic] do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) feet wide,
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is

74a

surveyed and located through Lot three of
Section 36 Township 3 North of Range 9 West
of W.M. Lots two, three and thirteen of Section
31, Township 3 North of Range 9 West of W. M.
Also through a certain tract described as
follows:- Beginning at the meander post on the
North bank of Nehalem River on the line
between Section 31 Tp. 3 N. Range 9 West and
Section 36 Tp. 3 North Range 10 West, running
thence North 30 rods, thence West 208 feet,
thence South to Nehalem River, thence in an
Easterly direction following the North bank of
Nehalem River to place of beginning in Sec. 36
Tp. 3 N. R. 10 W. of W.M.
Together with the appurtenances, tenements
and hereditaments thereunto belonging or in
anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors [sic] above named do covenant
that they are seised of the aforesaid premises in
fee simple and that the same are free from all
encumbrances, and that they [sic] will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
The court found that the Roy 11/516 deed granted
fee simple title to the railroad because “Railway Deed”
on its own did not indicate an intent to convey an

75a

easement, the amount of consideration was substantial
($1000), there was no “right of way” language in the
title or body of the deed, no limitation on the use of the
land for railroad purposes only, no right of reverter if
the railroad discontinued railroad use, nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences to protect the
grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds the Roy 11/516 deed describes the
location of the land being conveyed by the grantor with
sufficient precision to conclude that the original parties
intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that Roy 11/516 deed conveyed a fee to the
railroad. The court disagrees. For the same reasons as
explained in the courts analysis of the Batterson 12/163
deed in Category II, the use of “strip of land” and
through in the Roy 11/516 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Roy 11/516
deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.

76a

6. Schrader & Groat 11/354 Deed
The Schrader & Groat 11/354 deed (Def.’s
Ex. 98) provides in pertinent part:
Paul Schrader et ux
& John Groat et ux
Railway Deed.
to
No. 7235.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS, That for and in consideration of
Two Hundred & 00 DOLLARS, the receipt
whereof is hereby acknowledged, we, Paul
Schrader and Lillie R. Schrader[,] husband and
wife, and John Groat and Lillian A. Groat, [sic]
husband and wife, hereinafter called the
grantors[,] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee[,] and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
A strip of land sixty feet wide being thirty
feet on each side of the center line of railway of
the grantee as the same is surveyed and located
through Lot one of Section five, in Township
One North of range ten West of Willamette
Meridian, save and except seven acres off the
South[]and a strip of land twenty feet wide off
the North end of said Lot one.
Together

with

the

appurtenances,

77a

tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court found that the Schrader & Groat 11/354
deed granted fee simple title to the railroad because
“Railway Deed” on its own did not indicate an intent to
convey an easement, the amount of consideration was
substantial ($200), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest. .
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I deeds the Schrader & Groat 11/254 deed
describes the location of the land being conveyed by the

78a

grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Schrader & Groat 11/354 deed
conveyed a fee to the railroad. The court disagrees. For
the same reasons as explained in the courts analysis of
the Batterson 12/163 deed in Category II, the use of
“strip of land” and through in the Schrader & Groat
11/354 deed are not made in reference to any language
limiting the use of the land and thus do not indicate an
intent by the original parties to convey an easement.
Thus, the court finds that its original conclusion that
the Bernards/Bouche factors weighed in favor of finding
that the Schrader & Groat 11/354 deed conveyed a fee
was correct and therefore the plaintiffs’ motion for
reconsideration is denied.
C. Category III: Deeds that conveyed a “strip
of land” and used either “across”,
“through”, “over” or “over and across” a
grantor’s land, without “right of way”
language.
With respect to the twenty-eight deeds in Category
III, plaintiffs argue that under Oregon law, this court
should have determined that deeds which contained the
phrase “strip of land” and the words “through,” “over,”
“on,” or “across” convey an easement. These are the
same arguments made for the deeds in Category II
except that the Category II deeds were all entitled
“Railway Deed”. As explained in the court’s analysis of

79a

the Category II deeds the phrase “strip of land” when
not used in connection with limiting language does not
indicate an intent by the original parties to convey an
easement. Additionally, the court’s analysis of the deeds
use of the word through also applies to similar words
offered by the plaintiffs including “over,” “on,” and
“across”. Applying these standards, the court will
review each deed in Category III in turn for
reconsideration.
1. Beals 18/40 Deed
The Beals (Tr.) 18/40 deed (Def.’s Ex. 7)
provides in pertinent part:
F.R. Beals, Trustee
to
11135 Railway Deed
Pacific Railway + Navigation Co
Know All Men by These Presents: That for
and in consideration of the sum of One and
00/100 Dollars, [sic] the receipt whereof is
hereby acknowledged, F R. Beals, Trustee,
hereinafter called the grantors, [sic] do [sic]
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is

80a

surveyed and located through Lot three of
Section thirty two in Township two North of
Range ten West of the Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The court had found that the Beals 18/40 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Beals 18/40 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly

81a

concluded that the Beals 18/40 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Beals 18/40 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Beals 18/40 deed conveyed a fee
was correct and therefore the plaintiffs’ motion for
reconsideration is denied.18
2. Bigelow 13/312 Deed
The Bigelow 13/312 deed (Def.’s Ex. 9)
provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of $1.00 to
them in hand paid, the receipt whereof is
hereby acknowledged, Mary M. Bigelow and Jay
W. Bigelow, her husband, hereinafter called the
grantors, do bargain, sell, grant, convey and
confirm to Pacific Railway and Navigation

18

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Beals 18/40 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

82a

Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land 100 feet in width, being 50
feet on each side of and parallel with the center
line of the grantee’s railway as the same is
surveyed, located and staked out through the
Southeast quarter of the Southeast quarter of
Section 32, in Township 3 North of Range 9
West of Willamette Meridian, and containing
eighty-four hundredths of an acre[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining
To Have and to Hold to the grantee and to
its successors and assigns forever.
This deed is executed for the purpose of
correcting an informality in a previous deed
executed by the above named grantor, Mary M.
Bigelow, without the joinder of her husband.
The court had found that the Bigelow 13/312 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle

83a

guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Bigelow 13/312 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Bigelow 13/312 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Bigelow 13/312 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Bigelow
13/312 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.19

19

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.

84a

3. Burgholzer 83/99 Deed
The Burgholzer 83/99 deed (Def.’s Ex. 14)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Joseph Burgholzer and Vina A.
Burgholzer, his wife for and in consideration of
the sum of One Dollar, to them in hand paid,
the receipt whereof is hereby acknowledged, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
and[]to its successors and assigns forever, all of
the following described real property situate in
the County of Washington and State of Oregon,
to-wit:
A strip of land one hundred feet in width,
being fifty feet on each side of and parallel with
the center line of the track of the Pacific
Railway and Navigation Company, as the same
is surveyed and located through the East one
half of the Northeast quarter of Section thirty
(30) in Township three (3) North of Range four
(4) West W. M.
Together
with
the
tenements,
hereditaments and appurtenances [,] thereunto
belonging or in anywise appertaining. TO
HAVE[]AND TO HOLD to the said Pacific

As such, the court finds that the fact that the Bigelow 13/312 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

85a

Railway and Navigation Company, and to its
successors and assigns forever.
The aforesaid grantors Joseph Burgholzer
and Vina A. Burgholzer do hereby covenant
that they are the owners in fee simple of the
aforesaid premises, and that they will forever
warrant and defend the same unto the Pacific
Railway and Navigation Company, its
successors and assigns, against the lawful
claims of all persons whomsoever.
The court had found that the Burgholzer 83/99 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Burgholzer 83/99 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers to
the property as a “strip of land” and describes it as
passing through the land, the court incorrectly

86a

concluded that the Burgholzer 83/99 deed conveyed a
fee to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Burgholzer 83/99 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Burgholzer
83/99 deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.20
4. Campbell 85/208
The Campbell 85/208 deed (Def.’s Ex. 18)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That D. F. Campbell and Cecily C. Campbell,
his wife, for and in consideration[]of the sum of
One Dollar ($1.00), to them in hand paid, the
receipt whereof is hereby acknowledged, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,

20

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Burgholzer 83/99
deed contained only nominal consideration does not change the
court’s conclusion that it conveyed a fee rather than an easement.

87a

and to its successors and assigns forever, all of
the following described real property situate in
the County of Washington and State of Oregon,
to-wit: A strip of land one hundred feEt [sic] in
width, being fifty feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is now surverye d[]and [sic] located
through the West half of the Northwest quarter
of Section Thirty six (36) Township Three [sic]
(3) North Range Five West, containing 2.84
acres. Together with the tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. TO
HAVE AND TO HOLD to the sAid [sic] Pacific
Railway and Navigation Company and to its
successors and assigns forever. The aforesaid D.
F. Campbell and Cecily C. Campbell, his wife,
do hereby covenant that they are the owners in
fee simple of the above granted premises, and
that they will forever warrant and defend the
same unto the Pacific Railway and Navigation
Company, its successors and assigns, against
the lawful claims of all persons whomsoever.
The court had found that the Campbell 85/208 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle

88a

guards, or fences to protect the grantor’s land.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Campbell 85/208 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers to
the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Campbell 85/208 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Campbell 85/208 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Campbell
85/208 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.21

21

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.

89a

5. Cook 15/83 Deed
The Cook 15/83 deed (Def.’s Ex. 24) pertains
in pertinent part:
NOW ALL MEN BY THESE PRESENTS:
That Vincent Cook and Martha G. Cook, his
wife, hereinafter called the grantors, in
consideration of the sum of Ten ($10.00)
Dollars, to them in hand paid, the receipt
whereof is hereby acknowledged, and other
valuable considerations moving to them, do * *
* bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns[]forever, a one half
interest in the following described real property
situate in the County of Tillamook and State of
Oregon, to-wit:
A strip of land one hundred (100) feet in
width, being fifty (50) feet on each side of and
parallel with the center line of the tract of the
Pacific Railway and Navigation Company’s
railway as the same is now located, adopted,
and constructed across the Northwest
quarter[]of the Southwest quarter and the
Southwest quarter of the Northwest quarter of
Section eighteen (18) in Township one (1)
South of Range nine (9) West of the Willamette

As such, the court finds that the fact that the Campbell 85/208
deed contained only nominal consideration does not change the
court’s conclusion that it conveyed a fee rather than an easement.

90a

Meridian, containing 5.07 acres,
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining,
TO HAVE AND TO HOLD to the above
named grantee and to its successors and assigns
forever.
The court had found that the Cook 15/83 deed
conveyed fee simple title because the amount of
consideration was substantial ($10), there was no “right
of way” language in the title or body of the deed, no
limitation on the use of the land for railroad purposes
only, no right of reverter if the railroad discontinued
railroad use, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Cook 15/183 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing across the land, the court incorrectly concluded
that the Cook 15/83 deed conveyed a fee to the railroad.
The court disagrees. For the same reasons as explained

91a

in the court’s analysis of the Category II deeds, the use
of “strip of land” and across in the Cook 15/83 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Cook 15/83 deed conveyed a fee was correct and
therefore the plaintiffs’ motion for reconsideration is
denied.
6. Davidson 11/509 Deed
The Davidson 11/509 deed (Def.’s Ex. 27)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
and 00/100 Dollars, the receipt whereof is
hereby acknowledged, we F. M. Davidson and
Alvie Davidson, husband and wife[,] hereinafter
called the grantors, do hereby bargain, sell,
grant[,] convey and confirm to PACIFIC
RAILWAY AND NAVIGATION COMPANY,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) Feet [sic]
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through our
undivided one third interest in the North East

92a

quarter of North East quarter of Section
thirteen Township one South of Range ten
West of Willamette Meridian; also a strip of
land six rods wide off of the North side of South
East quarter of North East quarter of Section
thirteen, Township one South of Range ten
West of Willamette Meridian.
Together with the appurtenances, tenements
and hereditaments thereunto belonging or in
anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
And * * * grantors above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all encumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
The court had found that the Davidson 11/509 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.

93a

Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Davidson 11/509 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that Davidson 11/509 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Davidson 11/509 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Davidson 11/509 deed conveyed
a fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.22

22

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Davidson 11/509 deed
contained only nominal consideration does not change the court’s

94a

7. Galvani 77/37 Deed
The Galvani 77/37 deed (Def.’s Ex. 39)
provides in pertinent part:
THIS INDENTURE made this 11th day of
April A. D. 1907, between W. H. Galvani, a
single man[]of Portland, Multnomah, Oregon,
party of the first part, and the Pacific Railway
& Navigation Company, a Corporation, party of
the second part[,] WITNESSETH:
That the said party of the first part for and
in consideration of the sum of $1 to him in
hand paid by the party of the second part, the
receipt of which is hereby acknowledged[,] has
granted, bargained and sold, conveyed and
confirmed and by these presents does grant,
bargain, sell [sic] convey and confirm unto the
said party of the second part and its successors
and assigns, all that certain lot, piece, parcel
and tract of land, lying, being and situate in
Washington County, Oregon, and being a
portion of the Southwest quarter of Section 30,
T. 3 N. R. 4 W. of the Will. Mer., being a strip of
land 100 feet wide, being 50 feet on each side of
the center line of the Pacific Railway &
Navigation Company’s railway as now
surveyed, located and adopted across said lands,
said center line being described as
follows,[]to-wit

conclusion that it conveyed a fee rather than an easement.

95a

* * * [Description] * * * and containing
11.31 acres, reserving grade farm crossings at
two points to be selected by the party of the
first part.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise appertaining
and the reversion and reversions, remainder
and remainders, rents, issues and profits
thereof.
TO HAVE AND TO HOLD all and singular,
the said premises, together with the
appurtenances unto the said party of the
second part and unto its successors and assigns
forever. And the party of the first part does
hereby covenant to and with the party of the
second part, its successors and assigns, forever,
that the party of the first part is the owner in
fee simple of the tract of land hereinbefore
described; That [sic] said tract of land is free
from all incumbrances and that the party of the
first part shall warrant and forever defend said
tract of land against the lawful claims and
demands of all persons whomsoever.
The court had found that the Galvani 77/37 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) and the grantor
reserved the right to two farm crossings because there
was no “right of way” language in the title or body of
the deed, no limitation on the use of the land for
railroad purposes only, and no right of reverter if the

96a

railroad discontinued railroad use.
Plaintiffs argue that because the deed refers to the
property as a “strip of land” and describes it as across
the land, the court incorrectly concluded that the
Galvani 77/37 deed conveyed a fee to the railroad. The
court disagrees. For the same reasons as explained in
the court’s analysis of the Category II deeds, the use of
“strip of land” and across in the Galvani 77/37 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Galvani 77/37 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.23
8. Goodspeed 9/200 Deed
The Goodspeed 9/200 deed (Def.’s Ex. 42)
and provides in pertinent part:
K D. R. Goodspeed and wife
to

23

RAILWAY DEED.
NO. 5802.

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Galvani 77/37 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

97a

Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS[,] the
receipt whereof is hereby acknowledged, We,
[sic] D. E. Goodspeed and M. J. Goodspeed,
husband and wife, of Tillamook County,
Oregon, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to Pacific RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit; [sic]
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
now surveyed and located through
The [sic] South East quarter of the North
East quarter of Section thirteen in Township
one South of Range ten West of Willamette
Meridian[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant

98a

that they are seised of the aforesaid premises in
fee simple and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Goodspeed 9/200 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Goodspeed 9/200 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Goodspeed 9/200 deed conveyed a
fee to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the

99a

Category II deeds, the use of “strip of land” and
through in the Goodspeed 9/200 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Goodspeed
9/200 deed conveyed a fee was correct and therefore the
plaintiff’s motion for reconsideration is denied.24
9. Hagen 75/279 Deed
The Hagen 75/279 deed (Def.’s Ex. 44)
provides in pertinent part:
THIS INDENTURE, made this 22 day of
April, 1907, between Bridget Hagen ( a [sic]
single woman) of Portland Multnomah County,
Oregon, party of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
party of the second part, WITNESSETH:
That the said party[]of the first part, for
and in consideration of the sum of One Dollar
($1) and other good and valuable

24

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Goodspeed 9/200
deed contained only nominal consideration does not change the
court’s conclusion that it conveyed a fee rather than an easement.

100a

considerations, to her in hand paid by the party
of the second part, the receipt of which is
hereby acknowledged, h[]ave [sic] granted,
bargained and sold, conveyed and confirmed,
and by these presents do grant, bargain and
sell, convey and confirm unto the said party of
the second part, and its successors and assigns,
all that certain lot, piece, parcel and tract of
land, lying, being and situate in Washington
County,[]Oregon, to-wit:
Being a portion of Section 30, T. 3 N. R. 4 W. of
the Will. Mer. described as follows:
A strip of land 100 feet wide being 50 feet on
each side of the center line of the Pacific
Railway and Navigation Company’s railway, as
surveyed, located and adopted across said lands,
said center line being described as follows:
* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders[,] rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of
the[]second part and unto its successors and
assigns forever. And the party of the first part
does hereby covenant to and with the party of

101a

the second part, its successors and assigns
forever, that the party of the first part is the
owner in fee simple of the tract of land
hereinbefore described; that said tract of land
is free from all incumbrances and that the party
of the first part shall warrant and forever
defend said tract of land against the lawful
claims and demands of all persons whomsoever.
The court had found that the Hagen 75/279 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that because the deed refers to the
property as a “strip of land” and describes it as passing
across the land, the court incorrectly concluded that the
Hagen 75/279 deed conveyed a fee to the railroad. The
court disagrees. For the same reasons as explained in
the court’s analysis of the Category II deeds, the use of
“strip of land” and across in the Hagen 75/279 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Hagen 75/279 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration

102a

is denied.25
10. The Hamblin 85/284 Deed
The Hamblin 85/284 deed (Def.’s Ex. 45)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That J.M. Hamblin, an unmarried man for and
in consideration of the[]sum of One Dollars, to
him in hand[]paid, the receipt whereof is
hereby acknowledged[,] does bargain, sell,
grant, convey and confirm to Pacific Railway
and Navigation Company and to its successors
and assigns forever, all of the following
described real property situate in the County of
Washington and State of Oregon, to-wit: A strip
of land one hundred feet in width, being fifty
feet on each side of and parallel with the center
line of the track of the Pacific Railway
and[]NavigaTion [sic] Company, as the same is
surveyed and located through the Northwest
quarter of the Northeast quarter of Section
thirty two (32) Township Three(3) [sic] North
range [sic] five (5) West Willamette Meridian.

25

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Hagen 75/279 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

103a

Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to successors and assigns forever.
The aforesaid grantor J. M. Hamblin does
hereby covenant that he is the owner in fee
simple of[]the above granted premises, and that
he will forever warrant and defend the same
unto the Pacific Railway and Navigation
Company, its successors and assigns, against
the lawful claims of all parties whomsoever.
The court had found that the Hamblin 85/284 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Hamblin 85/284 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.

104a

Next, plaintiffs argue that because the deed refers to
the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Hamblin 85/284 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Hamblin 85/284 deed are not made in
reference to any language limiting the use of the land
andthus do not indicate an intent by the original parties
to convey an easement. Thus, the court finds that its
original conclusion that the Bernards/Bouche factors
weighed in favor of finding that the Hamblin 85/284
deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.26
11. Haugen 9/204 Deed
The Haugen 9/204 deed (Def.’s Ex. 54)
provides in pertinent part:
Thore [sic] Hagen.
RAILWAY DEED.
to
NO. 5806.
Pacific Railway and Navigation Co.

26

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Hamblin 85/284 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

105a

KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS[,] the
receipt whereof is hereby acknowledged, we,
Thore [sic] Hagen and Evia Jane Hagen,
husband and wife, of Tillamook County,
Oregon, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee, as the same is
surveyed and located through the following
described tract, to-wit:
* * * [Describing the tract through which
the strip being conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all

106a

encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Haugen 9/204 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Haugen 9/204 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers to
the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Haugen 9/204 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Haugen 9/204 deed are not made in reference to any

107a

language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Haugen 9/204 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.27
12. The Jeffries 85/70 Deed
The Jeffries 85/70 deed (Def.’s Ex. 59)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Minnie Jeffries and George H.[]Jeffries
her husband for and in consideration of the
sum of One Dollar to them in hand paid, the
receipt whereof is hereby acknowledged, do
hereby bargain, sell[,] grant, convey and
confirm to Pacific Railway and Navigation
Company, and to its successors and assigns
forever, all of the following described real
property situate in the County of Washington
and State of Oregon, to-wit: A strip of land one
hundred feet in width, being fifty feet on each

27

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word throughconveyed a fee. As
such, the court finds that the fact that the Haugen 9/204 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

108a

side of and parallel with the center line of the
track of the Pacific Railway and Navigation
Company, as the same is surveyed and located
through the North half of the Northwest
quarter of Section Thirty (30) Township three
(3) North, Range Four (4) West of W.M.
Together
with
the
tenements,
hereditaments and appurtenances, thereunto
belonging or in anywise appertaining. TO
HAVE AND TO HOLD to the said Pacific
Railway and Navigation Company, and to its
successors and assigns forever.
The aforesaid grantors Minnie Jeffries and
George H. Jeffries do hereby covenant that they
are the owners in fee simple of the above
granted premises, and that they will forever
warrant and defend the same unto the Pacific
Railway and[]Navigation Company, its
successors and assigns, against the lawful
claims of all persons whomsoever.
The court had found that the Jeffries 85/70 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court

109a

should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Jeffries 85/70 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Jeffries 85/70 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Jeffries 85/70 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Jeffries 85/70 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.28
13. Maroney 11/513 Deed
28

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Jeffries 85/70 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement

110a

The Maroney 11/513 deed (Def.’s Ex. 73)
provides in pertinent part:
Matt Maroney
RAILWAY DEED.
to
NO. 7461
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS, [sic] the
receipt whereof is hereby acknowledged, I Matt
Maroney, unmarried, of Garibaldi, in Tillamook
County, Oregon, hereinafter called the
grantors, [sic] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is
surveyed and located through Lot three (3) of
Section twenty nine , [sic] in Township two
North of Range ten West of the Willamette
Meridian.
Together with the appurtenances, tenements
and hereditaments thereunto belonging or in
anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and

111a

assigns forever. The grantors [sic] above named
do covenant that they are seised of the
aforesaid premises in fee simple, and that the
same are free from all encumbrances, and that
they will warrant and defend the premises
herein granted unto the grantee aforesaid, and
unto its successors and assigns against the
lawful claims of all persons whomsoever.
The court had found that the Maroney 11/513 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Maroney 11/523 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Maroney 11/513 deed conveyed a fee
to the railroad. The court disagrees. For the same

112a

reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Maroney 11/513 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Maroney
11/513 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.29
14. Noland 74/108 Deed
The Noland 74/108 deed (Def.’s Ex. 79)
provides in pertinent part:
Know all Men by these Presents, That
Mrs Lena Noland
of Portland xxxxxxxx State of Oregon, in consideration
of Seventy nine and twenty, one Hundredths
($79.20/100) DOLLARS, to me paid by Pacific Railway
and Navigation Company
of Portland xxxxxx State of Oregon, * * *
* * * * * has bargained and sold, and by these presents

29

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Maroney 11/513 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

113a

does grant, bargain, sell and convey unto said
Pacific Railway Navigation Company[,] is [sic]
successors
* * * and assigns, all the following bounded and
described real property, situated in the County of
Washington and State of Oregon:
A strip of land 100 feet wide being 50 feet on each
side of the center line of the Pacific Railway and
Navigation Company’s Railway, as surveyed, located
and adopted across the south 1/2 of N W l of Sec. 30.
[sic] T [sic] 3 N. R. 4 W- [sic] W. M. said center line
being described as follows: * * *[Description] * * * and
containing 7.89 acres.
Together with all and singular the tenements,
hereditaments and appurtenances thereto belonging or
in anywise appertaining and also all her
estate, right,
title and interest in and to the same, including dower
and claim of dower.
TO HAVE AND TO HOLD the above described and
granted premises unto the said
PACIFIC RAILWAY AND NAVIGATION
COMPANY[,]its successors * * * and assigns forever.
And
Mrs. Lena Noland[,]
grantor above named do es [sic] covenant to and with
Pacific Railway and Navigation Company the above
named grantee[,] is [sic] successors and assigns that she
is lawfully seized in fee simple of the above granted
premises, that they are free from all incumbrances
* * * * [Blank Space] * * *
and that she will and her heirs, executors and

114a

administrators shall warrant and forever defend the
above granted premises, and ever part and parcel
thereof, against the lawful claims and demands of all
persons whomsoever. (italics in original).
The court had found that the Noland 74/108 deed
conveyed fee simple title because the consideration was
substantial ($79.20), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest
Plaintiffs argue that because the deed refers to the
property as a “strip of land” and describes it as passing
across the land, the court incorrectly concluded that the
Noland 74/108 deed conveyed a fee to the railroad. The
court disagrees. For the same reasons as explained in
the court’s analysis of the Category II deeds, the use of
“strip of land” and across in the Noland 74/108 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Noland 74/108 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.
15. Petrzilka 72/203 Deed
The Petrzilka 72/203 deed (Def.’s Ex. 83)
provides in pertinent part:

115a

THIS INDENTURE, made this 1st day of
August 1906, between Frank Petrzilka and
Mary Petrzilka, his wife, of Washington
County, parties of the dirst [sic] part, and the
PACIFIC RAILWAY & NAVIGATION
COMPANY, a Corporation, party of the second
part, WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of One
Hundred Dollars ($100) to them in hand paid
by the party of the second part, the receipt of
which is hereby acknowledged, have granted,
bargained and sold, conveyed and confirmed
and by these presents do grant, bargain and
sell, convey and confirm unto the said party of
the second part, and its successors and
assigns,[]forever, all that certain Lot, [sic]
piece, parcel and track of land, lying, being and
situate in Washington County, Oregon, and
particularly described as follows, to- wit:- A
strip of land 80 feet wide, being 40 feet on each
side of the center line of the PACIFIC
RAILWAY & NAVIGATION COMPANY’S
railway as now surveyed, located, and
established across the following described
lands,;
The North West quarter of the North
West Quarter [sic] of Section 4
T.2.N.R.4 W. of the Will.Mer. [sic]
and also the following described tract
of land, to-wit;-Beginning at the south
[sic] West corner of Section 33,

116a

T.3.N.R.4.W. and running thence East
14 rods; thence Northwesterly 42 rods
to a point 4 rods East of the west line of
said section [sic] 33; thence
Northeasterly 42 rods to a point 14
rods East of the west line of said
Section 33,;[]thence [sic] West 14 rods;
thence South 80 rods to the place of
beginning, said strip of land containing
4.31 acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents,[]issues and
profits thereof.
TO HAVE AND TO HOLD all and singular
the said premises together with the
appurtenances, unto the said party of the
second part and unto its successors and assigns
forever. And the said parties of the first part,
for themselves, their heirs, executors and
administrators do covenant to and with the
party of the second part, its successors and
assigns forever, that the parties of the first part
are the owners in fee simple of the above
described and granted premises; That [sic] said
premises and t he [sic] whole thereof are fee
from all incumbrances, and that said parties of
the first part, their heirs, executors and
administrators shall warrant and forever
defend said premises and the whole thereof

117a

against the lawful claims and demands of all
persons whomsoever.
The court had found that the Petrzilka 72/203 deed
conveyed fee simple because the consideration was
substantial ($100), there was no “right of way”
language in the title or body of the deed, no limitation
on the use of the land for railroad purposes only, no
right of reverter if the railroad discontinued railroad
use, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s land.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Petrzilka 72/203 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing across the land, the court incorrectly concluded
that the Petrzilka 72/203 deed conveyed a fee to the
railroad. The court disagrees. For the same reasons as
explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and across in the
Petrzilka 72/203 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original

118a

conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Petrzilka 72/203 deed conveyed
a fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.
16. Rockaway Beach 12/342 Deed
The Rockaway Beach 12/342 deed (Def.’s
Ex. 91) provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
& 00/100 DOLLARS, the receipt whereof is
hereby acknowledged, Rockaway Beach
Company, a Corporation organized and existing
under the laws of the State of Oregon and First
Bank Trust Company, a corporation organized
and existing under the laws of the State of
Oregon, hereinafter called the grantors, [sic] do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land sixty (60) feet wide being thirty
(30) feet on each side of the center line of the
railway of the grantee as the same is surveyed
and located through
Lot four of Section thirty two in Township
two North of Range ten West and a strip of land
twenty feet wide off the North end of Lot one of

119a

Section five, Township One North of Range two
West of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors [sic] above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all incumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
The court had found that the Rockaway Beach
12/342 deed conveyed fee simple title even though the
amount of consideration was nominal ($1) because
there was no “right of way” language in the title or
body of the deed, no limitation on the use of the land for
railroad purposes only, no right of reverter if the
railroad discontinued railroad use, nor any requirement
for the railroad to build structures such as crossings,
cattle guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the

120a

Category I and II deeds the Rockaway Beach 12/342
deed describes the location of the land being conveyed
by the grantor with sufficient precision to conclude that
the original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Rockaway Beach 12/342 deed
conveyed a fee to the railroad. The court disagrees. For
the same reasons as explained in the court’s analysis of
the Category II deeds, the use of “strip of land” and
through in the Rockaway Beach 12/342 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Rockaway Beach 12/342 deed conveyed a fee
was correct and therefore the plaintiffs’ motion for
reconsideration is denied.30
17. Rupp 13/245 Deed

30

The plaintiffs also argue that because the deed provide
only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the DuBois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Rockaway Beach
12/342 deed contained only nominal consideration does not change
the court’s conclusion that it conveyed a fee rather than an
easement.

121a

The Rupp 13/245 deed (Def.’s Ex. 94)
provides in pertinent part:
Know all Men by These Presents: That for
and in consideration of the sum of Ten Dollars
($10.00), the receipt whereof is hereby
ackno w l e d g e d , and o t her valuable
considerations moving to them, John J. Rupp
and Betty N. Rupp, of Saginaw, Michigan,
hereinafter called the grantor, does bargain,
grant, convey and confirm to Pacific Railway
and Navigation Company, hereinafter called
the grantee, a strip of land one hundred (100)
feet in width, being fifty (50) feet on each side
of the center line of the railway of the grantee,
as the same is surveyed and located through the
following described real property, situate in the
County of Tillamook and State of Oregon, to
wit:
The South Half of the Southeast quarter
(S1/2, SE1/4) and Lots Four (4), Five (5), Six
(6), Eight (8), and Nine (9) of Section Ten (10),
Township Three (3) Norht Range Eight (8)
West, Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging, or in anywise appertaining.
To Have and to Hold to the grantee and to
its successors and assigns forever.
The grantors covenant with the grantee
that they will warrant and defend the premises

122a

herby granted against the lawful claims and
demands of all persons whomsoever claiming
the same by, through or under the grantor. [sic]
The court had found that the Rupp 13/245 deed
conveyed fee simple title because the amount of
consideration was substantial ($10), there was no “right
of way” language in the title or body of the deed, no
limitation on the use of the land for railroad purposes
only, no right of reverter if the railroad discontinued
railroad use, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Rupp 13/245 deed describes
the location of the land being conveyed by the grantor
with sufficient precision to conclude that the original
parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Rupp 13/245 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Rupp 13/245 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an

123a

easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Rupp 13/245 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.
18. The Stanley 11/113 Deed
The Stanley 11/113 deed (Def.’s Ex. 104)
provides in pertinent part:
F. S; [sic] Stanley et al
Railway Deed.
to
NO. 6844.
Pacific Railway and Navigation Co.
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
DOLLARS, [sic] the receipt whereof is hereby
acknowledged, F. S. Stanley and Ruth M.
Stanley, his wife, Robert Smith, a single man;
W. D. Wheelwright, a single man; - [sic] E. E.
Lytle and Lizzie M Lytle, his wife, and May
Enright, a single woman, hereinafter called the
grantors, do herby bargain, sell, grant, convey
and confirm, to PACIFIC RAILWAY AND
NAVIGATION COMPANY, hereinafter called
the grantee, and to its successors and assigns
forever, all of the following described real
property, situate in the County of Tillamook
and State of Oregon, to-wit:
A strip of land one hundred (100) feet wide,
being fifty (50) feet on each side of the center
line of the railway of the grantee, as the same is
surveyed and located through the East half of

124a

the South East [sic] quarter of Section Twenty
[sic] (20) in Township Three [sic] (3) North,
[sic] of Range Seven [sic] (7) West, W. M.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Stanley 11/113 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the

125a

same reasons as explained in the court’s analysis of the
Category I and II deeds that the Stanley 11/113 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Stanley 11/113 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Stanley 11/113 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Stanley
11/113 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.31
19. Thayer 11/355
The Thayer 11/355 deed (Def.’s Ex. 107)

31

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Stanley 11/113 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

126a

provides in pertinent part:
Claude Thayer and wife
Railway Deed.
to
No. 7236.
Pacific Railway and Navigation Co.
KNOW ALL MEN By [sic] THESE
PRESENTS; That for and in consideration of
the sum of One & 00 DOLLARS, the receipt
whereof is hereby acknowledged, we, Claude
Thayer and Estelle Thayer, husband and wife,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAy [sic] AND NAVIGATION
COMPANy, [sic] hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property situate in
the County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100 ) [sic] feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is now surveyed and located through; [sic]
Tide Land fronting and abutting on Lot 1 of
Sec. 21, T. 1 N. R. 10 W. except Town of
Garibaldi.
Also beginning at a point at ordinary high
water line South 84º West 24 links dist. from
the meander corner between Sections 20 and
21, T. 1 N. R. 10 W. thence South 65º East on
ordinary high water line 3.21 chains, thence
North 17.89 chains, thence West 2.91 chains,

127a

thence South 16.53 chains to point of
beginning.
Also through an undivided one half interest
in the following tracts;Beginning at a point on ordinary high water
line 34 links South and 320 links West of the
meander corner between Sections 20 and 21 T.
3 N. R. 10 W. thence N. 84º East 3.02 chains on
ordinary high water line, thence North 16.53
chains, thence West 3.00 chains, thence South
16.84 chains to place of beginning; also through
an undivided one half interest in Lots 5, 6, 7,
and 8 in Block 3 and Lots 4, [sic] and 5 in Block
4, all in the Town of Garibaldi.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
en[c]umbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Thayer 11/355 deed
conveyed fee simple title even though the amount of

128a

consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Thayer 11/355 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Thayer 11/355 deed conveyed a fee
to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Thayer 11/355 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Thayer
11/355 deed conveyed a fee was correct and therefore

129a

the plaintiffs’ motion for reconsideration is denied.32
20. The Thayer 18/39 Deed
The Thayer 18/39 deed (Def.’s Ex. 108) is
entitled “1134 Railway Deed” and provides in pertinent
part:
Know All Men by These Presents: That for
and in consideration of the sum of One &
00/100 Dollars, the receipt whereof is hereby
acknowledged, We, Claude Thayer and Estelle
Thayer[,] husband and wife, of Tillamook,
Oregon, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred(100) [sic] feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the

32

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the DuBois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Thayer 11/355 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

130a

same is surveyed and located through Lot eight
of Section twenty two, in Township one North
of Range ten West of Willamette Meridian, save
and except a certain one acre tract heretofore
conveyed out of said Lot eight;
Also through the tide lands fronting and
abutting upon Lots seven and eight in said
Section twenty two, in Township one North of
Range ten West of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Thayer 18/39 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the

131a

railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Thayer 18/39 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Thayer 18/39 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Thayer 18/39 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Thayer 18/39 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.33

33

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the

132a

21. Watt 12/343 Deed
The Watt 12/343 deed (Def.’s Ex. 116) is entitled
“No. 8225. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
and 00/100 DOLLARS , [sic] The [sic] receipt
whereof is hereby acknowledged, we, George
Watt and Helen Watt, his wife[,] and Robert
Watt and Lois A. Watt, his wife, hereinafter
called the grantors, do bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and * * * to its successors
and assigns forever, all of the following
described real property situate in the County of
Tillamook and State of Oregon, to-wit:
A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway o f [sic] the grantee as the same is
surveyed and located through Lots One, two
and three of Section Seven and Lot one of
Section eight, all in Township One North of
Range ten Wes t [sic] of Willamette Meridian.
Together

with

the

appurtenances,

phrase “strip of land” and used the word throughconveyed a fee. As
such, the court finds that the fact that the Thayer 18/39 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

133a

tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Watt 12/343 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Watt 12/343 deed describes
the location of the land being conveyed by the grantor
with sufficient precision to conclude that the original
parties intended to convey a fee.

134a

Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Watt 12/343 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Watt 12/343 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Watt 12/343 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.34
22. The Watt 12/344 Deed
The Watt 12/344 deed (Def.’s Ex. 117) is entitled
“No. 8226. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
and 00/100 DOLLARS, the receipt whereof is

34

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Watt 12/343 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

135a

hereby acknowledged, we, George Watt and
Helen Watt, husband and wife, hereinafter
called the grantors, do bargain, sell, grant,
convey and confir, [sic] to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side * * * of the
center line of the railway of the grantee as the
same in [sic] surveyed and located through Lot
one of Section nine and also through the tide
land fronting and abutting upon Lots One [sic]
and Four [sic] of said Section nine; also through
Lot one of Section sixteen and the tide fronting
and abutting upon said Lot one of Section
sixteen, all in Township two North of Range
ten West of Willamette Meridian. Save and
except a tract 105 feet by 210 feet in Lot 1 of
Section 9, Township 2 North Range 10 West
reserved by G. M. Lock.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in

136a

fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and[]unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Watt 12/344 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Watt 12/344 deed describes
the location of the land being conveyed by the grantor
with sufficient precision to conclude that the original
parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Watt 12/344 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the

137a

Watt 12/344 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Watt 12/344 deed conveyed a
fee was correct and therefore the plaintiffs’ motion for
reconsideration is denied.35
23. The Watt 12/345 Deed
The Watt 12/345 deed (Def.’s Ex. 118) is entitled
“No. 8227. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
and 00/100 DOLLARS, the receipt whereof is
hereby acknowledged, we, John Watt and Sarah
M. Watt[,] husband and wife, hereinafter called
the grantors, do bargain, sell, grant, convey and
confirm [sic] to PACIFIC RAILWAY AND
NAVIGATION COMPANY, hereinafter called
the grantee, and to its successors and assigns
forever, all of the following described real

35

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Watt 12/344 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

138a

property situate in the County of Tillamook
and State of Oregon, to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same in
[sic] surveyed and located through Lots two,
three and four of Section nine, in Township two
North of Range ten West of Willamette
Meridian[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and[]unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Watt 12/345 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the

139a

railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Watt 12/345 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Watt 12/345 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Watt 12/345 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Watt 12/345 deed conveyed a
fee as correct and therefore the plaintiffs’ motion for
reconsideration is denied.36

36

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the DuBois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the

140a

24. Westinghouse 85/39 Deed
The Westinghouse 85/39 deed (Def.’s Ex. 121)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That I, John F. Westinghouse, a single man[,]
for and in consi deration [sic] of the sum of One
Dollars, [sic] to me in hand paid, the receipt
whereof is hereby acknowledged, do hereby
bargain, sell, grant,[]convey and confirm to
Pacific Railway and Navigation Company, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Washington and State of Oregon,
to-wit:
A strip of land one hundred (100) feet in
width, being fifty (50) feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is surveyed and located through a
strip of land more particularly described as the
West one half of Southwest one quarter and the
Southwest one quarter of Northwest one
quarter of Northwest one quarter [of] Sec.[]26,
T 3 N. R. 5 W., Willamette Meridian and
containing four and forty two hundredths
(4.42) acres more or less. Together with the

phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Watt 12/345 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

141a

tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to its successors and assigns forever.
The aforesaid grantor John F.
Westinghouse does hereby he is the owner in
fee simple of the ab[o]ve grante[d] premises,
and that he will forever qarrant [sic] and
defend the same unto the Pacific Railway and
Navigation Company, its successors and assigns
against the lawful claims of all persons
whomsoever.
The court had found that the Westinghouse 85/39
deed conveyed fee simple title even though the amount
of consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Westinghouse 85/39 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the

142a

original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed refers
to the property as a “strip of land” and describes it as
passing through the land, the court incorrectly
concluded that the Westinghouse 85/39 deed conveyed
a fee to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Westinghouse 85/39 deed are not made
in reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the
Westinghouse 85/39 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.37
25. Williams 6/607 Deed
The Williams 6/607 deed (Def.’s Ex. 125)
provides in pertinent part:
George H. Willaims et ux

37

RAILWAY DED

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Westinghouse 85/39
deed contained only nominal consideration does not change the
court’s conclusion that it conveyed a fee rather than an easement.

143a

-toP. R. and N. Co.

No. 4113.

KNOW ALL MEN BY THESE PRESENTS,
That for and in consideration of the sum of Ten
00/100 DOLLARS[,] the receipt whereof is
hereby acknowledged, and other valuable
consideration moving to them[,] George H.
Williams and Bessie Williams, his wife,,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through Lots Three, [sic]
Four, [sic] Five [sic] and Six [sic] of Block
Eleven [sic] in Cone and McCoy’s Addition to
Bay City, according to the plat thereof of record
in Tillamook County, Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.

144a

The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Williams 6/607 deed
conveyed fee simple title because the amount of
consideration was substantial ($10), there was no “right
of way” language in the title or body of the deed, no
limitation on the use of the land for railroad purposes
only, no right of reverter if the railroad discontinued
railroad use, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Williams 6/607 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Williams 6/607 deed conveyed a fee
to the railroad. The court disagrees. For the same

145a

reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Williams 6/607 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Williams
6/607 deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.38
26. Wilson 75/244 Deed
The Wilson 75/244 deed (Def.’s Ex. 126)
provides in pertinent part:
NOW ALL MEN BY THESE PRESENTS:
That we Brice Wilson and Sarah E. Wilson[,]
husband and wife, for and in consideration of
the sum[]of One Dollars, [sic] to them in hand
paid, the receipt whereof is hereby
acknowledged, do hereby bargain, sell, grant,
convey and confirm to Pacific Railway and
Navigation Company, and to its successors and
assigns forever, all of the following described

38

The plaintiffs also argue that because the deed provides
for only nominal consideration ($10) the court should have found
an easement. As explained in the footnote in the court’s discussion
of the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Williams 6/607 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

146a

real property situate, in the County of
Washington and State of Oregon, to- wit:
A strip of land one Hundred [sic] feet in
width, being fifty feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is surveyed and located through the
East half of the Northeast quarter of Section
twenty eight (28) in Township three (3) North
Range five (5) West of the Willamette Meridian.
The said center line enters said land about
1185 feet south of the Northeast corner and
runs southwesterly across the same to a point
about 105 feet west of the South east [sic]
corner thereof.
Together
with
the
tenements,
hereditaments and appurtenances, thereunto
belon[g]ing or in anywise appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to its successors and assigns forever.
The aforesaid Brice Wilson and Sarah E.
Wilson do hereby covenant that they are the
owners in fee simple of the above granted
premises, and that they will forever warrant
and defend the same unto the Pacific Railway
Company, its successors and assigns, against
the lawful claims of all persons whomsoever.
The court had found that the Wilson 75/244 deed
conveyed fee simple title even though the amount of

147a

consideration was nominal ($1) because there was no
“right of way” language in the title or body of the deed,
no limitation on the use of the land for railroad
purposes only, no right of reverter if the railroad
discontinued railroad use, nor any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Wilson 75/244 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Wilson 75/244 deed conveyed a fee to
the railroad. The court disagrees. For the same reasons
as explained in the court’s analysis of the Category II
deeds, the use of “strip of land” and through in the
Wilson 75/244 deed are not made in reference to any
language limiting the use of the land and thus do not
indicate an intent by the original parties to convey an
easement. Thus, the court finds that its original
conclusion that the Bernards/Bouche factors weighed in
favor of finding that the Wilson 75/244 deed conveyed
a fee esd correct and therefore the plaintiffs’ motion for

148a

reconsideration is denied.39
27. Woodbury 16/481 Deed
The Woodbury 16/481 deed (Def.’s Ex. 127) is
entitled “No. 10888 Warranty Deed” and provides in
pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of Ten ($10.00)
Dollars, to them in hand paid, the receipt
whereof is hereby acknowledged, and of other
valuable considerations, E.D. Woodbury and
Maude Woodbury, his wife,, hereinafter called
the grantors, do bargain, sell[,] grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, the following
described real property situate in the County of
Tillamook and State of Oregon, to wit:
A strip of land sixty (60) feet in width,
being thirty (30) feet on each side of the center
line of the grantee’s railway as the same is
surveyed and located through the following

39

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the Du Bois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Wilson 75/244 deed
contained only nominal consideration does not change the court’s
conclusion that it conveyed a fee rather than an easement.

149a

described real property, to wit:
* * * [Describing the property through
which the strip conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining,
To Have and to Hold to the grantee, and to
its successors and assigns forever.
The grantors covenant with the grantee
that they will warrant and defend the premises
herein granted against the lawful claims and
demands of all persons whomsoever claiming
by, through or under the grantors or either of
them.
The court had found that the Woodbury 16/481
deed conveyed a fee simple title because the amount of
consideration was substantial ($10), there was no “right
of way” language in the title or body of the deed, no
limitation on the use of the land for railroad purposes
only, no right of reverter if the railroad discontinued
railroad use, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds the Woodbury 16/481 deed
describes the location of the land being conveyed by the

150a

grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Woodbury 16/481 deed conveyed a
fee to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Woodbury 16/481 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Woodbury
16/481 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.
28. The Woodbury 23/399 Deed
The Woodbury 23/399 deed (Def.’s Ex. 128)
provides in pertinent part:
Know All Men by These Presents: That we,
E.E. Woodbury and Maude Woodbury, his wife,
the grantors, in consideration of the sum ofTwo
+ 00/100 Dollars, paid by Pacific Railway and
Navigation, the grantee herein, the receipt
whereof is hereby acknowledged, have
bargained and sold, and by these presents do
bargain, sell, transfer and convey unto said
Pacific Railway and Navigation Company, an
Oregon Corporation, and to its successors and
assigns forever, a strip of land sixty (60) feet in

151a

width, being thirty (30) feet on each side of the
center line of the railway of said Company as
the same is now located, staked out, and
operated through Section Twenty-Nine (29),
Township Two (2) North, Range Ten (10) West
of the Willamette Meridian. Which strip lies
between the line between Sections 29 and 32 on
the South and the North boundary of North
Street of said Lake Lytle Tract, as the same is
platted in and by Lake Lytle Plat and between
Blks. [sic] 1, 7 and 3 of Lake Lytle on the East
and Blks [sic] 4, 8 and 14 of Lake Lytle on the
West.
To Have and to Hold the above described
premises unto the said Pacific Railway and
Navigation Company and to its successors and
assigns forever.
The court had found that the Woodbury 23/399
deed conveyed a fee simple title even though the
amount of consideration was nominal ($2) because
there was no “right of way” language in the title or
body of the deed, no limitation on the use of the land for
railroad purposes only, no right of reverter if the
railroad discontinued railroad use, nor any requirement
for the railroad to build structures such as crossings,
cattle guards, or fences, nor any revert language.
Plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the

152a

Category I and II deeds the Woodbury 23/399 deed
describes the location of the land being conveyed by the
grantor with sufficient precision to conclude that the
original parties intended to convey a fee.
Next, the plaintiffs argue that because the deed
refers to the property as a “strip of land” and describes
it as passing through the land, the court incorrectly
concluded that the Woodbury 23/399 deed conveyed a
fee to the railroad. The court disagrees. For the same
reasons as explained in the court’s analysis of the
Category II deeds, the use of “strip of land” and
through in the Woodbury 23/399 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Woodbury
23/399 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.40
D. Category IV: Deeds that conveyed a “strip
of land” “across”, “through”, or “over” a
grantor’s land and contained “right of

40

The plaintiffs also argue that because the deed provides
for only nominal consideration ($1) the court should have found an
easement. As explained in the footnote in the court’s discussion of
the DuBois 22/40 deed, the plaintiffs had stipulated that at least
two deeds which had nominal consideration and contained the
phrase “strip of land” and used the word through conveyed a fee.
As such, the court finds that the fact that the Woodbury 23/399
deed contained only nominal consideration does not change the
court’s conclusion that it conveyed a fee rather than an easement.

153a

way” language.
The nine deeds identified in Category IV, like the
deeds in Category III above, conveyed a “strip of land”
and used either the words “across”, “through”, or
“over” in reference to that strip of land. Unlike the
Category III deeds, however, the deeds in this category
do use the term “right of way” either in the body or title
of the deed. Again, however, as the United States has
previously argued the significance of the term “right of
way” in a deed conveying a property interest to a
railroad is not that the term is used, but how it is used.
Def’s XMSJ 27-29, Def’s Obj. Prelim. Findings 1-6, Oral
Arg. Tr. 7-9. As the Oregon Supreme Court explained in
Bouche, if a deed to a railroad grants “a use to be made
of the property, usually, but not invariably, described .
. . as a right of way in the grant,” courts then have
“little difficulty” in determining that the deed conveyed
an easement. Bouche, 293 P. at 209. In Bernards, the
deed the court determined conveyed an easement used
“right of way” in the granting clause, stating that the
grantors “do hereby grant, bargain, sell and convey
unto the said grantee and … its successors, for its use as
a right of way, a strip of land . . .” Bernards, 248 P.2d
at 342 (emphasis added). The Category IV deeds use the
term “right-of-way” within the bodies of the deeds, but
not in the granting clauses. As the court has done in the
previous three Categories, the court will examine the
Bernards/Bouche factors again.
1. Beals Land Co. 18/41
The Beals Land Co. 18/41 deed (Def.’s Ex. 8)
provides in pertinent part:

154a

Beals Land Company
to
11136
Pacific Railway + Navigation Co

Right of Way Deed

Know All Men by These Presents: that for
and in consideration of the sum of One [sic] +
00/100 Dollars, the receipt whereof is hereby
acknowledged, Beals Land Company, a
corporation duly organized and existing under
and by virtue of the laws of the State of Oregon,
hereinafter called the grantors, [sic] do [sic]
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is
surveyed and located through Lot two of
Section thirty two in Township two North of
Range ten West of the Willamette Meridian,
save and except a certain tract heretofore
conveyed by Beals Land Company to Security
Savings and Trust Company.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the above named
grantee and to its successors and assigns

155a

forever.
The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all
incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Beals Land Co. 18/41
deed conveyed fee simple title even though the amount
of consideration was nominal ($1) because the “right of
way” language in the title of the deed described the
geographic location of the property and not the nature
of the interest being conveyed, there was no limitation
on the use of the land for railroad purposes only nor a
right of reverter if the railroad discontinued railroad
use, and there was no requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
The plaintiffs argue that the court was incorrect in
determining that the Beals Land Co. 18/41 deed
conveyed a fee to the railroad because in part this court
improperly discounted the importance of the deed being
entitled “Right of Way Deed”. As support for their
argument concerning this deed, the Albright plaintiffs
cite on a case decided under Kansas law support that
the title is an indication that the railroad received only
an easement. Albright Mot. 13 n.5 (citing Biery v.
United States, 753 F.3d 1279, 1289 (Fed. Cir. 2014)).
The Loveridge plaintiffs make similar arguments and

156a

they compare the Beals Land Company 18/41 deed to
the Wilhelm deed in Boyer where this court found that
a deed entitled right of way, that used the phrase “over
and across” and strip of land, that requires the railroad
to build and maintain fences and crossings, and the
reflects only nominal consideration as paid conveyed an
easement to the railroad and not a fee. Additionally, the
plaintiffs argue that the consideration provided is
nominal and the deed contains the phrases “strip of
land” and “through”, the property being conveyed is
not described with precision, each of which is a factor
that weighs into concluding that the Beals Land Co.
18/41 deed conveyed an easement and not a fee.
In response, the government argues that the
standards set forth in Bernards and Bouche do not
suggest that because the deed is entitled “Right of Way
Deed” it must be construed as conveying an easement
without other indicia to suggest that the original parties
intended to convey an easement. The government
maintains that because the deed does not mention any
railroad purpose or contain any language limiting the
use of the land to only railroad purposes the court was
correct in determining that a fee was conveyed to the
railroad.
The court agrees with the plaintiffs that the court
was incorrect when it previously determined that the
deed conveyed a fee to the railroad rather than an
easement. Although the issue of the nature of the
conveyance is a close call, the court agrees with the
plaintiffs that the balance of the Bernards/Bouche
factors indicate that the original parties intended to
convey an easement to the railroad. The combination of

157a

the use of “right of way” in the title of the deed as well
as the nominal consideration indicate that the original
parties intended to convey an easement to the railroad.
Additionally, although as explained above, the singular
use of the phrase “strip of land” and words such as
through do not necessarily indicate in and of themselves
an intent to convey an easement when read together
with the title of the Beals Land Co. 18/41 deed, they do
suggest an intent to convey an easement. Therefore, the
plaintiffs’ motion for reconsideration is granted on the
Beals Land Co. 18/41 deed.
2. Bryden 74/273 Deed
The Bryden 74/273 deed (Def.’s Ex. 12) is a form
deed that provides in pertinent part:
Know all Men by these Presents, That
James Bryden and Addie Bryden, [sic] his wife
and John Stewart and Clara Stewart, his wife of
xxxxxxxx State of Oregon, in consideration of
Twenty Two [sic] and 05/100
($22.05)DOLLARS, to them paid by Pacific
Railway and Navigation Company of Portland,
Multnomah [sic] County xx
State of Oregon
***
* * * * * have bargained and sold, and by these
presents do grant, bargain, sell and convey unto
said
Pacific Railway Navigation Company[,] its
successors
* * * and assigns, all the following bounded and

158a

described real property, situated in the County
of Washington and State of Oregon:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side[]of the center
line of the Pacific Railway and Navigation
Company’s Railway as surveyed, located and
adopted across W 1/2 [sic] of N. W [sic] 1/4 Sec.
29, T. P. 3 N. R. 4 W. W. M. described as
follows: Beginning at a point on the east line
ofW 1/2 of NW 1/4 685 feet north of the
Southeast corner thereof, said point being at
the intersection of said east line with the west
line of said Right of Way; running thence North
7 degrees and 59 minutes west along said west
line of Right of Way 820 feet; thence by a spiral
to the left 60 feet; thence * * * [describing
property] * * *; containing four and 58/100
(4.58) acres.
* * * [Blank space] * * *
Together with all and singular the tenements,
hereditaments and appurtenances thereto
belonging or in anywise appertaining and also
all their
estate, right, title and interest in
and to the same, including dower and claim of
dower.
TO HAVE AND TO HOLD the above described
and granted premises unto the said
PACIFIC RAILWAY AND NAVIGATION
COMPANY[,]its successors
xxx and assigns
forever. And

159a

James Bryden and Addie Bryden, his wife,
and John Stewart and Clara Stewart[,] his wife,
grantors above named do covenant to and with
Pacific Railway and Navigation Company
the above named grantee[,] its successors and
assigns that[]it is lawfully seized in fee simple
of the above granted premises, that the above
granted premises are free from all
incumbrances
***
and that
they
will and
their heirs,
executors and administrators shall warrant and
forever defend the above granted premises, and
ever part and parcel thereof, against the lawful
claims and demands of all persons whomsoever.
(italics in original).
The court had found that the Bryden 74/273 deed
conveyed fee simple title because the amount of
consideration was substantial ($22.05), the “right of
way” language in the body of the deed described the
geographic location of the property and not the nature
of the interest being conveyed, there was no limitation
on the use of the land for railroad purposes only nor a
right of reverter if the railroad discontinued railroad
use, and there was no requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an

160a

easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrase “strip of land” and uses the word
across, the court should have found that the deed
conveyed an easement and not a fee. The court
disagrees. First, the court finds that it was correct when
it determined that the use of the phrase “right of way”
in this deed described the geographic location of the
property and not the property interest itself. Second,
for the same reasons as explained in the court’s analysis
of the Category II deeds, the use of “strip of land” and
across in the Bryden 74/273 deed are not made in
reference to any language limiting the use of the land
and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Bryden
74/273 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.
3. Friday 72/526 Deed
The Friday 72/526 deed (Def.’s Ex. 37) provides
in pertinent part:
THIS INDENTURE, made this 7th day of
May 1906, between John W. Friday and Pearl
Friday his wife, of Washington County, Oregon,
parties of the first part, and the PACIFIC

161a

RAILWAY & NAVIGATION COMPANY, a
Corporation, party of the se[con]d part,
WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of Twenty Five
Dollars ($25) to them in hand paid, by the party
of the second [p]art, the receipt of which is
hereby acknowledged , [sic] have granted,
bargained and sold[,] conveyed and confirmed
and by these presents do grant , [sic] bargain
and sell, convey and confirm unto the said
party of the second part, and its successors and
assigns , [sic] all that certain lot, piece, parcel
and track of land, lying,[]being and situate in
Washington County, Oregon, and particularly
described as a part of the South East Quarter of
Sec. 25, T 2 N. R. 4 W., Will. Mer., to-wit:A strip of land 160 feet wide being 120 feet
on the East side and 40 feet on the West side of
the center line of the Pacific Railway &
Navigation Company’s railway as now surveyed
and located on said lands, and described as
follows:
Beginning at a point where the center line
of said Railroad Survey intersects the c enter
[sic] of Dairy Creek, * * * Thence down the
center of said Creek South 22 degree and 40
minutes East 170 feet and thence South 13
degree and 15 minutes west 93 feet to the West
line of Right of Way; Thence South 32 degree
and 18 minutes East along said Right of Way 96

162a

feet to the center of Dairy Creek; thence North
80 degree and 22 minutes East 955 feet to the
place of beginning and containing 0.96 acres.
Together with all and singular the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said[]party of the
second part and unto its successors and assigns
forever.
The court had found that the Friday 72/526 deed
conveyed fee simple title because the amount of
consideration was substantial ($25), the “right of way”
language in the body of the deed described the
geographic location of the property and not the nature
of the interest being conveyed, there was no limitation
on the use of the land for railroad purposes only nor a
right of reverter if the railroad discontinued railroad
use, and there was no requirement for the railroad to
build structures such as crossings, cattle guards, or
fences to protect the grantor’s interest.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that

163a

the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and “located on”
the court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Friday 72/526 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the Bernards
factors weighed in favor of finding that the Friday
72/526 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.
4. Hannan 99/354 Deed
The Hannan 99/354 deed (Def.’s Ex. 51)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Ella Hannan widow, of the County of
Washington State of Oregon, in consideration
of the sum of Five Hundred ($500.00) Dollars
to her paid by Pacific Railway and Navigation
Company, a corporation, the receipt whereof is
hereby acknowledged, has bargained and sold
and by these[]presents does grant, bargain[,]

164a

sell and convey unto said Pacific Railway and
Navigation Company[,] its successors and
assigns all of the following describe premises
located in Washington County, Oregon. [sic]
Beginning[]at a point on the east line of the
right of way of said Pacific Railway and
Navigation Company, 1020 feet south and 135
feet east of the northwest corner of the
southwest quarter of Section 4, Township 2
North range [sic] 4, Willamette Meridian, said
point being 100 feet distant from main line and
30 feet distant from the north leg of the wye
track as now located; running thence easterly
and 30 feet distant from said wye track on 18º
30’ curve, 360 feet; thence easterly and 30 feet
distant from wye track extended 260 feet;
thence southerly at right angles, 60 feet; thence
westerly[]at right angles and 30 feet distant
from said wye track extend 275 feet; thence
southerly and 30 feet distance from south leg of
said wye track, 510 feet to the east of said right
of way, which point is 40 feet from the main
line[;] thence northerly along the said right of
way on a 40º curve 400 feet; then north 62 feet;
thence northerly along the right of way on a 4º
curve parallel to the main line and 100 feet
distant therefrom, 215 feet to the place of
beginning containing[]1.9 acres, together with
all and singular the tenements , [sic]
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. The
grantee herein agrees to fence said tract herein
conveyed with a hog-tight fence. Grantor

165a

reserves the right to one private crossing at
grade with gates[]over the tract above described
at a point to be mutually agreed upon.
TO HAVE AND TO HOLD[]said premises
unto the said Pacific Railway and Navigation
Company, its successors and assigns forever,
and the grantor herein does covenant to and
with the above named grantee that she is
lawfully seised in fee simple of said granted
premises that the same are free from all
incumbrances and that she will warrant and
forever defend the said premises, and every
part and parcel thereof, against the lawful
claims and demands of all persons whomsoever.
The court had found that the Hannan 99/354 deed
conveyed fee simple title even though the grantee was
required to build a hog-tied fence because the amount
of consideration was substantial ($500), the “right of
way” language in the body of the deed described the
geographic location of the property and not the nature
of the interest being conveyed, and there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed

166a

referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and “across”, the
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself. This is
further supported by an inclusion of a specific amount
of acreage that is being conveyed which indicates that
the use of the term “right of way” was describing the
geographic location of the interest being conveyed.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Hannan 99/354 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Hannan 99/354 deed conveyed a fee was correct
and therefore the plaintiffs’ motion for reconsideration
is denied.
5. Hannan 72/549 Deed
The Hannan 72/549 deed (Def.’s Ex. 50), which
is very similar to the above analyzed Hannan deed,
provides in pertinent part:
THIS INDENTURE, made this 21st day of
August 1906, between Henry Hannon and Ella
Hannon, his wife, of Washington County,

167a

Oregon, parties of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
parties of the first part, WITNESSETH:
THAT the said parties of the first part, for
and in consideration of the sum of $1.00, to
them in hand paid, by the party of the second
part, the receipt of which is hereby
acknowledged, have granted, bargained and
sold, conveyed and confirmed, and by these
presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and tract of land, lying, being
and situate in Washington County, Oregon, and
particularly described as a portion of Section 4,
T. 2 N. R. 4 W., a strip of land 60 feet wide, and
680 feet long, adjoining the right of Way [sic] of
the Pacific Railway & Navigation Company’s
Railway, on the Right , [sic] and described as
follows:Beginning at a point 526 5/10 feet South of
and 66 5/10 feet East of the North West corner
of the South West quarter of the North West
quarter of said Sec. 4; Running thence South 2
degrees and 38 minutes West along Right of
Way, 242 5/10 feet; thence in a Southerly
direction by a spiral to left, 90 feet; thence by a
4 degree curve to the left, 355 feet; thence East
parallel to the North line of said Section 4, 61
5/10 feet; thence in a Northerly direction on a
4 degree curve to the Right 355 feet, thence by
a spiral to right, 90 feet; thence North 2

168a

degrees and 30 minutes East, 264 3/10 to the
North line of said Hannan’s land; thence South
72 degrees and 40 minutes West, 61 1/10 feet to
place of beginning and containing 0.96 acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND HOLD, all and singular,
the said premises together with the
appurtenances unto the said[]party of the
second part and unto its successors and assigns
forever. And the parties of the * * * first part
hereby covenant to and with the party of the
second part[,] its successors and assigns
forever, that the parties of the first part, [sic]
are the owners in fee simple of the tract of land
a bove [sic] described, and the whole thereof,
that said premises are fee from all
incumbrances, and that the parties of the first
part, their heirs, executors and administrators
shall warrant and forever defend the above
described and granted premises and every part
and parcel thereof against the lawful claims and
demands of all persons whomsoever.
The court had found that the Hannan 72/549 deed
conveyed fee simple title even though the amount of
consideration was nominal ($1) because the “right of
way” language in the body of the deed described the

169a

geographic location of the property and not of the
interest being conveyed, there was no limitation on the
use of the land for railroad purposes only nor a right of
reverter if the railroad discontinued railroad use, and
there was no requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and “across” the
court should have found that the deed conveyed an
easement and not a fee. The court agrees with the
plaintiffs that the court was incorrect when it
previously determined that the deed conveyed a fee to
the railroad rather than an easement. Although the
issue of the nature of the conveyance is a close call, the
court agrees with the plaintiffs that the balance of the
Bernards/Bouche factors indicate that the original
parties intended to convey an easement to the railroad.
The combination of the use of “right of way” in the title
of the deed as well as the nominal consideration
indicate that the original parties intended to convey an
easement to the railroad. Additionally, although as
explained above, the singular use of the phrase “strip of

170a

land” and words such as through do not necessarily
indicate in and of themselves an intent to convey an
easement when read together with the use “right of
way” in the B Hannan 72/549 deed, they do suggest an
intent to convey an easement. Therefore, the plaintiffs’
motion for reconsideration is granted on the Hannan
72/549 deed.
6. Harter 29/115 Deed
The Harter 29/115 deed (Def.’s Ex. 53) is
entitled “Warranty Deed. No. 21042.” and provides in
pertinent part:
KNOW ALL MEN BY THESE PRESENTS,
That [sic] we John R. Harter, his wife, of the
County of Tillamook in the State of Oregon, in
consideration of the sum of Three Hundred
Seventy-Five ($375.00) Dollars, paid by Pacific
Railway and Navigation Company, a
corporation duly organized under the laws of
the State of Oregon, having its principal office
at the City of Portland in said State, the receipt
whereof is hereby acknowledged, have granted,
bargained, sold and conveyed, and by these
presents do grant, bargain, sell and convey unto
the said Pacific Railway and Navigation
Company, its successors and assigns, the
following described parcel of land, situate in
Tillamook County, in the State of Oregon,
to-wit:
Our undivided two-thirds (2/3) interest in
and to that certain tract or parcel of land in
Tillamook County, Oregon, more particularly

171a

described as follows:All of a strip of land one hundred feet in
width, being fifty feet in width on each side of
the center line of the P. R. & N. CO. as the
same is now located and constructed across the
Northeast quarter of the northeast quarter of
section 13, Township 1 South Range 10 West,
Willamette Mariden, [sic], and also across the
north six rods (Ninety-nine feet of the
southeast quarter of the Northeast quarter of
said Section 13. [sic] Said center line being
more particularly described as follows:* * * [Description] * * *
The above described strip
containing 3.80 acres more or less.

of

land

It being the intention to convey our
undivided two-thirds (2/3) interest in the
right-of-way of said railroad Company [sic] as
now used and which was acquired by us [the
grantors] through deeds from Monta Davidson
and Josie A. Deeter, together with all and
singular the tenements, hereditaments and
appurtenances thereto belonging or in anywise
appertaining, and also all our estate, right, title
and interest in and to the same, including
dower and claim of dower.
TO HAVE AND TO HOLD The [sic] above
described and granted premises unto the said
Pacific Railway and Navigation Company[,] its
successors and assigns forever. And we the

172a

grantors above named do covenant to and with
the above named grantee, its successors and
assigns, that we are lawfully seized in fee
simple of the above granted premises, that the
above granted premises are free from all
incumbrances, and that we will and our heirs,
executors and administrators, shall warrant
and defend the above granted[]premises, and
every part and parcel thereof, against the
lawful claims and demands of all persons
whomsoever.
The court had found that the Harter 29/115 deed
conveyed fee simple title because the amount of
consideration was substantial ($375), the “right of way”
language in body of the deed described the geographic
location of the property and not the nature of the
interest being conveyed, there was no limitation on the
use of the land for railroad purposes only nor a right of
reverter if the railroad discontinued railroad use, and
there was no requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s interest.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed

173a

contains the phrases “strip of land” and across the
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself. This is
further supported by an inclusion of a specific amount
of acreage that is being conveyed which indicates that
the use of the term “right of way” was describing the
geographic location of the interest being conveyed.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Harter 29/115 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Harter 29/115 deed conveyed a fee were correct
and therefore the plaintiff’s motion for reconsideration
is denied.
7. Stowell 75/32 Deed
The Stowell 75/32 deed (Def.’s Ex. 105) provides
in pertinent part:
THIS INDENTURE, made this 8th day of
February A.D.1907, between S. H. Stowell and
Josephine Stowell, his wife, of Washington
County, Oregon, parties of the first part, and
the PACIFIC RAILWAY & NAVIGATION
COMPANY, party of the second part,
WITNESSETH:

174a

That the parties of the first part, for and in
consideration of the sum of $50.00 and other
good and valuable consideration to them in
hand paid, by the party of the second part, the
receipt whereof is hereby acknowledged, have
granted, bargained and sold, conveyed and
confirmed and by these presents do grant,
bargain and sell, convey and confirm unto the
said party of the second part, and its successors
and assigns all that certain lot, piece, parcel
and tract of land, lying, being and situate in
t[h]e County of Washington, State of Oregon
and being more particularly described as
follows:Being in the S. W. [1/4] of Sec.[]33 and in
the N. E. [1/4] of Sec 32, all in[]T. 3 N R. 4. W.
Will. Mer. a strip of land 100 feet wide being 50
feet on each side of the center line of the Pacific
Railway and Navigation Company’s Railway, as
surveyed, located and adopted across said lands
and described as follows:Beginning at a point where the East line of
said Right of Way intersects the West line of
said Stowells [sic] land, 475 feet North and 109
feet East of the Southwest corner of said
Section 33; Running [sic] thence in a
Northwesterly direction along said West line,
180 feet; thence in a North Easterly direction
along said West line, 520 feet to its intersection
with the West line of said Right of Way; thence
in a Northeasterly dire[c]tion along said Right
of way, [sic] on a spiral to the Right, 170 feet;

175a

thence * * * *; Also Beginning [sic] at a point
where the West line of said Right of Way
intersects the East line of said N. E. l of said
Sec. 32, 390 feet North of the Southeast corner
thereof; Running * * * *, and containing 6.96
acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise appertaining
and the reversion and reversions, remainder
and remainders, rents, issues and profits
thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said Pacific Railway &
Navigation Company, its successors and assigns
forever,[]And [sic] We, [sic] S. H,. Stowell and
Josephine Stowell, his wife, grantors above
named, do covenant to and with the Pacific
Railway & Navigation Company, the above
n[a]med grantee, its successors and assigns,
that the above granted premises are fee from all
incumbrances, and that we will and our heirs,
executors and administrators, shall warrant
and forever defend the above granted premises
and every part and parcel thereof against the
lawful claims and demands of all persons
whomsoever.
The court had found that the Stowell 75/32 deed
conveyed fee simple title because the amount of
consideration was substantial ($50), the “right of way”

176a

language in the body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and across the
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself. This is
further supported by an inclusion of a specific amount
of acreage that is being conveyed which indicates that
the use of the term “right of way” was describing the
geographic location of the interest being conveyed.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and across in the Stowell 75/32 deed are not made
in reference to any language limiting the use of the land

177a

and thus do not indicate an intent by the original
parties to convey an easement. Thus, the court finds
that its original conclusion that the Bernards/Bouche
factors weighed in favor of finding that the Stowell
75/32 deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.
7. Smith, Lloyd 16/515 Deed
The Smith, Loyd 16/515 deed (Def.’s Ex. 103)
provides in pertinent part:
Know All Men by These Presents: That for
and in consideration ofthe sum of One Hundred
Fifty and 00/100 Dollars, the receipt whereof is
hereby acknowledged, I, Lloyd C Smith a
widower, of Garibaldi, Tillamook County[,]
Oregon[,] hereinafter called the grantor, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred(100) [sic] feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lot 3 of
Section 8, Lot 4 of Section 7, Lots 1, 2, 3, and 4
and North-West [sic] quarter of
South-West[]quarter of Section 17, Lot 3 of
Section 20 and Tide Land fronting and
abutting upon Lots 3 and 4 of Section 20, all in

178a

Township 1 North of Range 10 West of
Willamette Meridian; save and except that from
Station No 651 to Station No. 677 said right of
way hereby conveyed shall be only 65 feet wide
being 50 feet on the Easterly side and 15 feet
on the Westerly side of said center line.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the above named
grantee and unto its successors and assigns
forever.
The grantor above named does covenant
that he is seised of the aforesaid premises in fee
simple, and that the same are free from all
incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Smith, Lloyd 16/515
deed conveyed fee simple title because the amount of
consideration was substantial ($150)41, the “right of
way” language in body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
41

As noted above, the court in its August 13, 2018 Opinion
had incorrectly identified the consideration in the Smith/Lloyd
deed as $1 rather than $150.

179a

only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and through this
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Smith, Lloyd 16/515 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the
original parties to convey an easement. Finally,
plaintiffs argue that the description of the property
conveyed by this deed is not precise and thus this court
should have found that the deed conveyed an easement
and not a fee. The court disagrees and finds for the
same reasons as explained in the court’s analysis of the
Category I and II deeds that the Smith, Lloyd 16,515

180a

deed describes the location of the land being conveyed
by the grantor with sufficient precision to conclude that
the original parties intended to convey a fee. Thus, the
court finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Smith, Lloyd 16/515 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
8. Wheeler 16/2 Deed
The Wheeler 16/2 deed (Def.’s Ex. 122) provides
in pertinent part:
Know All Men by These Presents: That
Coleman H. Wheeler and Cora E. Wheeler,
hereinafter called the grantors, for and in
consideration of the sum of $1.00 to them in
hand paid, the receipt whereof is hereby
acknowledged, does [sic] hereby release, remit
and forever quit claim [sic] unto Pacific Railway
and Navigation Company, hereinafter called
the grantee, its successors and assigns forever,
all of the following described real property
situate in the County of Tillamook and State of
Oregon, to wit: A right of way 60 feet in width,
being 30 feet on each side of and parallel with
the center line of the grantee’s railway as the
same is surveyed, staked out, located and
adopted through the following described real
property, to-wit:
All that tract or parcel of land in Lots Four
(4) and Five (5) of Section Two (2), Township
Two (2) North of Range Ten (10) West of the

181a

Willamette Meridian
Beginning at the Northeast corner of
Charles Seaman’s four acre tract on the
meander line of the Nehalem River; thence
Easterly along and up said River sixteen (16)
rods; thence South twenty (20) rods parallel
with Charles Seaman’s line; thence West to
Charles Seaman’s East line; thence North to
the Nehalem River to the place of beginning
and containing two acres more or less.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever.
The court had found that the Wheeler 16/2 deed
conveyed fee simple title although the amount of
consideration was nominal ($1), the “right of way”
language in the body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an

182a

easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and “across” at
least three of the eight Bernards/Bouche factors are
present and thus the court should have found that the
deed conveyed an easement and not a fee.
The court agrees with the plaintiffs that the court
was incorrect when it previously determined that the
deed conveyed a fee to the railroad rather than an
easement. Although the issue of nature of the
conveyance is a close call, the court agrees with the
plaintiffs that the balance of the Bernards/Bouche
factors indicate that the original parties intended to
only convey a fee to the railroad. The combination of
the use of “right of way” in the granting clause of the
deed as well as the nominal consideration indicate that
the original parties intended to convey an easement to
the railroad. Additionally, although as explained above,
the singular use of the phrase “strip of land” and words
such as through do not necessarily indicate in and of
themselves an intent to convey an easement when read
together with the use of “right of way” in the Wheeler
16/2 deed, they do suggest an intent to convey an
easement to the railroad. Therefore, the plaintiffs’
motion for reconsideration is granted on the Wheeler
16/2 deed.
E. Category V: Deeds which contain

183a

“right of way” language in the body or
the title
Category V deeds consist of five deeds which only
the Loveridge plaintiffs are seeking reconsideration.
The arguments for reconsideration are nearly identical
to the arguments made concerning the Category IV
except that the Loveridge plaintiffs’ primary arguments
as to why reconsideration is warranted is that the court
misconstrued the use of the phrase “right of way” and
should have found that “right of way” was describing
the interest being conveyed and that the deeds
conveyed an easement to the railroad rather than a fee.
As the court has done in the previous four Categories,
the court will examine the Bernards/Bouche factors
again.
1. The Byrom 5/310 Deed
The Byrom 5/310 deed (Def.’s Ex. 16) provides
in pertinent part:
Peter Byrom et ux
to
Pacific Railway and Navigation Co.

No. 2820
Right of Way
$5.00

Know All Men by These Presents: That for
and in consideration of the sum of $5.00, to
them in hand paid, the receipt whereof is
hereby acknowledged, Peter Bryom and
Bergtha [sic] Byrom, his wife, do bargain, sell,
grant and convey to the Pacific Railway and
Navigation Company, and to its successors and
assigns forever, a strip of land 100 ft. wide,
being 50 ft. on each side of the center line of the

184a

railway of the Pacific Railway and
Navigation[]Company, as now surveyed and
located thru lands of the aforesaid Peter Byrom
and Bergtha [sic] Byrom in Sections 21 and 22,
in Township 1 North of Range 10 West of the
Willamette Meridian, more particularly
described as follows, to wit:
All tide lands fronting and abutting on Lots
3[]and 4 in Section 21, and Lots 1, 2 and 3 in
Section 22, in Township 22, in Township 1
North of Range 10 West of the Willamette
Meridian; together with the tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. To Have
and to Hold unto the said Pacific Railway and
Navigation Company, and to its successors and
assigns forever; together with the right to build,
maintain and operate thereover a railway and
telegraph line[.]
The court had found that the Byrom 5/310 deed
conveyed fee simple title although the amount of
consideration was nominal ($5), because the “right of
way” language in the body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly

185a

determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains only nominal consideration the court should
have found that the deed conveyed an easement rather
than a fee.
The court agrees with the plaintiffs that the court
was incorrect when it previously determined that the
deed conveyed a fee to the railroad rather than an
easement. Although the issue of nature of the
conveyance is a close call, the court agrees with the
plaintiffs that the balance of the Bernards/Bouche
factors indicate that the original parties intended to
only convey an easement to the railroad.
The
combination of the use of “right of way” in the granting
clause of the deed as well as the nominal consideration
indicate that the original parties intended to convey an
easement to the railroad. Additionally, although as
explained above, the singular use of the phrase “strip of
land” and words such as through do not necessarily
indicate in and of themselves an intent to convey an
easement when read together with the use of “right of
way” in the Byrom 5/310 deed, they do suggest an
intent to convey an easement. Therefore, the plaintiffs’
motion for reconsideration is granted on the Byrom
5/310 deed.

186a

2. The Goodspeed 16/487 Deed
The Goodspeed 16/487 deed (Def.’s Ex. 41)
provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of Thirty four
Hundred and sixteen and 60/100 Dollars, the
receipt whereof is hereby acknowledged, we, H.
F. Goodspeed and Lillian A Goodspeed,
husband and wife, of Tillamook City, Tillamook
County, Oregon: [sic] hereinafter called the
grantors, do bargain, sell, grant, convey and
confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land fifty[](50) feet wide being
twenty five (25) [feet] on each side of the center
line of the railway of the grantee as the same is
surveyed and located through the South East
quarter of the North West quarter and that
part of Lot seven lying West of a certain right of
way formerly conveyed by said Goodspeed to
said Pacific Railway and Navigation Company,
all lying in Section thirty, in Township one
South of Range nine West of Willamette
Meridian, the center line of the right of way
hereby conveyed being more particularly
described as follows, to wit: Beginning at a
point which is identical with Station 18 plus

187a

84.5 on the main line of said P.R.+N. Co., which
point is located by beginning at Sta. 00 plus 00
on said main line, 4407.8 feet South and 281.5
East of the 1/4 Section corner between Secs
[sic] 19 and 30, T 1 S R 9 W, and running
thence N 1º 00’ East 1884.5 feet to said Station
18 plus 84.5 which is the initial point of the
right of way hereby intended to be described
and conveyed, thence following a spiral to the
left a distance of 120 feet and consuming 7º 30’
of the angle, thence following a 12º 30’ curve to
the left a distance of 609.3 feet, thence
following a spiral to the left a distance of 120
feet and consuming 7º 30’ of angle, to Sta. 8
plus 49.3; thence South 89º 50’ West 1142 feet
more or less to the East line of Lot two in said
Section 30.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.

188a

The court had found that the Goodspeed 16/487
deed conveyed fee simple title because the amount of
consideration was substantial ($3416.60), the “right of
way” language in body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and through this
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Goodspeed 16/487 deed are
not made in reference to any language limiting the use
of the land and thus do not indicate an intent by the

189a

original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Goodspeed 16/487 deed conveyed a fee was
correct and therefore the plaintiffs’ motion for
reconsideration is denied.
3. Hobson 13/331 Deed
The Hobson 13/331 deed (Def.’s Ex. 56) provides
in pertinent part:
Know all Men by These Presents: That for
and in consideration of the sum of Three
Hundred and 00/100 Dollars, the receipt
whereof is hereby acknowledged, We, Joanna
Hobson and Frank P. Hobson, wife and
husband, of Tillamook County, Oregon
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through Lots three and
that part of Lot two lying East of a certain tract
in Lot two owned by Theodore Parks, all in
Section twenty-two, Township one North of
Range ten West of Willamette Meridian, on

190a

what is known and designated as the Coast
Line Route.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining. It is
hereby understood and agreed that this deed
shall not convey to said Railway Company any
right of way on any lands of the grantor lying
East of the curve now staked out and located to
connect said Coast Line Route with the right of
way heretofore conveyed by the grantors herein
to said Grantee.
To Have and to Hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court had found that the Hobson 13/331 deed
conveyed fee simple title because the amount of
consideration was substantial ($300), the “right of way”
language in body of the deed described the geographic
location of the property and not of the nature of the
interest being conveyed, z there was no requirement for
the railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.

191a

The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and through this
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself. This is
further supported by an inclusion of a specific amount
of acreage that is being conveyed which indicates that
the use of the term “right of way” was describing the
geographic location of the interest being conveyed.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Hobson 13/331 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the Bernards
factors weighed in favor of finding that the Hobson
13/331 deed conveyed a fee was correct and therefore
the plaintiffs’ motion for reconsideration is denied.
4. The Johnson 9/610 Deed
The Johnson 9/610 deed (Def.’s Ex. 61) provides

192a

in pertinent part:
Samuel Johnson
RAILWAY DEED.
to
NO. 6636.
Pacific Railway and Navigation Company.
* * * [EMPTY SPACE] * * *
------MAP------------Showing RightofWay [sic] across-------------A Tract of land 209½ ft sq.
Sec 22 T1N.R10W ---------------Scale “1400ft”-------* * * [Drawing or map] * * *
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of
Twenty five and 00/100 DOLLARS, the receipt
whereof is hereby acknowledged, I, Samuel
Johnson, widower, and sole heir at law of Annie
Johnson, deceased, of Tillamook County,
Oregon, hereinafter called the grantnrs [sic] do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon,
to-wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through a certain tract of
land in Lot eight of section twenty two,
Township one North of Range ten West of

193a

Willamette Meridian, more
described as follows;- [sic]

particularly

Commencing at a stake on the meander line
marked with a cross, running thence in a
Southerly direction 209l feet, thence Westerly
209 1/2 feet, thence Northerly 209 1/2 feet,
thence Easterly 209 1/2 feet to the place of
beginning.
Together with the appurtenances,
tenements,[]and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors [sic] above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all encumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
The court had found that the Johnson 9/610 deed
conveyed fee simple title because the amount of
consideration was substantial ($25), the “right of way”
language in body of the deed described the geographic
location of the property and not of the nature of the
interest being conveyed, there was no limitation on the
use of the land for railroad purposes only nor a right of
reverter if the railroad discontinued railroad use, and

194a

there was no requirement for the railroad to build
structures such as crossings, cattle guards, or fences to
protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and through this
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of
land” and through in the Johnson 9/610 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the
Bernards/Bouche factors weighed in favor of finding
that the Johnson 9/610 deed conveyed a fee were
correct and therefore the plaintiff’s motion for
reconsideration is denied.
5. The Paquet 5/316 Deed

195a

The Paquet 5/316 deed (Def.’s Ex. 81) provides
in pertinent part:
Fred Paquet
No. 2853
to
Right of Way
Pacific Railway + Navigation Company $202.60
Know All Men by These Presents: That for
and in consideration of the sum of $202.60/100
to me in hand paid, the receipt whereof is
hereby acknowledged, I, Fred Paquet,
unmarried, do hereby grant, bargain, sell and
convey to the Pacific Railway and Navigation
Company, and to its successors and assigns
forever, all those portions of the land owned by
me, embraced in a strip of land 100 ft. wide,
being 50 ft. on each side of the center line of the
railway to the Pacific Railway and Navigation
Company, as now surveyed, located and
adopted thru the lands of the aforesaid Fred
Paquet, in Lot 1, Sec. 22 T 1 N.R.10 W., W. M.
said center line being more particularly
described as follows: * * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever, together with
the right to build, maintain and operate
thereover a railway and telegraph line.
The court had found that the Paquet 5/316 deed

196a

conveyed fee simple title because the amount of
consideration was substantial ($202.60), the “right of
way” language in the body of the deed described the
geographic location of the property and not of the
nature of the interest being conveyed, there was no
limitation on the use of the land for railroad purposes
only nor a right of reverter if the railroad discontinued
railroad use, and there was no requirement for the
railroad to build structures such as crossings, cattle
guards, or fences to protect the grantor’s land.
The plaintiffs argue that the court incorrectly
determined that the phrase “right of way” did not
indicate the original parties’ intention to convey an
easement because it described the land being conveyed
and not the nature of the property interest. Instead,
plaintiffs argue the court should have determined that
the use of the term “right of way” in this deed
referenced the interest being conveyed and thus
indicated an intention to convey an easement.
Furthermore, the plaintiffs argue that because the deed
contains the phrases “strip of land” and through this
court should have found that the deed conveyed an
easement and not a fee. The court disagrees. First, the
court finds that it was correct that the use of the phrase
“right of way” was describing the geographic location of
the property and not the property interest itself. This is
further supported by an inclusion of a specific amount
of acreage that is being conveyed which indicates that
the use of the term “right of way” was describing the
geographic location of the interest being conveyed.
Second, for the same reasons as explained in the court’s
analysis of the Category II deeds, the use of “strip of

197a

land” and through in the Paquet 5/316 deed are not
made in reference to any language limiting the use of
the land and thus do not indicate an intent by the
original parties to convey an easement. Thus, the court
finds that its original conclusion that the Bernards
factors weighed in favor of finding that the Paquet
5/316 deed conveyed a fee was correct and therefore the
plaintiffs’ motion for reconsideration is denied.
CONCLUSION
For the foregoing reasons, the Albright and
Loveridge plaintiffs’ motion for reconsideration is
hereby
GRANTED-in-PART
and
DENIED-in-PART. Reconsideration is granted for the
Beals Land Co. 18/41 deed, Wheeler 16/2 deed, Byrom
5/310 deed and Hannan 72/549 deed. The parties shall
have until February 25, 2019 to file a proposed
schedule for resolving the remaining issues in these
cases. The court will thereafter schedule a status
conference to finalize the parties’ next steps.
IT IS SO ORDERED.
s/Nancy B. Firestone
NANCY B. FIRESTONE
Senior Judge

198a

APPENDIX D
UNITED STATES COURT
OF FEDERAL CLAIMS
PERRY LOVERIDGE, et al.,
Plaintiffs,
v.
THE UNITED STATES,
Defendant.
ALBRIGHT, et al.,
Plaintiffs,
and
THE UNITED STATES,
Defendant.
No. 16-912L and
16-1565L and No. 18-375 Consolidated
(FILED: August 13, 2018
Rails-to-Trails; Fifth Amendment Takings;
Oregon Law; Easement; Fee Simple
OPINION
FIRESTONE, Senior Judge.
I.

Introduction

Pending before the court are cross-motions for
partial summary judgment filed pursuant to Rule 56 of
the Rules of the United States Court of Federal Claims
(“RCFC”) by the plaintiffs in Loveridge v. United States

199a

(“Loveridge plaintiffs”), the plaintiffs in Albright v.
United States (“Albright plaintiffs”), and the United
States (“the government”).1
The Loveridge plaintiffs and the Albright plaintiffs
claim in their motions that the government affected a
taking of their reversionary interests in land within a
dormant rail corridor when the government approved
the conversion of an approximately eighty-one mile long
portion of a dormant railroad line between Tillamook
County and Washington County, Oregon to create a
recreational trail pursuant to the National Trail System
Act Amendments of 1983, 16 U.S.C. § 1247(d) (“Trails
Act”). The plaintiffs contend in their motions that the
deeds from their predecessors-in-interest granted only
easements to the railroad which terminated when the
railroad became dormant. If the deeds granted
easements, plaintiffs argue that after the rail line
became dormant the property within the corridor
reverted back to plaintiffs and that conversion of the
rail corridor gave rise to a taking of their reversionary
interests in the rail corridor.
The government argues that the deeds at issue
should be read to have conveyed the property within the
rail corridor to the railroads in fee simple absolute. If

1

Loveridge v. United States and Albright v. United States
both involve the same rail corridor in Oregon and overlapping
deeds but the cases involve different plaintiffs and there is
different counsel in each case. For these reasons, the cases have
not been consolidated. Nonetheless, because the cases concern the
same segment of railroad line and involve many of the same deeds
the court is issuing a single opinion.

200a

the railroads received a fee interest in the corridor, the
plaintiffs have no revisionary interest subject to a
taking. In the alternative, the government contends
that any easements granted to the railroad were broad
enough to encompass trail use. In this opinion the court
will only address whether the deeds in dispute conveyed
an easement, as plaintiffs contend, or a fee, as the
government contends.
II. The Rails to Trails Act
The statutory and legal backdrop to Rails-to-Trails
cases was recently summarized by the Federal Circuit in
Chicago Coating Co., LLC v. United States, 892 F.3d
1164, 1165-68 (Fed. Cir. 2018). As the Federal Circuit
explains, under the Trails Act, the United States
Surface Transportation Board (“STB”) has issued
regulations regarding the abandonment and
discontinuance of service over railroad lines. See 49
C.F.R. §§ 1152.1–1152.60. A railroad, to abandon or
discontinue service over a rail line, must file an
application for abandonment or discontinuance with the
STB under 49 U.S.C. § 10903 or a notice of exemption
under 49 U.S.C. § 10502 and 49 C.F.R. § 1152.50.
Under either procedure, the STB will not approve the
abandonment of the railroad line under either
procedure if a “qualified trail provider” (“a state,
political subdivision, or qualified private organization”)
submits to the STB a request to use the rail corridor for
interim trail use and railbanking under 16 U.S.C. §
1247(d) (“section 1247(d)”). See 49 U.S.C. § 1152.29. If
the qualified trail provider submits a statement of
willingness to assume financial and legal responsibility
to the STB and the railroad carrier, the STB will, in

201a

situations involving an operating railroad, issue a
Certificate of Interim Trail Use or Abandonment
(“CITU”), which preserves the STB’s jurisdiction over
the railroad corridor while the parties negotiate an
interim trail use agreement. 49 U.S.C. § 1152.29(c). In
situations involving the exemption procedure, the STB
will issue a Notice of Interim Trail Use (“NITU”), which
also preserves the STB’s jurisdiction over the railroad
corridor, allows the railroad to discontinue its
operations, permits the railroad to remove equipment
and railroad track, and provides the railroad and the
qualified trail provider 180 days to negotiate an interim
trail use agreement. 49 U.S.C. § 1152.29(d).
During this time, the railroad will also negotiate an
agreement for the transfer of the rail corridor to the
trail operator. If an agreement is reached, the CITU or
NITU automatically authorizes the interim trail use. If
the STB takes no further action, the trail sponsor may
then assume management of the former railroad
corridor, subject only to the right of a railroad to
reassert control of the property for the restoration of
rail service. If, on the other hand, an agreement is not
reached, the railroad will be allowed to abandon the
railroad line, at which time the STB’s jurisdiction over
the railroad corridor terminates. Section 1247(d)
provides that interim trail use “shall not be treated, for
purposes of any law or rule of law, as an abandonment
of the use of such rights-of-way for railroad purposes.”
16 U.S.C. § 1247(d). Thus, the property remains within
the national rail system and available for reactivation of
rail service for the duration of the interim trail use.
Chicago Coating, at 1167. The Federal Circuit has

202a

explained that section 1247(d) of the Trails Act
“prevents the operation of state laws that would
otherwise
come
into
effect
upon
abandonment—property laws that would ‘result in
extinguishment of easements for railroad purposes and
reversion of rights of way to abutting landowners.’”
Caldwell v. United States, 391 F.3d 1226, 1229 (Fed.
Cir. 2004) (quoting Rail Abandonments—Use of
Rights–of–Way as Trails, Ex Parte No. 274 (Sub– No.
13), 2 I.C.C.2d 591, 1986 WL 68617 (1986)).
Under the Takings Clause of the Fifth Amendment,
private property cannot “be taken for public use,
without just compensation.” U.S. Const. Amend. V.
According to the Federal Circuit, “[i]t is settled law that
a Fifth Amendment taking occurs in Rails–to– Trails
cases when government action destroys state-defined
property rights by converting a railway easement to a
recreational trail, if trail use is outside the scope of the
original railway easement.” Ladd v. United States, 630
F.3d 1015, 1019 (Fed. Cir. 2010), reh’g denied, 646 F.3d
910 (Fed. Circ. 2011). See also Chicago Coating, at
1167, 1170. A Fifth Amendment taking occurs when
“the issuance of the CITU or NITU authorizing
recreational trail use effectively extinguishes the state
property rights of reversion of the right-of-way to the
fee owner.” Macy Elevator, Inc. v. United States, 97
Fed. Cl. 708, 718 (2011). See also Caldwell v. United
States, 391 F.3d 1226, 1228 (Fed. Cir. 2004) (“a Fifth
Amendment taking occurs when, pursuant to the Trails
Act, state law reversionary interests are effectively
eliminated in connection with a conversion of a railroad
right-of- way to trail use.”); Chicago Coating, 1169-70

203a

at *4 (“In order to prove a compensable taking based on
the issuance of a NITU, a claimant must prove that
‘state law reversionary interests [in the property at
issue] are effectively eliminated in connection with a
conversion of a railroad right-of-way to trail use.’”
(quoting Caldwell, 391 F.3d at 1228)). Determining
whether taking liability arises in a Rails-to-Trails case
involves addressing a three-part inquiry: “(1) who owns
the strip of land involved, specifically, whether the
railroad acquired only an easement or obtained a fee
simple estate; (2) if the railroad acquired only an
easement, were the terms of the easement limited to
use for railroad purposes, or did they include future use
as a public recreational trail (scope of the easement);
and (3) even if the grant of the railroad’s easement was
broad enough to encompass a recreational trail, had this
easement terminated prior to the alleged taking so that
the property owner at the time held a fee simple
unencumbered by the easement (abandonment of the
easement).” Ellamae Phillips Co. v. United States, 564
F.3d 1367, 1373 (Fed. Cir. 2009) (citing Preseault v.
United States, 100 F.3d 1525, 1533 (Fed. Cir. 1996)
(“Preseault II”)). See also Chicago Coating, 1169 at *4.
Thus, in Rails-to-Trails cases, “the threshold question
is whether the claimant has a compensable property
interest in the land allegedly taken, which is often
answered by analyzing the original deeds that conveyed
the property to the railroad.” Chicago Coating, 1170 at
*2.
III.

Factual Background
At issue in these cases are 132 deeds that in the

204a

early 1900s transferred property interests to railroad
companies in order to create the above-referenced 81.07
mile long portion of the railroad line located between
milepost 775.01 near Banks, Oregon and milepost
856.08 near Tillamook, Oregon. Specifically, the
interests were deeded to the Pacific Railway and
Navigation Company and the Southern Pacific
Company. Eventually, the Port of Tillamook Bay
Railroad (“POTB”) obtained ownership of the relevant
portion of the railroad line.
On May 26, 2016, the Port of Tillamook Bay
Railroad filed a Notice of Intent to Partially Terminate
(Abandon) Service for the railroad segment at issue
here with the STB. On or about June 17, 2016, the
Salmonberry Trail Intergovernmental Agency
(“Salmonberry Trail”) filed with the STB a Statement
of Willingness to Assume Financial Responsibility
(“Statement”) regarding the relevant railroad segment
at issue in this case. In its Statement, in addition to
expressing its willingness to assume responsibility for
the relevant railroad segment, the Salmonberry Trail
stated that the relevant railroad segment “is suitable
for railbanking” and requested that the STB find the
railroad segment suitable for trail use and issue a
Public Use Condition and a Certificate or Notice of
Interim Trail Use under the National Trails System
Act, 16 U.S.C. §1247(d).
On July 1, 2016, the POTB filed with the STB its
response to the Salmonberry Trail’s request and
expressed its willingness to negotiate with the
Salmonberry Trail regarding the acquisition of the
relevant railroad segment. On July 26, 2016, the STB

205a

issued a Notice of Interim Trail Use (“NITU”) for the
relevant railroad segment. On January 19, 2017, the
STB granted the Salmonberry Trail’s request for a 180day extension of the NITU until July 21, 2017 for
negotiating the trail use/railbanking agreement.
Eventually, after another extension, the POTB and the
Salmonberry Trail on October 27, 2017, notified the
STB that they entered into a trail use/rail banking
agreement regarding the relevant railroad segment.
IV. Procedural Posture
The present actions were filed by the Loveridge
plaintiffs on August 1, 2016 and by the Albright
plaintiffs on November 23, 2016. See Loveridge v.
United States, No.1:16-cv-00912-NBF, ECF No. 1;
Albright v. United States, No. 1:16-cv-01565-NBF, ECF
No. 1.
On September 22, 2017, the government and the
Loveridge plaintiffs filed Joint Stipulations Regarding
Title Matters (“Loveridge Joint Stipulations”). See
Loveridge, ECF No. 24. The Loveridge plaintiffs filed
their motion for partial summary judgment and their
memorandum in support of their motion for summary
judgment on October 10, 2017. The Albright plaintiffs
filed their motion for partial summary judgment and
memorandum in support on November 2, 2017. On
December 12, 2017, the government filed the same
cross-motion and response for both cases.
Briefing on the motions was completed on April 9,
2018, and on April 19, 2018, the court, in an effort to
help expedite resolution of the numerous legal issues

206a

raised regarding the 132 deeds at issue, filed, under
seal, a statement of preliminary conclusions and
findings for the parties to consider and address before
the scheduled oral argument. See Loveridge, ECF No.
46; Albright, ECF No. 48. The court received the
parties’ objections to the court’s preliminary
conclusions and findings on May 3, 2018 and on May 7,
2018, the court filed under seal an order setting forth
the points of agreement and disagreement between the
parties. See Loveridge, ECF No. 49; Albright, ECF No.
51.
As set forth in that order, the parties agree that the
following 18 deeds2 granted fee simple interests to the
railroad: Alderman 11/614 (Def.’s Ex. 2); Bryden 74/274
(Def.’s Ex. 13); Coates 5/486 (Def.’s Ex. 22); Cone 7/339
(Def.’s Ex. 23); Edner 35/282 (Def.’s Ex. 34); Erickson
36/557 (Def.’s Ex. 36); Fry 74/243 (Def.’s Ex. 38);
Handley 21/99 (Def.’s Ex. 47); Hauxhurst 11/330 (Def.’s
Ex. 55); Hobson 7/39 (Def.’s Ex. 57); Illingworth 7/164
(Def.’s Ex. 58); Johnson 11/353 (Def.’s Ex. 60); Kunze
& Gubser 13/15 (Def.’s Ex. 68); Murphy 11/283 (Def.’s
Ex. 78); Parks 11/329 (Def.’s Ex. 82); Pike (Pacific
Lodge) 7/81 (Def.’s Ex. 84); Provoost 7/21 (Def.’s Ex.
89); and Seamon 11/285 (Def.’s Ex. 99). Eventually,
plaintiffs claiming a taking based on these deeds will
have to be dismissed from the case.
The parties also agree that the following 12 deeds

2

Deeds are listed as Name Book/Page (Exhibit Number).
Unless otherwise indicated, the exhibits are those attached to the
Def.’s Brief.

207a

conveyed only easements to the railroad: Alley 9/537
(Def.’s Ex. 4); Brighton Mills Co. 58/292 (Def.’s Ex. 10);
Cummings 79/381 (Def.’s Ex. 26); Denni 75/372 (Def.’s
Ex. 29); Hammond Lumber Co. 23/308 (Def.’s Ex. 46);
Kilches River Co. 31/228 (Def.’s Ex. 64); Kinney 13/196
(Def.’s Ex. 65); Larsen 5/133 (Def.’s Ex. 70); Miami
Lumber Co. 27/440 (Def.’s Ex. 77);3 Smith, Alfred
13/313 (Def.’s Ex. 102); Tucker 12/331 (Def.’s Ex. 112);
and Whitney Co. Ltd. 7/84 (Def.’s Ex. 124). See Def.’s
Br. at 23–24; Pls.’ Loveridge Br. at 37–38; Oregon
Landowners’ Reply in Supp. Cross-Mot. Partial Summ.
J. (“Pls.’ Albright Reply”) at 6–7, Albright, ECF No. 46.
See also Loveridge Joint Stipulations. The government
additionally agrees that the easements conveyed by
eleven of these twelve source deeds (all except the
Brighton Mills Co. 58/292 deed) “are limited to railroad
purposes” and therefore “railbanking and trail use are
outside the scope of the easements” that these eleven
deeds conveyed to the railroad. The plaintiffs claiming
a taking based on these deeds will continue in the
litigation.
Oral argument on the parties’ cross-motions for
partial summary judgment with regard to the 102 deeds
remaining in contention was heard on May 9, 2018.
V. Summary Judgement Standards
Summary judgment is proper “if the movant shows
that there is no genuine dispute as to any material fact
and that movant is entitled to judgment as a matter of
law.” RCFC 56(a). A genuine dispute is one that could
3

The Parties do not address the deed in their motions.

208a

permit a reasonable jury to enter a verdict in the nonmoving party’s favor, and a material fact is one that
could affect the outcome of the lawsuit. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). The party
moving for summary judgment bears the initial burden
of establishing the absence of a genuine issue of
material fact and can satisfy this burden by presenting
evidence that negates an essential element of the nonmoving party’s case. Celotex Corp. v. Catrett, 477 U.S.
317, 322–23, 331 (1986). To establish a genuine issue of
material fact, a party ‘“must point to an evidentiary
conflict created on the record; mere denials or
conclusory statements are insufficient.”’ Radar Indus.,
Inc. v. Cleveland Die & Mfg. Co., 424 Fed. App’x 931,
936 (Fed. Cir. 2011) (quoting SRI Int’l v. Matsushita
Elec. Corp. of Am., 775 F.2d 1107, 1116 (Fed. Cir.
1985)). In evaluating motions for summary judgment,
courts must draw any inferences from the underlying
facts in the light most favorable to the non-moving
party and may not engage in credibility determinations
or weigh the evidence. Anderson, 477 U.S. at 255;
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986). If no rational trier of fact could
find for the non-moving party, a genuine issue of
material fact does not exist and the motion for
summary judgment may be granted. Matsushita Elec.
Indus., 475 U.S. at 587. With respect to cross-motions
for summary judgment, courts must evaluate each
motion on its own merits and resolve reasonable
inferences against the party whose motion the court is
considered. Marriot Intern. Resorts, L.P. v. United
States, 586 F.3d 962, 968–69 (2009).

209a

VI. Oregon Law
As discussed above, Rails-to-Trails takings cases
arise from the application of section 8(d) of the National
Trails System Act (the “Trails Act”) as amended by the
National Trails System Act Amendments of 1983 and
codified at 16 U.S.C. § 1247(d) and liability for a taking
occurs when “a claimant . . . prove[s] that ‘state law
reversionary interests [in the property at issue] are
effectively eliminated in connection with a conversion
of a railroad right-of-way to trail use.’” Chicago
Coating, 1170 at *4 (quoting Caldwell, 391 F.3d at
1228)). To determine whether there has been a taking
requires the court “to apply the law of the state where
the property interest arises.” Id. at
*5 (citing Bd. of Regents v. Roth, 408 U.S. 564, 577
(1972); Preseault II, 100 F.3d at 1536). In these cases,
Oregon law applies.
Under Oregon law, the task of the court is to
ascertain the intent of the original parties by
considering the language of the deed in its entirety and
the surrounding circumstances. See, e.g., Bouche v.
Wagner, 293 P.2d 203, 208 (Or. 1956) (“Whether an
instrument conveys ownership of land or only an
easement depends upon the intention of the parties.”
(quotation marks and citation omitted)); Doyle v.
Gilbert, 469 P.2d 624, 626 (Or. 1970) (“It is [the
court’s] duty, therefore, to determine the intent of the
parties from the language of the deed itself and from
the surrounding circumstances.”); U.S. Nat. Bank of La
Grande v. Miller, 258 P. 205, 209 (Or. 1927) (“it is the
duty of the court to give effect to the intention of the

210a

parties in a deed as to other contracts. This intention
must be gathered from the entire instrument. In order
to determine the intention of the parties, it is the duty
of the court to consider ‘the circumstances under which
it was made, including the situation of the subject of the
instrument, and of the parties to it, * * * so that the
judge be placed in the position of those whose language
he is to interpret.’” (citations omitted)).
Oregon law provides that that “the intention to
convey less than the full fee must be clearly expressed
or necessarily implied from the words used in the
conveyance.” Bouche v. Wagner, 293 P.2d 203, 208 (Or.
1956) (citing Weniger v. Ripley, 293 P. 425 (Or. 1930)).
In Bernards v. Link, 284 P.2d 341 (Or. 1952) and
Bouche v. Wagner, 293 P.3d 203 (Or. 1956), the Oregon
Supreme Court has identified eight factors to examine
in determining whether a deed which does not expressly
state the nature of the interest conveyed should be read
to have conveyed an easement or a fee simple interest
to a railroad. These factors are: (1) whether the deed is
entitled “Right of Way Deed” or uses “right of way” in
the title of the deed, which would imply that only a
“right” or easement was granted to the railroad; (2)
whether the phrase “right of way” is used in the body of
the deed to describe the interest being conveyed, which
would indicate only a “right” rather than a fee was
conveyed; (3) whether the consideration paid for the
interest was nominal, which if nominal would suggest
that an easement was conveyed; (4) whether the deed
contains a reverter clause; (5) whether the deed uses
the phrase “over and across” (or “over and across and
out”) the lands of the grantors, which would indicate

211a

that a right to cross the land or an easement was
conveyed; (6) whether the property interest conveyed is
described with without precision, which if described
without precision would weigh in favor of construing
the deed as an easement; (7) whether the deed contains
a commitment by the railroad to build structures, such
as fences, cattle guards, or crossings, which would favor
finding an easement; and (8) whether the deed uses the
phrase “strip of land” to describe the interest being
conveyed, which would indicate that the deed conveyed
an easement to the railroad. See Bernards v. Link, 248
P.2d 341, 343 (Or. 1952); Bouche v. Wagner, 293 P.2d
203, 209 (Or. 1956). This court has previously applied
these criteria in another Rails-to-Trails case involving
Oregon property owners. See Boyer v. United States,
123 Fed. Cl. 430, 437 (2015).
The government argues that two of the factors
taken from the Bernards opinion regarding the
construction of structures such as fences, crossings, or
cattle guards and referencing the interest being
conveyed as a “strip of land” may no longer be relevant
to determining whether a fee or easement was granted
because the Oregon Supreme Court in the later issued
Bouche decision “failed to mention” those two factors,
even though it “specifically reiterated” the other six
factors identified in Bernards. The court has read
Bouche and Bernards and concludes that Bouche
cannot be read to have rejected the relevance of those
two factors in all situations. Rather, the issue of
fencing did not appear to be relevant in relation to the
particular deeds examined in the Bouche case. As for
use of the phrase “strip of land,” the court agrees with

212a

the government that the phrase standing alone will not
be sufficient to establish the intent to convey only an
easement, as the Oregon Supreme Court stated that
“‘[c]onveyances to railroads, which purport to grant and
convey a strip, piece, parcel, or tract of land, and which
do not contain additional language relating to the use or
purpose to which the land is to be put or in other ways
cutting down or limiting, directly or indirectly, the
estate conveyed, are usually construed as passing an
estate in fee.’” Bouche, 293 P.2d at 209 (quoting 132
A.L.R. 145).4
In examining the deeds remaining in dispute, the
court recognized that virtually all of the 102 disputed
deeds, like most of the ones agreed upon by the parties,
used phrases like “strip of land” and “through the land”
in the body of the deed and also described the property
conveyed with similar degrees of specificity. As such,
the court has determined that these factors are of
limited value in discerning intent. Rather, as the
Bouche court stated, the court has focused its analysis
on whether the deed contains language that can be
fairly read as limiting the railroad’s use of the estate
conveyed to only a “right.” Thus, in deciding whether
the deed conveyed only an easement for a right of way
and not a fee, the court has focused on whether the deed

4

Indeed, the plaintiffs have agreed that 18 deeds with the
phrase “strip of land” and use the words similar to “across” or
“through” when describing property conveyed a fee interest in the
rail corridor. The government has also agreed that deeds which
describe the property with a degree of precision convey an
easement.

213a

uses the phrase “right of way” in the title or text to
describe the estate granted, contains language limiting
the railroad’s use of the property for only a railroad
purpose or requiring the property to be returned if no
longer used for railroad purposes, provides for only
nominal consideration, and requires the railroad to
provide and maintain crossings, fences or other edifices
which would also indicate that only an easement was
conveyed.
VII.

Deeds

1. The Alley 5/475 Deed
The Alley 5/475 deed (Def.’s Ex. 3) provides in
pertinent part:
Know all Men by These Presents : [sic]
That for and in consideration of the sum of
$15.00 to them in hand paid, the receipt
whereof is hereby acknowledged[,] Olivia Alley
and Lee M. Alley, her husband, do hereby
grant, bargain, sell and convey to the Pacific
Railway and Navigation Company, and to its
successors and assigns forever, that portion,
triangular in shape, of the lands owned by them
in Lot 2, Sec. 21, T.1 N.R. 10 West W. M.,
included in a strip 100 ft. in width being 50 ft.
on each side of the center line of the Pacific
Railway and Navigation Company’s Railway, as
now surveyed and located thru the lands owned
by them, and being that portion thereof north
of the north line of the County Road, as said
County Road is now situate and located, said

214a

center line of said Pacific Railway and
Navigation Company’s railway being more
particularly described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in any way appertaining:
To Have and to Hold unto the said Pacific
Railway and Navigation Company and to its
successors and assigns forever; together with
the right to build, maintain and operate
thereover a railway and telegraph line.
The plaintiffs contend that this deed conveyed only
an easement on the grounds that the deed specifically
references a purpose–“the right to build, maintain and
operate thereover a railway and telegraph line” and
because it references “thru the lands” owned by the
grantor. The plaintiffs argue that under the
Bernards/Bouche criteria these phrases establish that
an easement for railroad purposes was granted.
The government argues that the deed should not be
construed as granting an easement simply because it
uses the phrase "thru the lands" and confirms the
railroad’s right to build a railroad on the property. The
government argues that where, as here, the deed does
not reference a right of way either in the title or body of
the deed the phrase “thru the lands” simply describes
the location of the property conveyed. The government
further argues that the language authorizing the “right
to build, maintain and operate thereover a railway. . .

215a

line,” does not limit the railroad’s use of the conveyance
but instead confirms the rights inherent in the fee
conveyance. For these reasons, the government argues
the court should read the deed as conveying a fee simple
interest to the railroad.
First, the court finds that the phrase “together with
the right to build, maintain and operate thereover a
railway and telegraph line” while identifying a railroad
purpose does not limit the railroad’s use. As will be
discussed infra in this opinion, there are deeds where
the language “together with the right to build a
railroad” is preceded with language clearly stating that
a “fee simple absolute” interest was granted. Moreover,
the quoted language does not limit the railroad’s rights
to only construction and operation a railway line.
Rather, the subject language confirms the railroad’s
right to construct a rail line without limitation.
Therefore, based on the court’s understanding of
the language discussed above, and because the
consideration payed was not nominal ($15), the court
finds that without any mention of the phrase “right of
way”, nor any commitment by the railroad to build
structures such as crossings, cattle guards, or fences,
the Alley 5/475 deed (Def.’s Ex. 3) conveyed fee
simple title to the railroad.5

5

Having concluded that the phrase “through the property”
or “strip of land” are not helpful where all deeds include that
language, the court will not address that language in connection
with any of the disputed deeds unless the language is critical to its
analysis. Similarly, the court will not address whether the property
conveyed is described with precision, because all of the deeds

216a

2. The Batterson 12/163 Deed
The Batterson 12/163 deed (Def.’s Ex. 5)
provides in pertinent part:
S. M. Batterson et al
Railway Deed.
to
NO. 7948.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of Eight [sic] Hundred & 00
DOLLARS, [sic] the receipt whereof is hereby
acknowledged, we, S M. Batterson [sic] and
Harriet E. McMaine, sole heirs at law of
William Batterson, deceased, and Pauline O.
Batterson wife of said S. M. Matterson,
hereinafter called the grantors, do hereby
bargain, sell, grant[,] convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred (100) feet
wide being fifty (500 [sic] feet on each side of
the center line of the railway of the grantee, as
the same is surveyed and located through Lots
4, 6 and 7 and the North West quarter of South
East quarter of Section 34 and LOt [sic] 6 of

describe the property conveyed with some degree of precision.

217a

Section 35, in Township 3 North of Range nine
West of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The Albright plaintiffs argue that this court should
consider the Batterson 12/163 deed and similar deeds
entitled “Railway Deeds” to have conveyed easements
under Bouche/Bernards criteria because the title
indicates that the property is to be used for a railway
purpose. The plaintiffs also contend that the subject
deed meets three other Bouche/Bernards criteria that
suggest the conveyance of an easement. Specifically, the
Albright plaintiffs argue that the language in the deeds
stating “as surveyed and located [through/across/on the
grantor’s land]” language or similar language confirms
that only an easement was granted to the railroad
because this language indicates that the railroad had
begun the condemnation process to acquire the
property for the rail line. According to the plaintiffs,

218a

since these deeds were executed under the “threat of
condemnation[,]” the deeds do not represent “armslength” transactions between the parties. In addition
the plaintiffs argue that the deeds can only be for an
“easement,” because railroads could only obtain
easements using their condemnation authority under
Oregon law. Oregon law at the time, the Albright
plaintiffs assert, “limited the interest the railroad could
obtain by exercising [its eminent domain] power to an
easement.” Pls.’ Albright Resp. at 21 (citing Oregon
Railway and Navigation Co. v. Oregon Real Estate Co.,
10 Or. 444 (1882); Redfield on Railways § 61, ¶ 5, p.
221).
The government responds that there are no Oregon
cases to suggest that a deed entitled “Railway Deed”
cannot convey a fee or cases to suggest that only an
easement was intended where the deed indicates that
the railroad had likely begun condemnation proceedings
by surveying the subject property. The government
emphasizes that courts in Oregon have previously
examined deeds that contained “surveyed” language
and did not find that such language indicated that only
an easement was conveyed. To the contrary, the Oregon
Supreme Court determined that a deed which conveyed,
for $650, property on which the railroad’s track had
already been “located and established” conveyed a fee
simple title to the railroad, when the language of the
deed as a whole indicated the parties’ intent to convey
a fee. See Bouche, 293 P.2d at 206, 210.
The court agrees with the government. In Bouche,
the Supreme Court of Oregon determined that a
railroad can acquire fee simple title to narrow strips of

219a

land that had been surveyed by the railroad. The
Oregon Supreme Court in Bernards examined a deed
conveying a strip of land that stated that “‘[s]aid strip
of land shall be taken substantially along the line as
now surveyed and staked as a line for a railroad by said
grantee or its agents and servants, over and across said
land”’ and never suggested that this language meant
that only an easement was intended. Bernards, 199 Or.
at 248 P.2d at 342 (emphasis added). For all of these
reasons the court finds that the term “Railway Deed”
and the fact that the subject property was surveyed and
staked does not indicate that an easement rather than
a fee was conveyed.
The court finds with regard to this deed that that
the absence of any “right of way” language or language
indicating that the interest conveyed is limited to
railroad purposes, the fact that the railroad is not
required to build fencing or crossings, and that $800 in
consideration was paid by the railroad all weigh in favor
of finding that the parties intended to convey a fee
interest to the railroad. The court thus holds that the
Batterson 12/163 deed (Def.’s Ex. 5) granted fee
simple title to the railroad.
3. The Bay City Land Co. 3/629 Deed
The Bay City Land Co. 33/629 deed (Def.’s Ex.
6) provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of
$1.00 to it in hand paid, the receipt whereof is
hereby acknowledged, and other valuable

220a

consideration moving to it, Bay City Land
Company, hereinafter called the grantor, does
bargain, sell, grant and convey to Pacific
Railway and Navigation Company, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to wit:
Block 12 of First Water Front Addition to
Bay City; also
A strip of land one hundred feet in width,
being fifty feet on each side of and parallel with
the center line of the grantee’s railway running,
or to run, from Hillsboro to Tillamook, as
constructed through the following described
real property in the County of Tillamook and
State of Oregon, to wit:
* * * [Describing the property through
which the strip conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the grantee
and to its successors and assigns forever;
confirming to the grantee likewise the right to
build, maintain and operate a railroad over the
property granted as aforesaid, and to construct
a freight and passenger station on Block 12, of
the First Water Front Addition to Bay City.
For the reasons previously discussed in connection

221a

with the Alley 5/475 deed, the court finds that the
language confirming the right to build a railroad does
not limit the railroad’s use to only railroad purposes.
Even though the amount of consideration is nominal
($1.00), the deed does not contain the phrase “right of
way” in the title or body of the deed nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. Therefore, the court
finds the language of the deed as a whole, the court
finds that the Bay City Land Co. 33/629 deed
(Def.’s Ex. 6) granted fee simple title to the railroad.
4. The Beals (Tr.) 18/40 Deed
The Beals (Tr.) 18/40 deed (Def.’s Ex. 7)
provides in pertinent part:
F.R. Beals, Trustee
to
11135 Railway Deed
Pacific Railway + Navigation Co
Know All Men by These Presents: That for
and in consideration of the sum of One and 00/100
Dollars, [sic] the receipt whereof is hereby
acknowledged, F R. Beals, Trustee, hereinafter
called the grantors, [sic] do [sic] bargain, sell,
grant, convey and confirm to Pacific Railway
and Navigation Company, hereinafter called the
grantee, and to its successors and assigns
forever, all of the following described real
property situate in the County of Tillamook and
State of Oregon, to wit:
“A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of

222a

the railway of the grantee as the same is
surveyed and located through Lot three of
Section thirty two in Township two North of
Range ten West of the Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences, the court finds that the Beals (Tr.)
18/40 deed (Def.’s Ex. 7), conveyed fee simple title to
the railroad.
5. The Beals Land Co. 18/41 Deed
The Beals Land Co. 18/41 deed (Def.’s Ex. 8)
provides in pertinent part:
Beals Land Company
to
11136 Right of Way Deed
Pacific Railway + Navigation Co
Know All Men by These Presents: that for

223a

and in consideration of the sum of One [sic] +
00
/100 Dollars, the receipt whereof is hereby
acknowledged, Beals Land Company, a
corporation duly organized and existing under
and by virtue of the laws of the State of Oregon,
hereinafter called the grantors, [sic] do [sic]
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
“A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is
surveyed and located through Lot two of
Section thirty two in Township two North of
Range ten West of the Willamette Meridian,
save and except a certain tract heretofore
conveyed by Beals Land Company to Security
Savings and Trust Company.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the above named
grantee and to its successors and assigns
forever.
The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all

224a

incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
Although the language in the two Beals deeds are
not identical, the parties make similar arguments. This
deed, however, is labeled as a “Right of Way Deed” and
in such circumstances it is treated differently under the
Bouche and Bernards cases than if it was entitled
“Railway Deed”. The court recognizes that use of the
phrase “Right of Way Deed” is not dispositive on
discerning the parties’ intention; however, it weighs in
favor of finding an easement if other indicia are present
in the deed. Here the only indicia is that there was only
nominal consideration ($1) paid by the railroad. The
deed does not mention any railroad purpose nor does it
require the railroad to build structures such as
crossings, cattle gaurds, or fences. Therefore, the court
finds that the Beals Land Co. 18/41 deed (Def.’s Ex.
8) conveyed a fee to the railroad.
6. The Bigelow 13/321 Deed
The Bigelow 13/312 deed (Def.’s Ex. 9) provides
in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of $1.00 to
them in hand paid, the receipt whereof is
hereby acknowledged, Mary M. Bigelow and Jay
W. Bigelow, her husband, hereinafter called the
grantors, do bargain, sell, grant, convey and

225a

confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land 100 feet in width, being 50
feet on each side of and parallel with the center
line of the grantee’s railway as the same is
surveyed, located and staked out through the
Southeast quarter of the Southeast quarter of
Section 32, in Township 3 North of Range 9
West of Willamette Meridian, and containing
eighty-four hundredths of an acre[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining
To Have and to Hold to the grantee and to
its successors and assigns forever.
This deed is executed for the purpose of
correcting an informality in a previous deed
executed by the above named grantor, Mary M.
Bigelow, without the joinder of her husband.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Bigelow 13/312 deed
(Def.’s Ex. 9), conveyed fee simple title to the railroad.

226a

7. The Brinn 6/328 Deed
The Brinn 6/328 deed (Def.’s Ex. 11) provides in
pertinent part
KNOW ALL MEN BY THESE PRESENTS:
That foR [sic] and in consideration of the sum
of $150.00 to them in hand paid, the receipt
whereof is hereby acknowledged, G. A. Brinn
and Annie Brinn, his wife, do hereby grant,
bargain, sell and convey to the Pacific Railway
and Navigation Company, and to its successors
and assigns forever, all that portion of the land
owned by them embraced in a strip of land 100
ft. wide, being 50 ft. on each side of the center
line of the Pacific Railway and Navigation
Company’s Railway, as now surveyed, located
and adopted thru the lands of the aforesaid G.
A. and Annie Brinn, in Lots 1- 2- 3- 4- 5- 6- 7and 8, [sic] Block “A”, [sic] Plat of East
Garibaldi, Sec. 21, T. 1 N. R. 10 W., W.M., said
center line being more particularly described as
follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments, and appurtenances thereunto
belonging or in anywise appertaining;
TO HAVE AND TO HOLD unto the Pacific
Railway and Navigation Company, and to its
successoRs [sic] and assigns forever; together
with the right to build, maintain and operate
thereover a railway and telegraph line.

227a

For the same reasons as discussed above regarding
the Alley 5/475 deed, the court finds that the language
confirming that the right to build a railroad does not
limit the railroad’s use to only railroad purposes. Here,
the amount of consideration is not nominal ($250),
there is no “right of way” language in the title or body
of the deed, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences. Therefore, the court finds Brinn 6/328 deed
(Def.’s Ex. 11), conveyed fee simple title to the
railroad.
8. The Bryden 74/273 Deed
The Bryden 74/273 deed (Def.’s Ex. 12) is a form
deed that provides in pertinent part:
Know all Men by these Presents, That
James Bryden and Addie Bryden , [sic] his wife
and John Stewart and Clara Stewart, his wife of
xxxxxxxx State of Oregon, in consideration of
Twenty Two [sic] and 05/100 ($22.05)
DOLLARS, to them paid by Pacific Railway and
Navigation Company of Portland, Multnomah
[sic] County xx State of Oregon * * ** * * * have
bargained and sold, and by these presents do
grant, bargain, sell and convey unto said Pacific
Railway Navigation Company[,] its successors
* * * and assigns, all the following bounded and
described real property, situated in the County of
Washington and State of Oregon:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side[ ]of the center
2

228a

line of the Pacific Railway and Navigation
Company’s Railway as surveyed, located and
adopted across W ½ [sic] of N. W [sic] ¼ Sec.
29, T. P. 3 N. R. 4 W. W. M. described as
follows:
Beginning at a point on the east line of W½ of
NW¼ 685 feet north of the Southeast corner
thereof, said point being at the intersection of
said east line with the west line of said Right of
Way; running thence North 7 degrees and 59
minutes west along said west line of Right of
Way 820 feet; thence by a spiral to the left 60
feet; thence * * * [describing property] * * *;
containing four and 58/100 (4.58) acres.
* * * [Blank space] * * *
Together with all and singular the tenements,
hereditaments and appurtenances thereto
belonging or in anywise appertaining and also
all their
estate, right, title and interest in
and to the same, including dower and claim of
dower.
TO HAVE AND TO HOLD the above
described and granted premises unto the said
PACIFIC RAILWAY AND NAVIGATION
COMPANY[,] its successors xxx and assigns
forever. And James Bryden and Addie Bryden,
his wife, and John Stewart and Clara Stewart[,]
his wife, grantors above named do covenant to
and with Pacific Railway and Navigation
Company the above named grantee[,] its
successors and assigns that[]it is lawfully

229a

seized in fee simple of the above granted
premises, that the above granted premises are
free from all incumbrances * * * and that they
will and their heirs, executors and
administrators shall warrant and forever
defend the above granted premises, and ever
part and parcel thereof, against the lawful
claims and demands of all persons whomsoever.
(italics in original).
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, the court finds that the deed’s use
of the phrase “right of way” is not meant to describe the
property interest but provides a geographic location
Furthermore, the consideration provided is not nominal
($22.05), there is no mention of a railroad purpose, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that the Bryden 74/273 deed (Def.’s
Ex. 12) granted fee simple title to the railroad.
9. The Burgholzer 83/99 Deed
The Burgholzer 83/99 deed (Def.’s Ex. 14)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Joseph Burgholzer and Vina A.
Burgholzer, his wife for and in consideration of
the sum of One Dollar, to them in hand paid,
the receipt whereof is hereby acknowledged, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,

230a

and[]to its successors and assigns forever, all of
the following described real property situate in
the County of Washington and State of Oregon,
to-wit:
A strip of land one hundred feet in width,
being fifty feet on each side of and parallel with
the center line of the track of the Pacific
Railway and Navigation Company, as the same
is surveyed and located through the East one
half of the Northeast quarter of Section thirty
(30) in Township three (3) North of Range four
(4) West W. M.
Together
with
the
tenements,
hereditaments and appurtenances [,] thereunto
belonging or in anywise appertaining. TO
HAVE[]AND TO HOLD to the said Pacific
Railway and Navigation Company, and to its
successors and assigns forever.
The aforesaid grantors Joseph Burgholzer
and Vina A. Burgholzer do hereby covenant
that they are the owners in fee simple of the
aforesaid premises, and that they will forever
warrant and defend the same unto the Pacific
Railway and Navigation Company, its
successors and assigns, against the lawful
claims of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of railroad
purposes, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences,

231a

the court finds that the Burgholzer 83/99 deed
(Def.’s Ex. 14) conveyed fee simple title to the
railroad.
10. The Burgholzer 87/71 Deed
The Burgholzer 87/71 deed (Def.’s Ex. 15) in
pertain part provides:
KNOW ALL MEN BY THESE PRESENTS,
That I, Max Burgholzer (unmarried) of Lane
County, Oregon, in consideration of the sum of
$1.00, to me paid by the Pacific Railway &
Navigation Company, a Corporation, the receipt
whereof is hereby acknowledged[,] do hereby
remise, release and forever quitclaim unto the
said Pacific Railway & Navigation Company, a
Corporation, its successors and assigns, all my
right, title and interest in and to the following
described parcel of real estate situate in the
County of Washington and State of Oregon, towit: A strip of land 100 ft. in width, being 50 ft.
on each side of and parallel with the center line
of the track of the Pacific Railway & Navigation
Company, as the same is surveyed and located
through the west half of the northwest quarter
of Section 36, T 3 N. R. 5 W. of the Will. Mer.,
containing 2.84 acres[.] TO HAVE AND TO
HOLD the same, together with all and singular
the hereditaments and appurtenances
thereunto belonging[]or in anywise
appertaining, to the said Pacific Railway and
Navigation Company, a Corporation, its
successors and assigns forever. This

232a

Conveyance is made to confirm title to said
right of way in the Pacific Railway &
Navigation Company, a Corporation, its
successors and[ ]assigns.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Burgholzer 87/71
deed (Def.’s Ex. 15) conveyed a fee to the railroad.
11. The Byrom 5/310 Deed
The Byrom 5/310 deed (Def.’s Ex. 16) provides
in pertinent part:
Peter Byrom et ux
No. 2820
to
Right of Way
Pacific Railway and Navigation Co. $5.00
Know All Men by These Presents: That for
and in consideration of the sum of $5.00, to
them in hand paid, the receipt whereof is
hereby acknowledged, Peter Bryom and
Bergtha [sic] Byrom, his wife, do bargain, sell,
grant and convey to the Pacific Railway and
Navigation Company, and to its successors and
assigns forever, a strip of land 100 ft. wide,
being 50 ft. on each side of the center line of the
railway of the Pacific Railway and
Navigation[]Company, as now surveyed and
located thru lands of the aforesaid Peter Byrom
and Bergtha [sic] Byrom in Sections 21 and 22,

233a

in Township 1 North of Range 10 West of the
Willamette Meridian, more particularly
described as follows, to wit:
All tide lands fronting and abutting on Lots
3[ ]and 4 in Section 21, and Lots 1, 2 and 3 in
Section 22, in Township 22, in Township 1
North of Range 10 West of the Willamette
Meridian; together with the tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. To Have
and to Hold unto the said Pacific Railway and
Navigation Company, and to its successors and
assigns forever; together with the right to build,
maintain and operate thereover a railway and
telegraph line[.]
The court recognizes the fact that use of the phrase
“Right of Way Deed” is not dispositive on discerning the
parties’ intention; however, it weighs in favor of finding
an easement. Additionally, for the same reasons as
discussed in this court’s review of the Alley 5/475
deed, the court finds that the language confirming that
the land granted can be used for railroad purposes does
not limit the railroad’s use to only railroad purposes.
The court notes that the deed does not use the term
“right of way” in the body of the deed to suggest that
the interest being conveyed was limited to an easement,
consideration was not nominal ($5), nor does the deed
contain any language requiring the railroad to build
structure such as crossings, cattle guards, or fences.
Therefore, based on review of the language of the deed
as a whole, the court finds that the Byrom 5/310 deed

234a

(Def.’s Ex.16) conveyed a fee to the railroad.
12. The Byrom 5/312 Deed
The Byrom 5/312 deed (Def.’s Ex. 17) provides
in pertinent part:
Bergtha [sic] and Peter Byrom
to
Pacific Railway + Navigation Co.

No. 2821
Right of Way
$400.00

Know All Men by These Presents: That for
and in consideration of the sum of $400.00, to
them in hand paid, the receipt whereof is
hereby acknowledged, Bergtha [sic] Byrom and
Peter Bryom, her husband, do bargain, sell,
grant and convey to the Pacific Railway and
Navigation Company, and to its successors and
assigns forever, a strip of land 100 ft. wide,
being 50 ft. on each side of the center line of the
railway of the Pacific Railway and
Navigation[]Company, as now surveyed and
located thru lands of the aforesaid Peter Byrom
and Bergtha [sic] Byrom in Sections 21 and 22,
in Township 1 North of Range 10 West of the
Willamette Meridian, more particularly
described as follows, to wit:
* * * * [Describing the property through
which the strip conveyed runs]* * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.

235a

To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever; together with
the right to build, maintain and operate
thereover a railway and telegraph line[.]
The court recognizes the fact that use of the phrase
“Right of Way Deed” is not dispositive on discerning the
parties’ intention; however, it weighs in favor of finding
an easement. Additionally, for the same reasons as
discussed in this court’s review of the Alley 5/475
deed, the court finds that the language confirming that
the land granted can be used for railroad purposes does
not limit the railroad’s use to only railroad purposes.
Here, the consideration paid was not nominal ($400),
there is no reference to the term “right of way” in the
body of the deed to suggest that the interest being
conveyed was limited to an easement, nor any language
requiring the railroad to build structure such as
crossings, cattle guards, or fences. Therefore, based on
review of the language of the deed as a whole, the court
finds that the Byrom 5/312 deed (Def.’s Ex. 17)
conveyed a fee to the railroad.
13. The Campbell 85/208 Deed
The Campbell 85/208 deed (Def.’s Ex. 18)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That D. F. Campbell and Cecily C. Campbell,
his wife, for and in consideration[ ]of the sum of
One Dollar ($1.00), to them in hand paid, the
receipt whereof is hereby acknowledged, do

236a

hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
and to its successors and assigns forever, all of
the following described real property situate in
the County of Washington and State of Oregon,
to-wit: A strip of land one hundred feEt [sic] in
width, being fifty feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is now surverye d[]and [sic] located
through the West half of the Northwest quarter
of Section Thirty six (36) Township Three [sic]
(3) North Range Five West, containing 2.84
acres. Together with the tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. TO
HAVE AND TO HOLD to the sAid [sic] Pacific
Railway and Navigation Company and to its
successors and assigns forever. The aforesaid D.
F. Campbell and Cecily C. Campbell, his wife,
do hereby covenant that they are the owners in
fee simple of the above granted premises, and
that they will forever warrant and defend the
same unto the Pacific Railway and Navigation
Company, its successors and assigns, against
the lawful claims of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Campbell 85/208 deed

237a

(Def.’s Ex. 18) conveyed a fee to the railroad.
14. The Carstens 72/527 Deed
The Carstens 72/527 deed (Def.’s Ex. 19)
provides in pertinent part:
THIS INDENTURE, made this 22nd day of
August 1906, between A. C. Carstens, and
Sarah E. Carstens, his wife, of Washington
County, Oregon, parties of the first part, and
the Pacific Railway & Navigation Company, a
Corporation, party of the Second [sic] part,
WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of $250.00 to
them in hand paid, by the party of the second
part, the receipt of which is hereby
acknowledged[,] have granted, bargained and
sold, conveyed and confirmed and by these
presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and tract of land, lying, being
and situate in Washington County, Oregon, and
particularly described as a portion of Section
25, T [sic] 2 N. R. 4 W., a strip of land 80 feet
wide, being 40 feet on each on each side of the
center line of the Pacific Railway & Navigation
Company’s Railway as now surveyed and
located on said land and described as follows:
* * * [Description] * * *

238a

Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders,[]rents, issues, and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and assigns
forever. And the parties of the first part hereby
covenant to and with the party of the second
part, its successors and assigns, that the parties
of the first part, [sic] are the owners in fee
simple of the tract of land above described, and
the whole thereof; That [sic] said premises are
fee from all incumbrances, and that the parties
of the first part, their heirs, executors and
administrators, shall warrant and forever
defend the above described and granted
premises and every part and parcel thereof
against the lawful claims and demands of all
persons whomsoever.
Here, the amount of consideration paid was not
nominal ($250), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. The court thus finds
that the Carstens 72/527 deed (Def.’s Ex. 19)
granted fee simple title to the railroad.

239a

15. The Carstens 72/530 Deed
The Carstens 72/530 deed (Def.’s Ex. 20)
provides in pertinent part:
THIS INDENTURE, made this 25th day of
August 1906, between John F. Carstens and
Netta Carstens, his wife, of Washington
County, Oregon, parties of the first part, and
the Pacific Railway & Navigation Company, a
Corporation, party of the second part,
WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of One Dollar
($1) and other valuable consideration, to them
in hand paid by the party of the second part,
the receipt of which is hereby acknowledged,
have granted, bargained and sold, conveyed and
confirmed and by these presents do grant,
bargain and sell, convey and confirm unto the
said party of the second part, and its successors
and assigns, all that certain lot, piece, parcel
and tract of land, lying, being and situate in
Washington County, Oregon, and particularly
described as a portion of Sec. 25, T. 2 N. R. 4
W., a strip of land 80 feet wide, being 40 feet on
each side of the center line of the[ ]Pacific
Railway and Navigation Company’s Railway, as
now surveyed and located on said lands and
described as follows:* * * [Description] * * *

240a

A strip of land 60 feet wide, being 30 feet on
each side of the center line of the Pacific
Railway & Navigation Company’s Railway, as
now surveyed and located on said[]land and
described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and assigns
as long as used and operated for railway and
transportation purposes. And the parties of the
first part hereby covenant to and with the party
of the second part, its successors and assigns,
that the parties of the first part, [sic] are the
owners in fee simple of the tract of land above
described, and the whole thereof, [and] that
said premises are free from all incumbrances,
[sic]
This deed contains the following language “as long
as used and operated for railway and transportation
purposes.” The Albright plaintiffs argue that this
language establishes an easement because it directly
limits the estate being conveyed. See Pls.’ Albright
Resp. at 29. See also Transcript of Oral Argument

241a

(“Arg. Tr.”) 53:7-18, May 9, 2018. The government
argues that the deed conveys a fee simple determinable
interest under Oregon law, citing State By & Through
Dep’t of Transp., Highway Div. v. Tolke, 586 P.2d 791,
795 (Or. Ct. App. 1978) and Kilpatrick v. Snow
Mountain Pine Co., 80 P.2d 137, 139 n.2 (Or. Ct. App.
1991). Arg. Tr. 49:20-50:21. See also Def.’s Br. at
21–22. In Tolke, the Oregon Court of Appeals
determined that a deed that had, for substantial
consideration ($1098.70), granted a strip of land to a
railroad ‘“so long as said property herein granted shall
be possessed, used and occupied as a railroad right of
way and be used and occupied for the purposes of
construction, maintenance and operation thereon and
thereover, railroads and railroad trains,”’ conveyed a
“fee simple determinable estate” to the railroad. Tolke,
586 P.2d at 794, 796. The Tolke court also stated that
the deed further provided that the land conveyed under
the terms of the deed if the property is no longer used
for a railroad it “shall immediately revert to the
grantors.” Tolke, 586 P.2d at 795.
The court finds that this case is different from Tolke
because (1) this deed involves only $1 in consideration
and (2) it does not contain the revisionary language the
Oregon Court of Appeals found to be significant. Tolke
at 586 P.2d at 793 n.3. In such circumstances, the court
finds that the language is more consistent with
language the Oregon courts have found to have granted
only an easement. Bernards, 248 P.2d 342, 352.
Accordingly, the court finds that the Carstens 72/530
deed (Def.’s Ex. 20) conveyed an easement to the
railroad.

242a

16. The Chance 5/449 Deed
The Chance 5/449 deed (Def.’s Ex. 21) provides
in pertinent part
Know all Men by These Presents: That for
and in consideration of the sum of $50 to them
in hand paid, the receipt whereof is hereby
acknowledged, Marion T. Chance and Laura I.
Chance, his wife, do hereby grant, bargain, sell,
and convey to the Pacific Railway and
Navigation Company, and to its successors and
assigns forever, all that portion of the land
owned by them, embraced in a strip of land 100
feet wide, being 50 ft. on each side of the center
line of the Pacific Railway and Navigation
Company’s Railway, as surveyed, located and
adopted thru the lands of the aforesaid Marion
T. Chance, in Lots 1- 2- 3- 4- 5- and six, [sic]
Block 10, original Townsite of Garibaldi, Sec.
21, T. 1[]N. R. 10 W., W.M. said center line
being more particularly described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever, together with
the right to build, maintain and operate
thereover a railway and telegraph line.

243a

For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes is not dispositive on the question
of whether an easement was granted. Here, the amount
of consideration is not nominal ($50), there is no “right
of way” language in the title or body of the deed, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that Chance 5/449 deed (Def.’s Ex.
21), conveyed fee simple title to the railroad.
17. The Cook 15/83 Deed
The Cook 15/83 deed (Def.’s Ex. 24) pertains in
pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Vincent Cook and Martha G. Cook, his
wife, hereinafter called the grantors, in
consideration of the sum of Ten ($10.00)
Dollars, to them in hand paid, the receipt
whereof is hereby acknowledged, and other
valuable considerations moving to them, do * *
* bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns[]forever, a one half
interest in the following described real property
situate in the County of Tillamook and State of
Oregon, to-wit:
A strip of land one hundred (100) feet in
width, being fifty (50) feet on each side of and

244a

parallel with the center line of the tract of the
Pacific Railway and Navigation Company’s
railway as the same is now located, adopted,
and constructed across the Northwest
quarter[]of the Southwest quarter and the
Southwest quarter of the Northwest quarter of
Section eighteen (18) in Township one (1)
South of Range nine (9) West of the Willamette
Meridian, containing 5.07 acres,
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining,
TO HAVE AND TO HOLD to the above
named grantee and to its successors and assigns
forever.
The court finds that this deed’s conveyance of “a
one half interest in the following described real
property” is indicative of the original parties’ intent to
have conveyed a fee interest to the railroad. Here, the
amount of consideration paid was not nominal ($10),
there is no reference to a “right of way” in the title or
body of the deed, and no mention of a railroad purpose,
nor any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that the Cook 15/83 deed (Def.’s Ex.
24), granted fee simple title to the railroad.
18. The Cummings 77/262 Deed
The Cummings 77/262 deed (Def.’s Ex. 25)
provides in pertinent part:

245a

KNOW ALL MEN BY THESE PRESENTS,
That for and in consideration of the sum of
$217.00 to them in hand paid, the receipt
whereof is hereby acknowledged, James
Cummings and Ann Cummings[,] his wife,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Washington and State of Oregon, towit:A strip of land one hundred feet in width,
being fifty feet on each side of and parallel with
the center line of the track of the grantee as the
same is surveyed and located through the West
half of the Southeast quarter of Section 29 in
Township 3 North of Range 4 West of the
Willamette Meridian, containing 7.70 acres
more or less.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the above
named grantee and to its successors and assigns
forever.
The grantors do further covenant that the
grantee may operate a railway line over the
properties above described and also do all
things convenient or useful to be done in

246a

connection therewith. The grantors do
covenant that they are seised of the aforesaid
premises in fee simple; that their estate therein
is free from all liens and encumbrances, and
that they will and their heirs, executors and
administrators shall forever warrant and
defend the above granted premises unto the
grantee herein and unto its successors and
assigns forever against the lawful claims and
demands of all persons.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, the amount of
consideration is not nominal ($217), there is no “right
of way” language in the title or body of the deed, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that the Cummings 77/262 deed
(Def.’s Ex. 25), conveyed fee simple title to the
railroad.
19. The Davidson 11/509 Deed
The Davidson 11/509 deed (Def.’s Ex. 27)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of One
and 00/100 Dollars, the receipt whereof is hereby
acknowledged, we F. M. Davidson and Alvie
Davidson, husband and wife[,] hereinafter

247a

called the grantors, do hereby bargain, sell,
grant[,] convey and confirm to PACIFIC
RAILWAY AND NAVIGATION COMPANY,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred (100) Feet
[sic] wide being fifty (50) feet on each side of
the center line of the railway of the grantee as
the same is surveyed and located through our
undivided one third interest in the North East
quarter of North East quarter of Section
thirteen Township one South of Range ten
West of Willamette Meridian; also a strip of
land six rods wide off of the North side of South
East quarter of North East quarter of Section
thirteen, Township one South of Range ten
West of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
And * * * grantors above named do covenant that
they are seised of the aforesaid premises in fee simple,
and that the same are free from all encumbrances, and
that they will warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its

248a

successors and assigns against the lawful claims of all
persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Davidson 11/509 deed
(Def.’s Ex. 27), conveyed fee simple title to the
railroad.
20. The Davis 72/546 Deed
The Davis 72/546 deed (Def.’s Ex. 28) provides
in pertinent part:
THIS INDENTURE, made this 21st day of
August 1906, between A. B. Davis and Eva
Davis, his wife, F. M. Davis and B. J. Davis, of
Washington County, Oregon, parties of the first
part,[]and the Pacific Railway & Navigation
Company, a Corporation, party of the second
part, WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of One Dollar
($1) and other valuable considerations, to them
in hand paid, by the party of the second part,
the receipt of which is hereby acknowledged,
have granted, bargained and sold, conveyed and
confirmed and by these presents do grant,
bargain and sell, convey and confirm unto the
said party of the second part, and its successors
and assigns, all that certain lot, piece, parcel

249a

and tract of land, lying, being and situate in
Washington County, Oregon, and particularly
described as a portion of Section 4, T. 2. N. R.
4.W. [sic] a strip of land 80 feet wide, being 40
feet on each side of the center line of the Pacific
Railway & Navigation Company’s Railway, as
now surveyed and located on said lands and
described as follows:* * * [Description] * * *
Together with all and singular the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and assigns
forever. And the parties of the first part hereby
covenant to and with the party of the second
part, its successors and assigns, that the parties
of the first part, [sic] are the owners in fee
simple of the tract of land above described, and
the whole thereof, that said premises are fee
from all incumbrances, and that the parties of
the first part, their heirs, executors and
administrators, shall warrant and forever
defend the above described and granted
premises and every part and parcel thereof

250a

against the lawful claims and demands of all
persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Davis 72/546 deed
(Def.’s Ex. 28), conveyed fee simple title to the
railroad.
21. The Detroit Trust 77/44 Deed
The Detroit Trust 77/44 deed (Def.’s Ex. 30)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS,
That Detroit Trust Company, a corporation
organized and existing under the laws of the
State of Michigan, for and in consideration of
the sum of Fifty [sic] ($50.00) Dollars, to it
paid,[]the receipt whereof is hereby
acknowledged, does hereby bargain, sell, grant,
convey and confirm to Pacific Railway and
Navigation Company, a corporation and to its
successors and assigns forever, all of the
following described real property situate in the
County of Washington, State of Oregon, to-wit:“A strip of land one hundred feet in width
being fifty feet on each side of and parallel with
the center line of[]the track of the Pacific
Railway and Navigation ComPany [sic] as the
same is surveyed, located and adopted through

251a

the southeast quarter of section twenty eight
(28), Township Three (3) North, Range five (5)
West of the Willamette Meridian, said center
line being describe[d] as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the said
Pacific Railway and Navigation Company, and
to its successors and assigns forever.
Here, the amount of consideration paid was not
nominal ($50), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. As such, the court
finds that the Detroit Trust 77/44 deed (Def.’s Ex.
30), granted fee simple title to the railroad.
22. The Du Bois Lumber Co. 23/298 Deed
The Du Bois Lumber Co. 23/298 deed (Def.’s
Ex. 31) provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of Ten ($10.00)
Dollars, the receipt whereof is hereby
ackno w l e d g e d , and o t her valuable
considerations moving to it, Du Bois Lumber
Co., a corporation organized and existing under
the laws of Oregon, hereinafter called the

252a

grantor, subject to the conditions and
reservations hereinafter made, does bargain,
sell, grant,[]and convey to Pacific Railway and
Navigation Company, a corporation,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land 100 feet in width, being 50
feet on each side of the center line of the
grantee’s railway as the same is now surveyed
and located through the following described real
property, to wit:
The north half of the northwest quarter of
Section 14, Township 3 North, Range 8 West;
The northwest quarter of Section 28, Township
3 North, Range 7 West; The north half of the
southwest quarter of Section 13 and the
northeast quarter of the southeast quarter of
Section 14, Township 3 North, Range 8 West;
Also Lots one, two, three, four and six of
Section 22, Township 3 North, Range 9 West;
Also the southeast quarter of the southeast
quarter and the southwest quarter of the
southwest quarter of Section 18; the north half
of Section 19; the northwest quarter of Section
20 and the northwest quarter of the southeast
quarter of Section 20 in Township 3 North,
Range 7 West of the Willamette Meridian, in
said county and state.

253a

Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining; giving
and granting unto the grantee also the right to
operate a railway line thereover.
This deed is made subject to the following
conditions and reservations:
The grantor reserves the right to construct
across the land above conveyed and across the
railway track of the grantee to be constructed
thereon, a logging railroad at some suitable
point, the point of crossing and the manner of
crossing to be subject to the approval of the
chief engineer of the Pacific Railway and
Navigation Company and of an engineer to be
selected by Du Bois Lumber Co.; the operation
of said logging road, however, at no time to
interfere with the operation by the grantee of
its railway over the above described lands.
The grantor also reserves the right to lay
water pipes of any size and kind under the right
of way of the grantee, either across or along the
same, in any part of Section 22, in Township 3
North, Range 9 West of the Willamette
Meridian in said County and State, provided
that where said pipes cross under the track of
the grantee, the manner of laying the same
shall be subject to the approval of two
engineers, one to be selected by the grantor and
one by the grantee, and the grantor reserves
the right to go upon said right of way of the

254a

grantee, at any time, in order to lay and repair
said water pipes, or to examine the condition
thereof.
In consideration of the rights and easements
and grants herein contained, the grantee agrees
that the grantor shall not be held responsible for
injury to the railroad and property of the
grantee, its successors and assigns, or to the
structures standing thereon, by falling or sliding
timber or logs, provided the grantor uses due
care to prevent such injury, and the grantor
agrees that at all times when it is cutting
timber on its lands adjoining said right of way
of the grantee, which is in danger of falling or
sliding on the railway track of the grantee, it
will keep a man employed for the purpose of
flagging the trains of the grantee, to the end
that accidents shall be prevented.
To Have and to Hold unto the grantee[,] its
successors and assigns forever. And the grantor
does hereby covenant to and with the grantee,
its successors and assigns, that it is seized in
fee simple of the above described premises, and
that it will warrant and defend the same unto
the grantee, its successors and assigns against
the lawful claims and demands of all persons
whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that only an
easement was granted. The deed uses the phrase “right
of way”in the body of the deed to refer to the interest

255a

being conveyed repeatedly. Indeed, the deed itself uses
the world “easement” (“In consideration of the rights
and easements and grants herein contained, . . .”).
Although the deed contains language similar to that in
the Alley 5/475 deed, because the deed expressly uses
the word “easement” and uses the phrase “right of
way” to refer to the interest being conveyed, the court
finds that the Du Bois Lumber Co. 23/298 deed
(Def.’s Ex. 31), conveyed an easement to the railroad.
23. The Du Bois 24/40 Deed
The DuBois 24/40 deed (Def.’s Ex. 32) provides
in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of One
Dollar[]($1.00), the receipt whereof is hereby
acknowledged, Willie G. Du Bois and John E.
Du Bois, her husband, hereinafter called the
grantors, do hereby bargain, sell, grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situated in
the county of Tillamook and state of Oregon,
to-wit:
A strip of land sixty feet in width being
thirty feet on each side of the center line of
grantee’s railway as the same is last located,
staked out, surveyed and being constructed
through the following described tract, to- wit:

256a

* * * [Describing the tract through which
the strip being conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever; the grantors confirming also to the
grantee, its successors and assigns, the right to
build, maintain and operate a line of railway
thereover.
The aforesaid grantors do hereby covenant
that they are the owners in fee simple of the
above granted premises and that they will
forever Warrant and Defend the same unto the
said grantee, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, although the amount of
consideration is nominal ($1), there is no “right of way”
language in the title or body of the deed, nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. Therefore, the court
finds that the Du Bois 24/40 deed (Def.’s Ex. 32),
conveyed fee simple title to the railroad.
24. The Easom 11/515 Deed

257a

The Easom 11/515 deed (Def.’s Ex. 33) provides
in pertinent part:
Elnora [sic] F. Easement et vir.
Railway Deed.
to
No. 7463.
Pacific Railway and Navigation Co.
K N O W
A L L
M E N
B Y
THESE[]PRESENTS : [sic] That for and in
consideration of the sum of Eight Hundred &
00
/100 DOLLARS, the receipt whereof is hereby
acknowledged, we, Elnora [sic] F. Easom and
Chas. E. Easom, wife and husband[,] do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lots One,
two, six and seven in Section thirty six, in
Township three North of Range ten West of
Willamette Meridian, except a certain three
acre tract in said Lot One [sic] heretofore sold
to Felix Roy.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.

258a

TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seized of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right of
Way Deed” does. Here, the amount of consideration
paid was not nominal ($800), there is no reference to a
“right of way” in the title or body of the deed, and no
mention of a railroad purpose nor does the deed contain
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. As such, the
court finds the Easom 11/515 deed (Def.’s Ex. 33),
granted fee simple title to the railroad.
25. The Edwards 5/453 Deed
The Edwards 5/453 deed (Def.’s Ex. 35) provides
in pertinent part:
Know all men by these Presents: that we,
John D. Edwards and Celana [sic] C. Edwards,
his wife, of Multnomah County, Oregon, in
consideration of one dollar to us paid by The

259a

Pacific Railway and Navigation Company, a
corporation organized and existing under and
by virtue of the laws of the State of Oregon, do
hereby bargain, sell and quitclaim unto the said
corporation all that portion of the lands owned
by said John D. Edwards in lot one (1) of Sec.
22 of T. 1 N. of R. 10 W. of the Willamette
Meridian in Tillamook County, Oregon
embraced in a strip of land 100 feet in width,
being fifty feet on each side of the center line of
the said corporation’s line of railway as now
surveyed and located through all the land
owned by said John D. Edwards in lot one
aforesaid, being described as follows:
* * * [Description] * * *
To have and to hold unto the said
corporation and its successors in interest in fee
simple forever. Conveying hereby also a right to
construct, operate and maintain a railway line
along and upon said land.
By its express terms this deed conveyed the
property “in fee simple forever.” The court therefore
finds that the original parties’ intent is clear and that
the Edwards 5/453 deed (Def.’s Ex. 35), granted fee
simple title to the railroad.6
26. The Friday 72/526 Deed
6

As discussed in this court's review of the Alley 5/475
deed, the court finds that the language confirming that the land
granted "includes" the right to construct a railway does not limit
the railroad use of the property to only railroad purposes.

260a

The Friday 72/526 deed (Def.’s Ex. 37) provides
in pertinent part:
THIS INDENTURE, made this 7th day of
May 1906, between John W. Friday and Pearl
Friday his wife, of Washington County, Oregon,
parties of the first part, and the PACIFIC
RAILWAY & NAVIGATION COMPANY, a
Corporation, party of the se[con]d part,
WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of Twenty Five
Dollars ($25) to them in hand paid, by the party
of the second [p]art, the receipt of which is
hereby acknowledged , [sic] have granted,
bargained and sold[,] conveyed and confirmed
and by these presents do grant , [sic] bargain
and sell, convey and confirm unto the said
party of the second part, and its successors and
assigns , [sic] all that certain lot, piece, parcel
and track of land, lying,[]being and situate in
Washington County, Oregon, and particularly
described as a part of the South East Quarter of
Sec. 25, T 2 N. R. 4 W., Will. Mer., to-wit:A strip of land 160 feet wide being 120 feet
on the East side and 40 feet on the West side of
the center line of the Pacific Railway &
Navigation Company’s railway as now surveyed
and located on said lands, and described as
follows:
Beginning at a point where the center line
of said Railroad Survey intersects the c enter

261a

[sic] of Dairy Creek, * * * Thence down the
center of said Creek South 22 degree and 40
minutes East 170 feet and thence South 13
degree and 15 minutes west 93 feet to the West
line of Right of Way; Thence South 32 degree
and 18 minutes East along said Right of Way 96
feet to the center of Dairy Creek; thence North
80 degree and 22 minutes East 955 feet to the
place of beginning and containing 0.96 acres.
Together with all and singular the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said[]party of the
second part and unto its successors and assigns
forever.
Although this deed, has “incidental” uses of the
phrase “right of way,” the court finds that the phrase
“right of way” is not used to refer to the interest being
conveyed, but only to describe the geographic location
of the rail line. The deed also provides more than
nominal consideration ($25), lacks any railroad purpose
language, and does not contain any commitment by the
railroad to build structures such as crossings, cattle
guards, or fences. As such, the court finds that the
Friday 72/526 deed (Def.’s Ex. 37), conveyed fee
simple title to the railroad.

262a

27. The Galvani 77/37 Deed
The Galvani 77/37 deed (Def.’s Ex. 39) provides
in pertinent part:
THIS INDENTURE made this 11th day of
April A. D. 1907, between W. H. Galvani, a
single man[]of Portland, Multnomah, Oregon,
party of the first part, and the Pacific Railway
& Navigation Company, a Corporation, party of
the second part[,] WITNESSETH:
That the said party of the first part for and in
consideration of the sum of $1 to him in hand paid
by the party of the second part, the receipt of which
is hereby acknowledged[,] has granted, bargained
and sold, conveyed and confirmed and by these
presents does grant, bargain, sell [sic] convey and
confirm unto the said party of the second part and
its successors and assigns, all that certain lot, piece,
parcel and tract of land, lying, being and situate in
Washington County, Oregon, and being a portion of
the Southwest quarter of Section 30, T. 3 N. R. 4 W.
of the Will. Mer., being a strip of land 100 feet wide,
being 50 feet on each side of the center line of the
Pacific Railway & Navigation Company’s railway as
now surveyed, located and adopted across said
lands, said center line being described as
follows,[]to-wit
* * * [Description] * * * and containing
11.31 acres, reserving grade farm crossings at
two points to be selected by the party of the
first part.

263a

Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise appertaining
and the reversion and reversions, remainder
and remainders, rents, issues and profits
thereof.
TO HAVE AND TO HOLD all and singular,
the said premises, together with the
appurtenances unto the said party of the
second part and unto its successors and assigns
forever. And the party of the first part does
hereby covenant to and with the party of the
second part, its successors and assigns, forever,
that the party of the first part is the owner in
fee simple of the tract of land hereinbefore
described; That [sic] said tract of land is free
from all incumbrances and that the party of the
first part shall warrant and forever defend said
tract of land against the lawful claims and
demands of all persons whomsoever.
This deed provided nominal consideration ($1) and
the grantor reserved farm crossings. These are factors
that weigh in favor of construing the deed as granting
an easement. However, this deed precisely describes the
land being conveyed with an express reference to the
amount of acreage, does not contain any “right of way”
language or any railroad purpose language. Thus, when
viewing the deed as a whole, the court finds that the
grantor reserved certain crossing rights but granted a
fee to the railroad. Therefore, this court finds that the
Galvani 77/37 deed (Def.’s Ex. 39), conveyed fee
simple title to the railroad.

264a

28. The Gattrell 13/311 Deed
The Gattrell 13/311 deed (Def.’s Ex. 40)
provides in pertinent part:
Know all Men by These Presents: That for
and in consideration of the sum of One ($1.00),
to him in hand paid, the receipt whereof is
hereby acknowledged, F.J. Gattrell an
unmarried man, hereinafter called the grantor,
does bargain, sell, grant[,] convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, a strip of land
sixty (60) feet in width, being thirty (30) feet on
each side of and parallel with the center line of
the railway of the grantee as the same is now
located, surveyed and staked out through lot
two (2) of section twenty nine (29) in township
two (2) North of range ten (10) West of the
Willamette Meridian, in the County of
Tillamook and State of Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the [above
named] grantee and to its successors and
assigns forever, confirming to the grantee
likewise the right to build, maintain and
operate a railway line thereover.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the

265a

language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes.. Even though the amount of
consideration is nominal ($1.00), without any “right of
way” language in the title or body of the deed nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences, the court finds that
the Gattrell 13/311 deed (Def.’s Ex. 40), conveyed
fee simple title to the railroad.
29. The Goodspeed 16/487 Deed
The Goodspeed 16/487 deed (Def.’s Ex. 41)
provides in pertinent part:
D. R. Goodspeed and wife
RAILWAY DEED.
to
NO. 5802.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS[,] the receipt
whereof is hereby acknowledged, We, [sic] D. E.
Goodspeed and M. J. Goodspeed, husband and
wife, of Tillamook County, Oregon, hereinafter
called the grantors, do hereby bargain, sell,
grant, convey and confirm to Pacific RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit; [sic]
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the

266a

center line of the railway of the grantee as the
same is now surveyed and located through
The [sic] South East quarter of the North
East quarter of Section thirteen in Township
one South of Range ten West of Willamette
Meridian[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right of
Way Deed” does. Even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences, the court finds that the Goodspeed

267a

16/487 deed (Def.’s Ex. 41), conveyed fee simple title
to the railroad.
30. The Goodspeed 9/200 Deed
The Goodspeed 9/200 deed (Def.’s Ex. 42) and
provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of Thirty four
Hundred and sixteen and 60/100 Dollars, the
receipt whereof is hereby acknowledged, we, H.
F. Goodspeed and Lillian A Goodspeed,
husband and wife, of Tillamook City, Tillamook
County, Oregon: [sic] hereinafter called the
grantors, do bargain, sell, grant, convey and
confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land fifty[](50) feet wide being
twenty five (25) [feet] on each side of the center
line of the railway of the grantee as the same is
surveyed and located through the South East
quarter of the North West quarter and that
part of Lot seven lying West of a certain right of
way formerly conveyed by said Goodspeed to
said Pacific Railway and Navigation Company,
all lying in Section thirty, in Township one
South of Range nine West of Willamette
Meridian, the center line of the right of way
hereby conveyed being more particularly

268a

described as follows, to wit: Beginning at a
point which is identical with Station 18 plus
84.5 on the main line of said P.R.+N. Co., which
point is located by beginning at Sta.00 plus 00
on said main line, 4407.8 feet South and 281.5
East of the ¼ Section corner between Secs [sic]
19 and 30, T 1 S R 9 W, and running thence N
1º 00’ East 1884.5 feet to said Station 18 plus
84.5 which is the initial point of the right of
way hereby intended to be described and
conveyed, thence following a spiral to the left a
distance of 120 feet and consuming 7º 30’ of the
angle, thence following a 12º 30’ curve to the
left a distance of 609.3 feet, thence following a
spiral to the left a distance of 120 feet and
consuming 7º 30’ of angle, to Sta. 8 plus 49.3;
thence South 89º 50’ West 1142 feet more or
less to the East line of Lot two in said Section
30.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and

269a

assigns against the lawful claims of all persons
whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. This deed uses the phrase “right of way”
three different times. As explained above, the use of the
phrase “right of way” to describe the interest conveyed
and not the geographic location of the land conveyed is
an indication of intent to convey an easement. The deed
first uses the phrase “right of way” when describing the
strip of land being conveyed as being “located through
. . . that part of Lot seven lying West of a certain right
of way formerly conveyed by said Goodspeed to said
Pacific Railway and Navigation Company.” This use of
the phrase “right of way” is clearly referencing an
interest other than the interest being conveyed and
thus the deed’s first use of the phrase “right of way” is
“incidental.” However, this deed uses the phrase “right
of way” twice more. The deed grants and conveys to the
railroad “[a] strip of land [of a certain width] . . . , the
center line of the right of way hereby conveyed being
more particularly described as follows, to wit: . . .”
(emphasis added). As used here, the language “the right
of way hereby conveyed” supports a finding that the
phrase “right of way” is being used to describe the
interest being conveyed. The deed’s final use of the
phrase “right of way” occurs in the context of its precise
description of the land conveyed, when the deed refers
to “Station 18 plus 84.5” as being “the initial point of
the right of way hereby intended to be described and
conveyed ” (emphasis added). Here too this language

270a

is using the phrase “right of way” to describe the
interest being conveyed by the deed.
However, the amount of consideration paid was not
nominal ($3,416.60), there is no mention of a railroad
purpose nor does the deed contain any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences. Based on these factors read in
combination with the mixed use of the term “right of
way,” the court finds that the Goodspeed 9/200 deed
(Def.’s Ex. 42), granted fee simple title to the railroad.
31. The Goodwin 81/147 Deed
The Goodwin 81/147 deed (Def.’s Ex. 43)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of Three Hundred
and [Fifty] Dollars, to them in hand paid, the
receipt whereof is hereby acknowledged,
Nathan J. Goodwin and M. M. Goodwin his
wife, hereinafter called the grantors, do
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property, situate in the
County of Washington and State of Oregon, towit: A strip of land One hundred feet in width,
being fifty feet on each side of the center line of
the track of the grantee, as the same is
surveyed and located through the east half of
the southwest quarter of section twenty seven

271a

in township three north of range five west,
together with the appurtenances[,] tenements
and hereditaments thereunto belonging or in
anywise appertaining, together also with the
right to maintain and operate a railroad
thereover. TO HAVE AND TO HOLD to the
grantee, and to its successors and assigns
forever. The grantors, above named, do
covenant with the grantee, and with its
successors and assigns, that they are seized of
the said premises in fee simple, and that they
will, and their heirs, executors and
administrators shall, warrant and defend the
same against the lawful claims and demands of
all persons whomsoever.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad does not limit the railroad’s use to only
railroad purposes. Here, the consideration is not
nominal ($350), there is no reference to a “right of way”
in the title or body of the deed, nor does the deed
contain any requirement for the railroad to build
structures such as crossings, cattle guards, or fences. As
such, the court finds that the Goodwin 81/147 deed
(Def.’s Ex. 43), conveyed fee simple title to the
railroad.
32. The Hagen 75/279 Deed
The Hagen 75/279 deed (Def.’s Ex. 44) provides
in pertinent part:

272a

THIS INDENTURE, made this 22 day of
April, 1907, between Bridget Hagen ( a [sic]
single woman) of Portland Multnomah County,
Oregon, party of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
party of the second part, WITNESSETH:
That the said party[]of the first part, for
and in consideration of the sum of One Dollar
($1) and other good and valuable
considerations, to her in hand paid by the party
of the second part, the receipt of which is
hereby acknowledged, h[]ave [sic] granted,
bargained and sold, conveyed and confirmed,
and by these presents do grant, bargain and
sell, convey and confirm unto the said party of
the second part, and its successors and assigns,
all that certain lot, piece, parcel and tract of
land, lying, being and situate in Washington
County,[]Oregon, to-wit:
Being a portion of Section 30, T. 3 N. R. 4
W. of the Will. Mer. described as follows:
A strip of land 100 feet wide being 50 feet
on each side of the center line of the Pacific
Railway and Navigation Company’s railway, as
surveyed, located and adopted across said lands,
said center line being described as follows:
* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise

273a

appertaining, and the reversion and reversions,
remainder and remainders[,] rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of
the[]second part and unto its successors and
assigns forever. And the party of the first part
does hereby covenant to and with the party of
the second part, its successors and assigns
forever, that the party of the first part is the
owner in fee simple of the tract of land
hereinbefore described; that said tract of land
is free from all incumbrances and that the party
of the first part shall warrant and forever
defend said tract of land against the lawful
claims and demands of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Hagen 75/279 deed
(Def.’s Ex. 44), conveyed fee simple title to the
railroad.
33. The Hamblin 85/284 Deed
The Hamblin 85/284 deed (Def.’s Ex. 45)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That J.M. Hamblin, an unmarried man for and

274a

in consideration of the[]sum of One Dollars, to
him in hand[]paid, the receipt whereof is
hereby acknowledged[,] does bargain, sell,
grant, convey and confirm to Pacific Railway
and Navigation Company and to its successors
and assigns forever, all of the following
described real property situate in the County of
Washington and State of Oregon, to-wit: A strip
of land one hundred feet in width, being fifty
feet on each side of and parallel with the center
line of the track of the Pacific Railway
and[]NavigaTion [sic] Company, as the same is
surveyed and located through the Northwest
quarter of the Northeast quarter of Section
thirty two (32) Township Three(3) [sic] North
range [sic] five (5) West Willamette Meridian.
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to successors and assigns forever.
The aforesaid grantor J. M. Hamblin does
hereby covenant that he is the owner in fee
simple of[]the above granted premises, and that
he will forever warrant and defend the same
unto the Pacific Railway and Navigation
Company, its successors and assigns, against
the lawful claims of all parties whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in

275a

the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Hamblin 85/284 deed
(Def.’s Ex. 45), conveyed fee simple title to the
railroad.
34. The Handley 13/34 Deed
The Handley 13/34 deed (Def.’s Ex. 48) provides
in pertinent part:
Know all Men by these Presents That for
and in consideration of the sum of Four
Hundred and 00/100 Dollars, the receipt whereof
is hereby acknowledged, I, Lola L. Handley, a
widow, of Tillamook, Tillamook County,
Oregon, hereinafter called the grantor, do
bargain, sell, grant and convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through a certain tract of
land lying between the lands of Maire Murphy
and the meander line of Tillamook Bay in Lot
four of Section 21 Township 1 North Range 10
West. also [sic] through Block '21' in the Town

276a

of East Garibaldi and the Tide land fronting
and abutting upon that portion of said Town of
East Garibaldi which lies in Lot 2 of said
Section 21. Also through the Tide land fronting
and abutting upon that certain tract in said
Section 21 known as the Ralston five acre tract
[sic] also through a certain four acre tract in
Lot four of Section twenty all in Township one
North of Range ten West of Willamette
Meridian [sic] the intention being to convey
unto the said grantee[,] its successors and
assigns all that portion of any and all lands now
owned by me in said Sections[]twenty and
twenty one Township one North of Range ten
West of Willamette Meridian which lies within
the right of way limits of the railway of the
grantee, as the same is now surveyed and
located through my said lands.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Although the deed uses the phrase “right
of way,” the court finds that the phrase is used in this
deed to describe the location of the property and not the
property interest being conveyed. Additionally, the
amount of consideration paid was not nominal ($400),

277a

there is no mention of railroad purposes and the deed
does not contain any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences. As such, the court finds that the Handley 13/34
deed (Def.’s Ex. 48), granted fee simple title to the
railroad.
35. The Hannan 72/548 Deed
The Hannan 72/548 deed (Def.’s Ex. 49)
provides in pertinent part:
THIS INDENTURE, made this 21st day of
August 1906, between Henry Hannon and Ella
Hannon, his wife, of Washington County,
Oregon, parties of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
party of the first part, WITNESSETH:
That said parties of the first part, for and in
consideration of the sum of One Dollar ($1) and
other good and valuable considerations to them
in hand paid, the receipt of which is hereby
acknowledged, have granted, bargained and
sold, conveyed and confirmed and by these
presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and tract of land, lying, being
and situate in Washington County, Oregon, and
particularly described as a portion of Sec. 4 and
5, T 2 N. R. 4 W., a strip of land 80 feet wide,
being 40 feet on each side of the center line of
the Pacific Railway & Navigation Company’s

278a

Railway, as now surveyed and located on said
land and described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said[]party of the
second part and unto its successors and assigns
forever. And the parties of the first part hereby
covenant to and with the party of the second
part, its successors and assigns forever, that the
parties of the first part, [sic] are the owners in
fee simple of the tract of land above described,
and the whole thereof, that said premises are
free from all incumbrances, and that the parties
of the first part, their heirs, executors and
administrators, shall warrant and forever
defend the above described and granted
premises and every part and parcel thereof
against the lawful claims and demands of all
persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or

279a

fences, the court finds that the Hannan 72/548 deed
(Def.’s Ex. 49), conveyed fee simple title to the
railroad.
36. The Hannan 72/549 Deed
The Hannan 72/549 deed (Def.’s Ex. 50), which
is very similar to the above analyzed Hannan deed,
provides in pertinent part:
THIS INDENTURE, made this 21st day of
August 1906, between Henry Hannon and Ella
Hannon, his wife, of Washington County,
Oregon, parties of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
parties of the first part, WITNESSETH:
THAT the said parties of the first part, for
and in consideration of the sum of $1.00, to
them in hand paid, by the party of the second
part, the receipt of which is hereby
acknowledged, have granted, bargained and
sold, conveyed and confirmed, and by these
presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and tract of land, lying, being
and situate in Washington County, Oregon, and
particularly described as a portion of Section 4,
T. 2 N. R. 4 W., a strip of land 60 feet wide, and
680 feet long, adjoining the right of Way [sic] of
the Pacific Railway & Navigation Company’s
Railway, on the Right , [sic] and described as
follows:-

280a

Beginning at a point 526 5/10 feet South of
and 66 5/10 feet East of the North West corner
of the South West quarter of the North West
quarter of said Sec. 4; Running thence South 2
degrees and 38 minutes West along Right of
Way, 242 5/10 feet; thence in a Southerly
direction by a spiral to left, 90 feet; thence by a
4 degree curve to the left, 355 feet; thence East
parallel to the North line of said Section 4, 61
5/10 feet; thence in a Northerly direction on a
4 degree curve to the Right 355 feet, thence by
a spiral to right, 90 feet; thence North 2
degrees and 30 minutes East, 264 3/10 to the
North line of said Hannan’s land; thence South
72 degrees and 40 minutes West, 61 1/10 feet to
place of beginning and containing 0.96 acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said[]party of the
second part and unto its successors and assigns
forever. And the parties of the * * * first part
hereby covenant to and with the party of the
second part[,] its successors and assigns
forever, that the parties of the first part, [sic]
are the owners in fee simple of the tract of land
a bove [sic] described, and the whole thereof,

281a

that said premises are fee from all
incumbrances, and that the parties of the first
part, their heirs, executors and administrators
shall warrant and forever defend the above
described and granted premises and every part
and parcel thereof against the lawful claims and
demands of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Hannan 72/549 deed
(Def.’s Ex. 50), conveyed fee simple title to the
railroad.
37. The Hannan 99/354 Deed
The Hannan 99/354 deed (Def.’s Ex. 51)
provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Ella Hannan widow, of the County of
Washington State of Oregon, in consideration
of the sum of Five Hundred ($500.00) Dollars
to her paid by Pacific Railway and Navigation
Company, a corporation, the receipt whereof is
hereby acknowledged, has bargained and sold
and by these[]presents does grant, bargain[,]
sell and convey unto said Pacific Railway and
Navigation Company[,] its successors and
assigns all of the following describe premises
located in Washington County, Oregon. [sic]

282a

Beginning[]at a point on the east line of the
right of way of said Pacific Railway and
Navigation Company, 1020 feet south and 135
feet east of the northwest corner of the
southwest quarter of Section 4, Township 2
North range [sic] 4, Willamette Meridian, said
point being 100 feet distant from main line and
30 feet distant from the north leg of the wye
track as now located; running thence easterly
and 30 feet distant from said wye track on 18º
30’ curve, 360 feet; thence easterly and 30 feet
distant from wye track extended 260 feet;
thence southerly at right angles, 60 feet; thence
westerly[]at right angles and 30 feet distant
from said wye track extend 275 feet; thence
southerly and 30 feet distance from south leg of
said wye track, 510 feet to the east of said right
of way, which point is 40 feet from the main
line[;] thence northerly along the said right of
way on a 40º curve 400 feet; then north 62 feet;
thence northerly along the right of way on a 4º
curve parallel to the main line and 100 feet
distant therefrom, 215 feet to the place of
beginning containing[]1.9 acres, together with
all and singular the tenements , [sic]
hereditaments and appurtenances thereunto
belonging or in anywise appertaining. The
grantee herein agrees to fence said tract herein
conveyed with a hog-tight fence. Grantor
reserves the right to one private crossing at
grade with gates[]over the tract above described
at a point to be mutually agreed upon.

283a

TO HAVE AND TO HOLD[]said premises
unto the said Pacific Railway and Navigation
Company, its successors and assigns forever,
and the grantor herein does covenant to and
with the above named grantee that she is
lawfully seised in fee simple of said granted
premises that the same are free from all
incumbrances and that she will warrant and
forever defend the said premises, and every part
and parcel thereof, against the lawful claims
and demands of all persons whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. First, the court has examined the “right of
way” language in this deed which is used throughout
the deed four times. In each instance, the phrase “right
of way” is not being used to describe the property
interest being conveyed but to describe a location. Thus,
as explained above, this deed’s use of the phrase “right
of way” does not indicate that an easement was
conveyed. Although this deed contains a commitment by
the railroad to build fences, the deed provides for
substantial consideration ($500) and has no mention of
railroad purposes. Accordingly for all of these reasons
this court finds that the Hannan 99/354 deed (Def.’s
Ex. 51), granted fee simple title to the railroad.
38. The Hardman 5/451 Deed
The Hardman 5/451 deed (Def.’s Ex. 52)
provides in pertinent part:

284a

Know all Men by These Presents[:] That for
and in consideration of the sum of $250 to me
in hand paid, the receipt whereof is hereby
acknowledged, I[,] Florence A. Hardman, do
hereby grant, sell and convey to the Pacific
Railway and Navigation Company and to its
successors and assigns forever: all that portion
of the land owned by me embraced in a strip of
land 100 ft. wide, being 50 ft. on each side of
the center line of the Pacific Railway and
Navigation Company’s railway, as now
surveyed, located and adopted thru the lands of
the aforesaid Florence Hardman, in Lot 2, Sec.
21., T. 1 N. R. 10 W., W. M. said center line
being more particularly described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the Pacific
Railway and Navigation Company and its
successors and assigns forever; together with
the right to build to build, maintain and operate
thereover a railway and telegraph line.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, the amount of
consideration is not nominal ($250), there is no “right
of way” language in the title or body of the deed, nor

285a

any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that Hardman 5/451 deed (Def.’s Ex.
52), conveyed fee simple title to the railroad.
39. The Harter 29/115 Deed
The Harter 29/115 deed (Def.’s Ex. 53) is
entitled “Warranty Deed. No. 21042.” and provides in
pertinent part:
KNOW ALL MEN BY THESE PRESENTS,
That [sic] we John R. Harter, his wife, of the
County of Tillamook in the State of Oregon, in
consideration of the sum of Three Hundred
Seventy-Five ($375.00) Dollars, paid by Pacific
Railway and Navigation Company, a
corporation duly organized under the laws of
the State of Oregon, having its principal office
at the City of Portland in said State, the receipt
whereof is hereby acknowledged, have granted,
bargained, sold and conveyed, and by these
presents do grant, bargain, sell and convey unto
the said Pacific Railway and Navigation
Company, its successors and assigns, the
following described parcel of land, situate in
Tillamook County, in the State of Oregon, towit:
Our undivided two-thirds (2/3) interest in
and to that certain tract or parcel of land in
Tillamook County, Oregon, more particularly
described as follows:-

286a

All of a strip of land one hundred feet in
width, being fifty feet in width on each side of
the center line of the P. R. & N. CO. as the
same is now located and constructed across the
Northeast quarter of the northeast quarter of
section 13, Township 1 South Range 10 West,
Willamette Mariden, [sic], and also across the
north six rods (Ninety-nine feet of the
southeast quarter of the Northeast quarter of
said Section 13. [sic] Said center line being
more particularly described as follows:* * * [Description] * * *
The above described strip
containing 3.80 acres more or less.

of

land

It being the intention to convey our
undivided two-thirds (2/3) interest in the rightof-way of said railroad Company [sic] as now
used and which was acquired by us [the
grantors] through deeds from Monta Davidson
and Josie A. Deeter, together with all and
singular the tenements, hereditaments and
appurtenances thereto belonging or in anywise
appertaining, and also all our estate, right, title
and interest in and to the same, including
dower and claim of dower.
TO HAVE AND TO HOLD The [sic] above
described and granted premises unto the said
Pacific Railway and Navigation Company[,] its
successors and assigns forever. And we the
grantors above named do covenant to and with
the above named grantee, its successors and

287a

assigns, that we are lawfully seized in fee
simple of the above granted premises, that the
above granted premises are free from all
incumbrances, and that we will and our heirs,
executors and administrators, shall warrant
and defend the above granted[]premises, and
every part and parcel thereof, against the
lawful claims and demands of all persons
whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Although the deed uses the phrase “right
of way” in the body of the deed, from context, it is clear
that this deed’s “right-of-way” language does not refer
to a property interest but is being used to describe the
geographic location of the land being conveyed. Here,
the amount of consideration paid was not nominal
($375), there is no mention of a railroad purpose, nor
does the deed contain any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences. As such, the court finds that the Harter 29/115
deed (Def.’s Ex. 53), granted fee simple title to the
railroad.
40. The Haugen 9/204 Deed
The Haugen 9/204 deed (Def.’s Ex. 54) provides
in pertinent part:
Thore [sic] Hagen.
RAILWAY DEED
to
NO. 5806.
Pacific Railway and Navigation Co.

288a

KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS[,] the receipt
whereof is hereby acknowledged, we, Thore
[sic] Hagen and Evia Jane Hagen, husband and
wife, of Tillamook County, Oregon, hereinafter
called the grantors, do hereby bargain, sell,
grant, convey and confirm to PACIFIC
RAILWAY AND NAVIGATION COMPANY,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee, as the
same is surveyed and located through the
following described tract, to-wit:
* * * [Describing the tract through which
the strip being conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all

289a

encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right of
Way Deed” does. Even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences, the court finds that the Haugen
9/204 deed (Def.’s Ex. 54), conveyed fee simple title to
the railroad.
41. The Hobson 13/331 Deed
The Hobson 13/331 deed (Def.’s Ex. 56) provides
in pertinent part:
Know all Men by These Presents: That for
and in consideration of the sum of Three
Hundred and 00/100 Dollars, the receipt whereof
is hereby acknowledged, We, Joanna Hobson
and Frank P. Hobson, wife and husband, of
Tillamook County, Oregon hereinafter called
the grantors, do hereby bargain, sell, grant,
convey and confirm to Pacific Railway and
Navigation Company, hereinafter called the
grantee, and to its successors and assigns

290a

forever, all of the following described real
property situate in the County of Tillamook and
State of Oregon, to-wit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lots
three and that part of Lot two lying East of a
certain tract in Lot two owned by Theodore
Parks, all in Section twenty-two, Township one
North of Range ten West of Willamette
Meridian, on what is known and designated as
the Coast Line Route.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining. It is
hereby understood and agreed that this deed
shall not convey to said Railway Company any
right of way on any lands of the grantor lying
East of the curve now staked out and located to
connect said Coast Line Route with the right of
way heretofore conveyed by the grantors herein
to said Grantee.
To Have and to Hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seised of the aforesaid premises in
fee simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the

291a

grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here the use of the term “right of way” is
used twice in the body of the deed. In both instances the
term “right of way” is used to describe a property
interest being conveyed. However, the amount of
consideration paid was not nominal ($300), there is no
mention of a railroad purpose, nor does the deed
contain any requirement for the railroad to build
structures such as crossings, cattle guards, or fences.
Therefore, the court finds that the Hobson 13/331
deed (Def.’s Ex. 56), granted fee simple title to the
railroad.
42. The Jeffries 85/70 Deed
The Jeffries 85/70 deed (Def.’s Ex. 59) provides
in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That Minnie Jeffries and George H.[]Jeffries
her husband for and in consideration of the
sum of One Dollar to them in hand paid, the
receipt whereof is hereby acknowledged, do
hereby bargain, sell[,] grant, convey and
confirm to Pacific Railway and Navigation
Company, and to its successors and assigns
forever, all of the following described real
property situate in the County of Washington
and State of Oregon, to-wit: A strip of land one

292a

hundred feet in width, being fifty feet on each
side of and parallel with the center line of the
track of the Pacific Railway and Navigation
Company, as the same is surveyed and located
through the North half of the Northwest
quarter of Section Thirty (30) Township three
(3) North, Range Four (4) West of W.M.
Together
with
the
tenements,
hereditaments and appurtenances, thereunto
belonging or in anywise appertaining. TO
HAVE AND TO HOLD to the said Pacific
Railway and Navigation Company, and to its
successors and assigns forever.
The aforesaid grantors Minnie Jeffries and
George H. Jeffries do hereby covenant that they
are the owners in fee simple of the above
granted premises, and that they will forever
warrant and defend the same unto the Pacific
Railway and[]Navigation Company, its
successors and assigns, against the lawful
claims of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Jeffries 85/70 deed
(Def.’s Ex. 59), conveyed fee simple title to the
railroad.
43. The Johnson 9/610 Deed

293a

The Johnson 9/610 deed (Def.’s Ex. 61) provides
in pertinent part:
Samuel Johnson
RAILWAY DEED.
to
NO. 6636.
Pacific Railway and Navigation Company.
* * * [EMPTY SPACE] * * *
!!!!!!!!MAP!!!!!!!!
!!!!!!!Showing RightofWay [sic] across!!!!!!!
!!A Tract of land 209½ ft sq. Sec 22 T1N.R10W !!
!!!!!!!!Scale “1400ft”!!!!!!!!
* * * [Drawing or map] * * *
KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of
Twenty five and 00/100 DOLLARS, the receipt
whereof is hereby acknowledged, I, Samuel
Johnson, widower, and sole heir at law of Annie
Johnson, deceased, of Tillamook County,
Oregon, hereinafter called the grantnrs [sic] do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the

294a

same is surveyed and located through a certain
tract of land in Lot eight of section twenty two,
Township one North of Range ten West of
Willamette Meridian, more particularly
described as follows;- [sic] Commencing at a
stake on the meander line marked with a cross,
running thence in a Southerly direction 209½
feet, thence Westerly 209½
feet, thence
Northerly 209½ feet, thence Easterly 209½
feet to the place of beginning. Together with
the appurtenances, tenements,[]and
hereditaments thereunto belonging or in
anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors [sic] above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all encumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, although the deed at the outset uses
the phrase “right of way” it is unclear if it is in
reference to the interest being conveyed or is a
referencing the geographic description of the drawing
that was included which is labeled “MAP Showing

295a

Right[]of[]Way[]across A Tract of land 209 ½ ft. sq. Sec.
22 T1N.R.10W[.]” Additionally, as discussed above in
the court’s analysis of the Batterson 12/163 deed
(Def.’s Ex. 5), the court does not find that the term“
Railway Deed” indicates an easement in the same way
that a deed entitled “Right of Way Deed” does.
Furthermore, the amount of consideration is not
nominal ($25), there is no mention of a railroad
purpose, nor does the deed contain any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences. Looking at the whole of the deed, the
court finds that the Johnson 9/610 deed (Def.’s Ex.
61), conveyed a fee to the railroad.
44. The Jones 105/456 Deed
The Jones 105/456 deed (Def.’s Ex. 62) provides
in pertinent part:
KNOW ALL MEN BY THESE PRESENTS:
That B.H. Jones and Angie C. Jones,[]his wife,
of Forest Grove, Oreg. [sic] in consideration of
One Dollars, [sic] to them paid by Southern
Pacific Company, a corporation duly organized
& existing under & by virtue of the[]laws of the
State of Kentucky[,] do hereby remise, release
and forever QUITCLAIM unto the said
Southern Pacific Company and unto its
successors and assigns all their right , [sic] title
and interest in and to the following describes
parcel of real estate, situate in County of
Washington[,] State of Oregon,[]to-wit:

296a

A strip of land 17 feet in width, being 8.5
feet on each side of that portion of the center
line of a spur track now constructed at Wolcott
in Sec.[]36,[]T. 3 North ,[]R. [sic] 5 West. W.M.,
which lies outside the[]100 foot right of way of
the Southern Pacific Company’s Tillamook
branch as constructed through said Sec.
36,[]said center line being more particularly
described as follows: Beginning at
the[]intersection of the West line of Sec 36,
Township 3 North, Range 5 West, W.M., with
the center line[]of Southern Pacific Company’s
main track as now constructed: thence North
88º 31’ East on said center line 419.3; thence *
* *; thence southwesterly on a 15º curve to the
left 109 feet to a point in Southern Pacific
Company’s Southerly line of 100 foot right of
way, which point is the point of beginning of
description of center line of 17 foot strip;
thence continuing * * * : said strip of land
containing 0.071 acres, more or less, all in
Washington County , [sic] Oregon.
T
O
HAVE AND TO HOLD, the same, together with
all and singular the hereditaments and
appurtenances thereunto belonging or in
anywise appertaining to the said Southern
Pacific Company and to its successors and
assigns forever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, the court finds that the deed’s use
of the phrase “right of way” is not a description of the

297a

interest being conveyed but provides a geographic
location. Even though the amount of consideration is
nominal ($1), without any mention of a railroad
purpose, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences,
the court finds that the Jones 105/456 deed (Def.’s
Ex. 62), granted fee simple title to the railroad.
45. The Jones 94/225 Deed
The Jones 94/225 deed (Def.’s Ex. 63) provides
in pertinent part:
KNOW ALL MEN BY THESE PRESENTS,
That we , B. H. Jones & Angie C. Jones, his
wife, of the County of Washington, in the State
of Oregon, in consideration of the sum of One
Dollar paid by Pacific Railway and Navigation
Company, a corporation duly organized under
the laws of the State of Oregon, having its
principal office at the City of Portland, in said
state, the receipt whereof is hereby
acknowledged, have granted, bargained, sold
and conveyed and by these presents do grant,
bargain, sell and convey unto the said Pacific
Railway and Navigation Company, its
successors and assigns, the following described
parcel of land, situate in Washington County,
State of Oregon, to-wit: Commencing at a point
in Section thirty-six (36) Township three (3)
North Range five (5) West of Willamette
Meridian, on the southerly right of way line of
Pacific Railway and Navigation Company, said
point being fifty (50) feet distant [sic] at right

298a

angles from Engineer Station 1275+38 of the
said railroad, which point is 740 feet, more or
less, east of and 295 feet, more or less, south of
the northwest corner of said Section thirty six
(36) and the initial point of the following
described land; thence in a southwesterly
direction along said right of way line a distance
of 88 feet, more or less, to a point fifty (50) feet
distant at right angles to Engineer Station
1276+20; thence * * * * . Said described land
contains an area of 0.2 o[f] [sic] an acre, more
or less. TO HAVE AND TO HOLD the said
descri bed [sic] premises unto the said Pacific
Railway and Navigation Company, its
successors and assigns forever, for the purpose
of constructing and maintaining a spur track
thereon, and if the said spur track shall be
taken up or abandoned, then the above
described and granted premises shall revert to
and become the property of the grantors, their
successors and assigns.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that only
an easement was granted. First, the deed makes clear
that the purpose of the deed is to grant an easement for
the purposes of allowing the railroad to build spur track
and that if that track is taken up or abandoned the
property shall revert to the grantors. Specifically, the
deed provides that “TO HAVE AND TO HOLD the said
descri bed [sic] premises unto the said Pacific Railway
and Navigation Company, its successors and assigns
forever, for the purpose of constructing and

299a

maintaining a spur track thereon, and if the said spur
track shall be taken up or abandoned, then the above
described and granted premises shall revert to and
become the property of the grantors, their successors
and assigns.”7 This language, together with the nominal
consideration paid ($1), indicates that only an easement
was granted. Additionally, the deed uses the phrase
“right of way” twice to describe the interest that is
being conveyed to the railroad. Therefore, the court
finds that the Jones 94/225 deed (Def.’s Ex. 63),
conveyed an easement to the railroad.
46. The Kostur 72/458 Deed
The Kostur 72/458 deed (Def.’s Ex. 66) provides
in pertinent part:
THIS INDENTURE, made this 1st day of
December 1906, between A. Kostur and Anna
Kostur, his wife, of Washington County,
Oregon, parties of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
party of the second part,
WITNESSETH: That the said parties of the
first part, for and in consideration of the sum of
$20.00 to them in hand paid, by the party of the
second part, the receipt of which is hereby
acknowledged, have granted, bargained and
sold, conveyed and confirmed and by these
7

At oral argument, the government itself “concede[d]”
that this language “that imposes and suggests a limitation on the
use of the property means that [the deed] likely conveyed an
easement.” Arg. Tr. 52; 4-10.

300a

presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and tract of land, lying,[]being
and situate in Washington County, Oregon, and
particularly described as a portion of Section 4,
T 2 N. R. 4 W., a strip of land 60 feet wide, by
526 5/10 feet long, adjoining the right of Way
[sic] of the Pacific Railway + Navigation
Railway, on the right, and described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof- [sic]
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part[]and unto its successors and
assigns forever. And the parties of the first
part, hereby covenant to and with the party of
the second part, its successors and assigns, that
the parties of the first part, [sic] are the owners
in fee simple of the tract of land above
described, and the whole thereof, That [sic] said
premises are free from all incumbrances, and
that the parties of the first part, their heirs,
executors and administrators, shall warrant
and forever defend the above described and

301a

granted premises and every part and parcel
thereof against the lawful claims and demands
of all persons whomsoever.
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, the court finds that the deed’s use
of the phrase “right of way” is not a description of the
interest being conveyed but provides a geographic
location. Additionally, the amount of consideration is
not nominal ($20), there is no mention of a railroad
purpose, and there is not any requirement for the
railroad to build structures such as crossings, cattle
guards, or fences. Therefore, the court finds that the
Kostur 72/458 deed (Def.’s Ex. 66), granted fee
simple title to the railroad.
47. The Kostur 72/459 Deed
The Kostur 72/459 deed (Def.’s Ex. 67) is
practically identical to the above analyzed Kostur deed
and provides in pertinent part:
THIS INDENTURE, made this 1st day of
December 1906, between A. Kostur, and Anna
Kostur, his wife, of Washington County,
Oregon, parties of the first part, and the Pacific
Railway & Navigation Company, a Corporation,
party of the second part,
WITNESSETH: That the said parties of the
first part, for and in consideration of the sum of
$30.00 to them in hand paid by the party of the
second part, the receipt of which is hereby
acknowledged, have granted, bargained and

302a

sold, conveyed and confirmed and by these
presents do grant, bargain and sell, convey and
confirm unto the said party of the second part,
and its successors and assigns, all that certain
lot, piece, parcel and track of land, lying, being
and situate in Washington County, Oregon, and
particularly described as a portion of Section 4
and 5, T. 2 N. R. 4 W., a strip of land 80 feet
wide, being 40 feet on each side of the center
line of the Pacific Railway & Navigation
Company’s Railway, as now surveyed and
located on said lands and described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, [sic] and the reversion[ ]and
reversions, remainder and remainders, rents,
issues and profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part[]and unto its successors and
assigns forever. And the parties of the first
part, hereby covenant to and with the party of
the se[c]ond part, its successors and assigns,
that the parties of the first part, [sic] are the
owners in fee simple of the tract of land above
described, and the whole thereof, That said
premises are fee from all incumbrances, and
that the parties of the first part, their heirs,

303a

executors and administrators, shall warrant
and forever defend the above described and
granted premises and every part and parcel
thereof against the lawful claims and demands
of all persons whomsoever.
Here, the amount of consideration paid was not
nominal ($30), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. As such, the court
finds that the Kostur 72/459 deed (Def.’s Ex. 67),
granted fee simple title to the railroad.
48. The Large 5/536 Deed
The Large 5/536 deed (Def.’s Ex. 69) provides in
pertinent part: Know All Men By These Presents:
That for and in consideration of the sum of
$250.00 to her in hand paid, the receipt whereof
is hereby acknowledged, Mrs. J. Large does
hereby grant, bargain, sell and convey to the
Pacific Railway and Navigation Company, and
to its successors and assigns forever: a strip of
land 100 ft. wide, being 50 ft. on each side of
the center line of the railway of the Pacific
Railway and Navigation Company, as now
surveyed and located thru this land of the
aforesaid Mrs. J. Large in Lots 3 and 4, Sec. 21,
T. 1 N. R. 10 W., W.M. said center line being
more particularly described as follows, to wit:
* * * [Description] * * *

304a

Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining;
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever; together with
the right to build, maintain and operate
thereover a railway and telegraph line.
For the same reasons as discussed in this
court’s review of the Alley 5/475 deed, the
court finds that the language confirming that
the land granted can be used for railroad
purposes does not limit the railroad’s use to
only railroad purposes.. Here, the amount of
consideration is not nominal ($250), there is no
“right of way” language in the title or body of
the deed, nor any requirement for the railroad
to build structures such as crossings, cattle
guards, or fences. Therefore, the court finds the
Large 5/536 deed (Def.’s Ex. 69), conveyed
fee simple title to the railroad.
49. The Latimer 6/429 Deed
The Latimer 6/429 deed (Def.’s Ex. 71) provides
in pertinent part:
KNOWN ALL MEN BY THESE
PRESENTS, That I, Permelia [sic] A. Latimer,
widow, of Tillamook County, Oregon, in
consideration of Six Hundred and Forty
(640.00) Dollars to me paid by the Pacific
Railway and Navigation Company, a

305a

corporation organized and doing business
within the State of Oregon, have and do hereby
grant, bargain, sell and convey unto the said
corporation, its successors and assigns, a strip
of land across my farm now occupied by my son,
William Latimer, being parts of Section
Eighteen (18) and Nineteen (19) in Township
One (1) South Range Nine (9) [sic] West of the
Willamette Meridian, Tillamook County,
Oregon, said strip being One Hundred feet wide
and lying fifty feet wide on each side of the
center line of the railway of the grantee, which
center line is described so far as it affects our
land, as follows:
* * * [Description] * * *
TO HAVE AND TO HOLD unto the said
Pacific Railway and Navigation Company, its
successors and assigns forever, also hereby
granting to such corporation and its assigns the
right to build, maintain and operate over said
lands a rail way [sic] and telegraph line.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, the amount of
consideration is not nominal ($250), there is no “right
of way” language in the title or body of the deed, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,

306a

the court finds the Latimer 6/429 deed (Def.’s Ex.
71), conveyed fee simple title to the railroad.
50. The Marey 5/477 Deed
The Marey 5/477 deed (Def.’s Ex. 72) provides in
pertinent part:
Know all Men by These Presents: That I,
Frank Marey, unmarried, of Garibaldi,
Tillamook County, State of Oregon, in
consideration of the sum of $100.00, to me in
hand paid, the receipt whereof is hereby
acknowledged, do grant, bargain, sell and
convey unto the Pacific Railway and Navigation
Company, and to its successors and assigns
forever, all that portion owned by me of the
Ralston track, in Sec. 21, T. 1 N. R.10 W., W. M.
embraced in a strip of land 76 ft. wide, being
50 ft[.] on the south side of the center line of
the Pacific Railwayand Navigation Company’s
railway, as now surveyed and located thru my
premises, and 26 ft. on the north side of said
center line, said center line being more
particularly described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
To Have and to Hold the above described
and granted premises unto the said Pacific
Railway and Navigation Company, and to its

307a

successors and assigns forever; together with
the right to build, maintain and operate
thereover a railway and telegraph line, and I
Frank Marey, the grantor above named, do
covenant to and with the Pacific Railway and
Navigation Company, the above named grantee,
its successors and assigns that the above
granted premises are free from all
incumbrances, and that I will, and my heirs,
executors and administrators, shall warrant
and forever defend the above granted premises,
and every part and parcel thereof against the
lawful claims and demands of all persons
whomsoever.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, the amount of
consideration is not nominal ($100), there is no “right
of way” language in the title or body of the deed, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that the Marey 5/477deed (Def.’s Ex.
72), conveyed fee simple title to the railroad.
51. The Maroney 11/513 Deed
The Maroney 11/513 deed (Def.’s Ex. 73)
provides in pertinent part:
Matt Maroney
to

RAILWAY DEED.
NO. 7461

308a

Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS, [sic] the
receipt whereof is hereby acknowledged, I Matt
Maroney, unmarried, of Garibaldi, in Tillamook
County, Oregon, hereinafter called the
grantors, [sic] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of Tillamook
and State of Oregon, to-wit:
“A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is
surveyed and located through Lot three (3) of
Section twenty nine , [sic] in Township two
North of Range ten West of the Willamette
Meridian. Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever. The grantors [sic] above named
do covenant that they are seised of the
aforesaid premises in fee simple, and that the
same are free from all encumbrances, and that
they will warrant and defend the premises
herein granted unto the grantee aforesaid, and

309a

unto its successors and assigns against the
lawful claims of all persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right of
Way Deed” does. Even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings, cattle
guards, or fences, the court finds that the Maroney
11/513 deed (Def.’s Ex. 73), conveyed fee simple title
to the railroad.
52. The McDonald 5/473 Deed
The McDonald 5/473 deed (Def.’s Ex. 74)
provides in pertinent part:
Know all Men by These Presents : [sic]
That for and in consideration of the sum of
$50.00 to him in hand paid, the receipt whereof
is hereby acknowledged, J.S. McDonald
unmarried, does grant, bargain, sell, and
convey to the Pacific Railway and Navigation
Company, and to its successors and assigns
forever, a strip of land 100 ft. wide, being 50 ft.
on each side of the center line of the railway of
the Pacific Railway and Navigation Company,
as now surveyed and located thru the lands of
the aforesaid J.S. McDonald, in Lot 2, Sec. 22,

310a

T. 1 N.R. 10 W., W. M., said center line being
more particularly described as follows, to wit:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining;
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever : [sic] together
with the right to build, maintain and operate
thereover a railway and telegraph line[.]
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Here, the amount of
consideration is not nominal ($50), there is no “right of
way” language in the title or body of the deed, nor any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. Therefore, the court
finds that the McDonald 5/473 deed (Def.’s Ex. 74),
conveyed fee simple title to the railroad.
53. The McMillan 11/328 Deed
The McMillan 11/328 deed (Def.’s Ex. 75)
provides in pertinent part:
Nillus McMillan and wife
Railway Deed.
to
No. 7181.
Pacific Railway and Navigation Co.

311a

KNOW ALL MEN BY THESE PRESENTS,
That for and in consideration of the sum of
Three Hundred & 00/100 DOLLARS , the receipt
whereof is hereby acknowledged, We, Nillus
McMillan and Sarah McMillan, husband and
wife, hereinafter called the grantors, do hereby
bargain, sell[,] grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property, situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land Sixty [sic] (60) feet wide,
being thirty (30) feet on each side of the center
line of the railway of the grantee as the same is
surveyed and located through
Beginning at the mouth of a certain water
ditch in Lot three of Section twenty Township
two North of Range ten west, running hence in
a South easterly direction following said ditch
to its intersection with a small lake, thence out
South across said lake to its South Bank, thence
in an Easterly direction following the foot of the
hill to the East line of said Lot three, thence
North on said line to the Nehalem Riven,
thence Southerly on line of ordinary high water
mark to point of beginning, containing 10 acres
more or less, all in Sec. 20, T. 2 N. R. 10 W.
Also the north half of South East quarter and
West half of North East quarter of Section 20,

312a

T. 2 N. R. 10 W. all being situated in Tillamook
County, Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever. The grantors above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all encumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto its
successors and assigns against the lawful claims
of all persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right of
Way Deed” does. Here, the amount of consideration is
not nominal ($300), there is no mention of “right of
way” in the title or body of the deed, no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences. Therefore, the court finds that the McMillan
11/328 deed (Def.’s Ex. 75), conveyed fee simple title
to the railroad.
54. The McMillan 11/83 Deed
The McMillan 11/83 deed (Def.’s Ex. 76)
provides in pertinent part:

313a

KNOW ALL MEN BY THESE PRESENTS:
That for and in consideration of the sum of
Three Hundred no/100 Dollars to them in hand
paid, the receipt whereof is hereby
acknowledged, Nillus McMillan and Sarah
McMillan, his wife, hereinafter called the
grantors, do hereby bargain, sell, grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and to
its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
Beginning at Stone “A” the initial point in
the survey of the Townsite of Garibaldi in
Section Twenty-one, [sic], Township One [sic]
North of Range Ten [sic] West of the
Willamette Meridian and running thence north
sixteen degrees 0’ West twenty-five feet; thence
East along the right-of-way line on a curve to
the left with a radius of 714.5 feet a distance of
62.5 feet; thence on a spiral to the left 57.5 feet;
thence North sixty-four degrees thirty minute
east seventy feet to the east line of said
McMillan’s land; thence South sixteen degrees
0’ east 46.5 feet to the southeast corner of said
McMillan’s land; thence South seventy-four
degrees 0’west[]along said McMillian’s south
line 187 feet to the place of beginning and
containing 14/100ths. acres.

314a

Together with all the appurtenances,
hereditaments, and tenements thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the above
named grantee, and to its successors and
assigns forever, together with the right to build,
maintain and operate a railway line thereover.
The grantors above named do covenant that
they are seised of the aforesaid premises in fee
simple, and that the same are free from all
encumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever, except only the Astoria &
Columbia River Railroad Company under a
certain contract or option given by the grantors
to said last named corporation.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that the
language confirming that the land granted can be used
for railroad purposes does not limit the railroad’s use to
only railroad purposes. Additionally, the court finds
that the use of the phrase “right of way” in this deed is
not describing the interest conveyed but rather the
geographic location. Additionally, the amount of
consideration is not nominal ($300), and there is no
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. Therefore, the court
finds that the McMillan 11/83 deed (Def.’s Ex. 76),
conveyed fee simple title to the railroad.

315a

55. The Mendenhall 72/550 Deed
The Mendenhall 72/550 deed (Albright, Def.’s
Ex. 78) provides in pertinent part:
Exhibit A
[Map or drawing]
Plat of Right of Way across Lands of
C. J. Mendenhall
****
KNOW ALL MEN BY THESE PRESENTS,
That We, C. J.Mendenhall, unmarried of
Washington County, Oregon, and Edward
[M]endenhall, of Portland, Multnomah County,
Oregon, in consideration of the sum of One
Hundred and Thirty Dollars ($130) to us paid,
and in consideration of the conditions
hereinafter imposed, do hereby bargain, sell,
and convey unto the Pacific Railway and
Navigation Company, a Corporation, and unto
its successors and assigns forever, all of the
following described real property, lying, being
and situate in Washington County, Oregon, and
described as follows: to-wit:- [sic]
A part of Section 4, T 2 N. R. 4 W., a strip
of land 80 feet wide being 40 feet on each side
of the center line of the Pacific Railway &
Navigation Company, as now surveyed and
located on said lands,[]and described as
follows:* * * [Description] * * *

316a

A plat of which Right of Way is hereto
attached, marked “A” and made a part hereof.
TO HAVE AND TO HOLD said land unto
the said Pacific Railway & Navigation
Company, and unto unto [sic] its successors
and assigns, as a Right of Way for it and its
successors, with the agreement and providing
that said Grantee, [sic] its successors a[n]d
assigns , [sic] shall perpetually maintain lawful
fences on each side of the said Right of Way
hereinbefore described, and one cattle guard
crossing at such point upon said Right of Way
as the Grantors or their heirs or assigns shall
designate, within thirty (30) days from the date
of the delivery of this deed. And the Grantee ,
[sic] C. J. Mendenhall does for himself[,] his
heirs and assigns, covenant to and with said
Pacific Railway & Navigation Company, its
sucesso[r]s and assigns, that said tract of land
hereinbefore described is free from all
incumbrances, save and except a lease in favor
of one A. B. Davis, for whom said Davis cleirs
[sic] the lands hereby conveyed but which if it
does cover such land is to that extend and in
some other respects is at least the result of
carelessness on part of lessee and mistake and
from which lease the grantee must secure a
release at its own expense and that C. J.
Mendenhall will forever warrant and defend
the title to said premises unto the said Pacific
Railway & Navigation Company, it successors
and assigns forever.

317a

The court finds that the language of this deed
viewed as a whole weighs in favor of finding that only an
easement was granted. This deed uses the phrase “right
of way” several different times. The deed includes a
drawing which it labels “Exhibit A” and describes as
“Plat of Right of Way across Lands of C. J.
Mendenhall.” In this context, this deed, like the
Johnson 9/610 deed (Def.’s Ex. 61) previously
discussed, is using the label “Right of Way” in a way
that is akin to the way in which a deed entitled “Right
of Way” deed uses the phrase “Right of Way” in its title
to indicate an interest in property. This is further
confirmed when the deed states “A plat of which Right
of Way is hereto attached, marked ‘A’ and made a part
hereof.”
The deed also contains the following language “TO
HAVE AND TO HOLD said land unto the said Pacific
Railway & Navigation Company, and unto unto [sic] its
successors and assigns, as a Right of Way for it and its
successors, ” The government agrees that this “deed’s
use of the phrase ‘right of way’ in the habendum clause,
rather than as part of the geographic description of the
land conveyed, makes clear that it is imposing a
limitation on the use of the land.” Def.’s Objs. at 4 n.1
(quoting Bouche, 293 P.2d at 209). This deed grants the
estate to the railroad “as a Right of Way.” This
language indicates the purpose for which the land is to
be used and limits the estate being conveyed. The deed
also contains the phrases “said Right of Way
hereinbefore described” and “upon said Right of
Way[,]” both of which are using the phrase “Right of
Way” to refer to the interest being conveyed.

318a

Furthermore, the deed contains a commitment by the
railroad to build and maintain fences and a cattle guard
crossing.
Although this deed has substantial consideration
($130), viewed in light of the deed as a whole, the
factors weighs in favor of construing this deed to have
conveyed only an easement. Therefore, the court finds
that the Mendenhall 72/550 deed (Def.’s, Ex. 78),
conveyed an easement to the railroad.8
56. The Noland 74/108 Deed
The Noland 74/108 deed (Def.’s Ex. 79) provides
in pertinent part:
Know all Men by these Presents, That Mrs
Lena Noland of Portland xxxxxxxx
State of
Oregon, in consideration of Seventy nine and
twenty, one Hundredths ($79.20/100)
DOLLARS,to me paid by
Pacific Railway
and Navigation Company of Portland
xxxxxx State of Oregon, * * * * * * * has
bargained and sold, and by these presents does
grant, bargain, sell and convey unto said
Pacific Railway Navigation Company[,] is [sic]
successors * * and assigns, all the following
bounded and described real property, situated
in the County of Washington and State of
Oregon:
A strip of land 100 feet wide being 50 feet
on each side of the center line of the Pacific
8

The government also later agreed this deed conveyed an
easement to the railroad. See Def,’s Objs. at 4 n.1.

319a

Railway and Navigation Company’s Railway,
as surveyed, located and adopted across the
south 1/2 of N W¼ of Sec. 30. [sic] T [sic] 3 N.
R. 4 W- [sic] W. M. said center line being
described as follows: * * *[Description] * * *
and containing 7.89 acres. Together with all
and singular the tenements, hereditaments and
appurtenances thereto belonging or in anywise
appertaining and also all her estate, right,
title and interest in and to the same, including
dower and claim of dower.
TO HAVE AND TO HOLD the above
described and granted premises unto the said
PACIFIC RAILWAY AND NAVIGATION
COMPANY[,] its successors * * * and assigns
forever. And Mrs. Lena Noland[,] grantor above
named do es [sic] covenant to and with Pacific
Railway and Navigation Company the above
named grantee[,] is [sic] successors and assigns
that she is lawfully seized in fee simple of the
above granted premises, that they are free from
all incumbrances * * * [Blank Space] * * * and
that she will and her heirs, executors and
administrators shall warrant and forever
defend the above granted premises, and ever
part and parcel thereof, against the lawful
claims and demands of all persons whomsoever.
(italics in original).
Here, the amount of consideration paid was not
nominal ($79.20), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such

320a

as crossings, cattle guards, or fences. As such, the
court finds that the Noland 74/108 deed (Def.’s Ex.
79), granted fee simple title to the railroad.
57. The Ostrander 9/205 Deed
The Ostrander 9/205 deed (Def.’s Ex. 80)
provides in pertinent part:
Chas. [sic] Ostrander and wife
Railway Deed.
to
No. 5807.
Pacific Railway and Navigation Co.
KNOW ALL MEN BY THESE
PRESENTS, That for and in consideration of
the sum of Five Hundred Fifty & 00/100
DOLLARS[,] the receipt whereof is hereby
acknowledged, we, Charles R. Ostrander and
Frances A. Ostrander, husband and wife, of
Bay City, in the County of Tillamook and State
of Oregon, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property, situate
in the County of Tillamook and State of
Oregon, to-wit:
“A strip of land one hundred (100) feet
wide, being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through that
certain tract of land described as follows:- * *
* [Describing the tract through which the strip
being conveyed runs] * * *

321a

Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, the amount of consideration
is not nominal ($550), there is not any “right of way”
language in the title or body of the deed, there is no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences. Therefore, the court finds that
the Ostrander 9/205 deed (Def.’s Ex. 80), conveyed
fee simple title to the railroad.
58. The Paquet 5/316 Deed
The Paquet 5/316 deed (Def.’s Ex. 81) provides
in pertinent part:

322a

Fred Paquet
No. 2853
to
Right of Way
Pacific Railway + Navigation Company
$202.60
Know All Men by These Presents: That for
and in consideration of the sum of $202.60/100
to me in hand paid, the receipt whereof is
hereby acknowledged, I, Fred Paquet,
unmarried, do hereby grant, bargain, sell and
convey to the Pacific Railway and Navigation
Company, and to its successors and assigns
forever, all those portions of the land owned by
me, embraced in a strip of land 100 ft. wide,
being 50 ft. on each side of the center line of
the railway to the Pacific Railway and
Navigation Company, as now surveyed,
located and adopted thru the lands of the
aforesaid Fred Paquet, in Lot 1, Sec. 22 T 1
N.R.10 W., W. M. said center line being more
particularly described as follows: * * *
[Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever, together with
the right to build, maintain and operate
thereover a railway and telegraph line.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. The deed does use the

323a

term “Right of Way” in its title but not in the text of
the deed. In addition, the deed provides for substantial
consideration ($202.60) and does not contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. Taken all of these
factors into consideration, the court finds that the
Paquet 5/316 deed (Def.’s Ex.81), conveyed fee
simple title to the railroad.
59. The Petrzilka 72/203 Deed
The Petrzilka 72/203 deed (Def.’s Ex. 83)
provides in pertinent part:
THIS INDENTURE, made this 1st day of
August 1906, between Frank Petrzilka and
Mary Petrzilka, his wife, of Washington
County, parties of the dirst [sic] part, and the
PACIFIC RAILWAY & NAVIGATION
COMPANY, a Corporation, party of the second
part, WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of One
Hundred Dollars ($100) to them in hand paid
by the party of the second part, the receipt of
which is hereby acknowledged, have granted,
bargained and sold, conveyed and confirmed
and by these presents do grant, bargain and
sell, convey and confirm unto the said party of
the second part, and its successors and
assigns,[]forever, all that certain Lot, [sic]
piece, parcel and track of land, lying, being
and situate in Washington County, Oregon,
and particularly described as follows, to-wit:A strip of land 80 feet wide, being 40 feet on

324a

each side of the center line of the PACIFIC
RAILWAY & NAVIGATION COMPANY’S
railway as now surveyed, located, and
established across the following described
lands,; The North West quarter of the North
West Quar ter [sic] of Section 4 T.2.N.R.4 W. of
the Will.Mer. [sic] and also the following
described tract of land, to-wit;-Beginning at
the south [sic] West corner of Section 33,
T.3.N.R.4.W. and running thence East 14 rods;
thence Northwesterly 42 rods to a point 4 rods
East of the west line of said section [sic] 33;
thence Northeasterly 42 rods to a point 14 rods
East of the west line of said Section
33,;[]thence [sic] West 14 rods; thence South 80
rods to the place of beginning, said strip of
land containing 4.31 acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and
reversions, remainder and remainders,
rents,[]issues and profits thereof.
TO HAVE AND TO HOLD all and
singular the said premises together with the
appurtenances, unto the said party of the
second part and unto its successors and
assigns forever. And the said parties of the
first part, for themselves, their heirs, executors
and administrators do covenant to and with
the party of the second part, its successors and
assigns forever, that the parties of the first
part are the owners in fee simple of the above
described and granted premises; That [sic]

325a

said premises and t he [sic] whole thereof are
fee from all incumbrances, and that said
parties of the first part, their heirs, executors
and administrators shall warrant and forever
defend said premises and the whole thereof
against the lawful claims and demands of all
persons whomsoever.
Here, the amount of consideration paid was not
nominal ($100), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Petrzilka 72/203 deed (Def.’s
Ex. 83), granted fee simple title to the railroad.
60. The Pongratz 72/547 Deed
The Pongratz 72/547 deed (Def.’s Ex. 85)
provides in pertinent part:
THIS INDENTURE, made this 30 [sic] day
of June 1906, between Joseph Pongratz and
Monika Pongratz, his wife, of Washington
County, Oregon, parties of the first part, and
the Pacific Railway & Navigation Company, a
Corporation, party of the second part,
WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of $85.00 to
them in hand paid by the party of the second
part, the receipt of which is hereby
acknowledged, have granted, bargained and
sold, conveyed and confirmed, and by these
presents do grant, bargain and sell, convey

326a

and confirm unto the said party of the second
part, and its successors and assigns, all that
certain lot, piece, parcel and tract of land,
lying, being and situate in Washington
County, Oregon, and particularly described as
a part of Sec. 4, T. 2 N. R. 4 W.,[]to-wit:
A strip of land 80 feet wide, being 40 feet
on each side of the center line of the Pacific
Railway and Navigation Company as now
surveyed and located on said lands, and
described as follows
* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and
reversions, remainder and remainders, rents,
issues and profits thereof.
TO HAVE AND TO HOLD all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and
assigns forever. And the parties of the first
part do hereby covenant that they are the
owners in fee simple of the tract of land above
described; That [sic] tract of land is free from
all incumbrances and that they will and their
heirs, executors and ad ministrators [sic] shall
warrant and forever defend said tract of land
and every part and parcel thereof against the
lawful claims and demands of all persons
whomsoever.

327a

Here, the amount of consideration paid was not
nominal ($85), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Pongratz 72/547 deed (Def.’s
Ex. 85), granted fee simple title to the railroad.
61. The Portland Timber Co. 107/610 Deed
The Portland Timber Co. 107/610 deed (Def.’s
Ex. 86) provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of Ten Dollars to it in hand paid, the
receipt whereof is hereby acknowledged, and
other valuable considerations moving to it,
PORTLAND TIMBER COMPANY, hereinafter
calleD [sic] the grantor, does bargain, grant,
convey and confirm to Pacific Railway And
[sic] Navigation Company, hereinafter called
the GRANTEE, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Washington and State of Oregon, to wit: A
strip of land one hundred feet in width, being
fifty feet on each side of the center line of the
grantee’s railway as the same is surveyed,
staked out and located through the northwest
quarter of section 34; the west half of the
northwest quarter; the northeast quarter[]of
the northwest quarter, and the northwest
quarter of the northeast quarter of section 32;
also the north half of the north half of section

328a

31, all in township three north of range six
west of the Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging, or in any wise [sic] appertaining,
with the right to construct, maintain and
operate a railway thereover.
TO HAVE AND TO HOLD to the grantee
and to its successors and assigns forever. And
the grAntor [sic] does covenant with the
grantee that it will warrant and defend the
premises above granted unto the grantee, and
to its successors and assigns against the lawful
claims and demands of all persons whomsoever
claiming or to claim under the grantor.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Here, the amount of
consideration is not nominal ($10.00), there is no
“right of way” language in the title or body of the deed
nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences.
Therefore, the court finds that the Portland Timber
Co. 107/610 deed (Def.’s Ex. 86), conveyed fee simple
title to the railroad.
62. The Portland Timber Co. 90/50 Deed
The Portland Timber Co. 90/50 deed (Def.’s
Ex. 87) provides in pertinent part:

329a

Know All Men by These Presents, That the
Portland Timber Company, an Oregon
corporation, in consideration of the sum of
Nine Hundred and Four Dollars and twenty
cents ($904.20) ,[]paid [sic] by the Pacific
Railway and Navigation Company, the grantee
herein, receipt whereof is hereby
acknowledged, does grant, bargain, sell,
convey and confirm to the grantee herein,
Pacific Railway and Navigation [C]ompany, its
successors and assigns forever, all of the
following described real estate, situate in the
County of Tillamook, State of Oregon, to-wit:
Beginning at a point where the East line of
Section 3, Township 3 North, Range 6 West W.
M., [sic] interests the center line of Pacific
Railway and Navigation Company’s railroad,
said point being 756 feet south of the
northeast corner of said Section 35, and being
identical with Station 1749+65 of said
company’s railway survey numbers, running
thence along said center line in a
southwesterly direction * * * [description] * *
* * thence north along said east line, a distance
of 50 feet to the place of beginning, saving and
excepting a right of way 100 feet in width
through the above des[c]ribed land granted by
deed of the grantor herein to Pacific Railway
and Navigation Company, dated June 30,
1909, and containing exclusive of said right of
way,[]6 acres.
Same being hereby granted for all proper
railroad, depot and station ground purposes,
the intent of this provision to prevent the

330a

grantee herein from platting a townsite on the
said land. TO HAVE AND TO HOLD the above
described premises unto said Pacific Railway
and Navigation Company, and to its successors
and
assigns
forever.
It
is
understood,[]however, that the grantor herein
reserves to itself all of the line trees situate
upon the exterior lines of the above described
premises.
This deed specifically states that the land being
conveyed in the deed is “hereby granted for all proper
railroad, depot and station ground purposes, the
intention of this provision to prevent the grantee
herein from platting a townsite on said land.” This
language specifies the purpose for which the land is
being granted and for which the land is to be used and
thus indicates that only an easement was granted. The
deed also provides that “the grantor herein reserves to
itself all of the line trees situate upon the exterior lines
of the above described premises[,]” which further
indicates that an easement was granted. See First
Nat’l Bank v. Townsend, 555 P.2d 477 (Or. App. 1976)
These express provisions establish the original parties’
intent to convey an easement. As such, although the
deed provides for substantial consideration ($904.20),
the court finds that the Portland Timber Co. 90/50
deed (Def.’s Ex. 87), conveyed an easement to the
railroad.
63. Prickett 72/538 Deed
The Prickett 72/538 deed (Def.’s Ex. 88)
provides in pertinent part:

331a

THIS INDENTURE, made this 18th day of
May 1906, between J. L. Prickett and Belle
Prickett his wife, of Washington County,
Oregon, parties of the first part, and the
Pacific Railway & Navigation Company, a
Corporation, party of the second part,
WITNESSETH:
That the parties of the first part for and in
consideration of the sum of Two Hundred
Dollars ($200) to them in hand paid by the
party of the second part, the receipt whereof is
hereby acknowledged, have granted, bargained
and sold, conveyed and confirmed, and by
these presents do grant, bargain and sell,
convey and confirm unto the said party of the
second part, and its successors and assigns, all
that certain lot, piece, parcel and tract of land,
lying, being and situate in Washington
County, Oregon , [sic] and particularly
described as a portion of Section 25, T. 2 N. R.
4 W. Will. Mer., to-wit:A strip of land 80 feet wide, being 40 feet
on each side of the center line of the Pacific
Railway and Navigation Company’s Railroad,
as now surveyed and located on said land, and
described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and

332a

reversions, remainder and remainders, rents,
issues and profits thereof.
TO HAVE AND TO HOLD aLL [sic] and
singular, the said premises together with the
appurtenances unto the said party of the
second part and u[n]to its successors and
assigns forever.
Here, the amount of consideration paid was not
nominal ($200), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Prickett 72/538 deed (Def.’s Ex.
88), granted fee simple title to the railroad.
64. The Rinck 77/454 Deed
The Rinck 77/454 deed (Def.’s Ex. 90) provides
in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One Dollar to him in hand paid, the
receipt whereof is hereby acknowledged, and
other valuable considerations moving to him,
J. H. Rinck, an unmarried man, hereinafter
called the grantor, does hereby bargain, sell,
grant, convey and confirm to Pacific Railway
and Navigation Company, hereinafter called
the grantee, and to its successors and assigns
forevEr, [sic] all of the following described real
property situate in the County of Washington
and State of Oregon, to wit:

333a

“A strip of land 100 feet wide, being 50 feet
on each side of the centereline [sic] of the track
of the Pacific Railway and Navigation
Company as the same is constructed through
the North half of the northeast quarter of
Section 32, in township 3 North of range 4
west of the Willamette Meridian containing
3.17 acres.”
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining, granting
also the grantee the right to operate a railway
line thereover as well as the fee of the aforesaid
premises. The grantor does covenant that he is
seased [sic] of the aforesaid premises in fee
simple and that the same are free from all
liens and encumbrances, and that he will and
his heirs, executors and administrators shall
forever warrant and defend the same against
the lawful claims and demands of all persons
whomsoever.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Additionally, the deed
provides that it grants “the right to operate a railway
line thereover as well as the fee of the aforesaid
premises.” Clearly the parties intended to convey fee
simple, even though the amount of consideration is
nominal ($1.00), the deed does not contain the phrase
“right of way” in the title or body of the deed nor any
requirement for the railroad to build structures such

334a

as crossings, cattle guards, or fences. Therefore, the
court finds that the Rinck 77/454 deed (Def.’s Ex.
90), granted a fee to the railroad.
65. The Rockaway Beach 12/342 Deed
The Rockaway Beach 12/342 deed (Def.’s Ex.
91) provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One & 00/100 DOLLARS, the receipt
whereof is hereby acknowledged, Rockaway
Beach Company, a Corporation organized and
existing under the laws of the State of Oregon
and First Bank Trust Company, a corporation
organized and existing under the laws of the
State of Oregon, hereinafter called the
grantors, [sic] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
“A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the grantee as the same is
surveyed and located through
Lot four of Section thirty two in Township
two North of Range ten West and a strip of
land twenty feet wide off the North end of Lot
one of Section five, Township One North of
Range two West of Willamette Meridian.

335a

Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors [sic] above named do
covenant that they are seised of the aforesaid
premises in fee simple, and that the same are
free from all incumbrances, and that they will
warrant and defend the premises herein
granted unto the grantee aforesaid, and unto
its successors and assigns against the lawful
claims of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Rockaway Beach
12/342 deed (Def.’s Ex. 91), conveyed fee simple title
to the railroad.
66. The Rowntree 11/618 Deed; The Sampson
11/617 Deed; The Sampson 11/619 Deed; and
The Sampson 11/620 Deed
The Rowntree 11/618 deed (Def.’s Ex. 92); the
Sampson 11/617 deed (Def.’s Ex. 95); the Sampson
11/619 deed (Def.’s Ex. 96); the Sampson 11/620
deed (Def.’s Ex. No. 97) are virtually identically and
thus the court will analyze these deeds together. Each
of these four deeds contains, with minor variations, the
following language:

336a

[Name of grantor(s)]
to
Pacific Railway and Navigation Co.

Deed.
No. ####.

Know All Men By these Presents, That
Whereas [name of grantor] is the owner in fee
simple of the following described real proper,
situated in the County of Tillamook and State
of Oregon, to-wit:
* * * [Description of grantor’s entire
property, not just strip being conveyed] * * *
NOw [sic] Therefore, in consideration of
the sum of Seventy five and 00/100 Dollars, to
[pronoun] in hand paid by the Pacific Railway
and Navigation Company, the receipt whereof
is hereby acknowledged, [pronoun], the said
[name of grantor(s)], do hereby grant, bargain,
sell and convey unto said Pacific Railway and
Navigation Company, its successors and
assigns, so much of said above described tract
of land as lies within the right of way limits of
said Pacific Railway and Navigation Company,
said right of way being a strip of land sixty
feet wide, to-wit: thirty feet on each side of the
center line of the railway of the grantee, as the
same is surveyed, staked out and located
through said tract, and said center line
running on a tangent North six degrees and
fifty eight minutes East from a point which is
fifty four feet West of the corner common to
Section 5, 6, 7 and 8 in TOwnship [sic] one
North of Range ten West, through and beyond
the land described herein.

337a

To have and to hold the above described
and granted premises unto the said Pacific
Railway and Navigation Company, its
successors and assigns forever.
And [pronoun], the said [name of grantors]
The grantors above named do covenant to and
with said Pacific Railway Company, its
successors and assigns, that [pronoun] [is] the
owner in fee simple of said premises, that they
are free from all incumbrances, and that
[pronoun] will and [possessive pronoun] heirs,
executors, administrators and assigns shall
warrant and forever the same against the
lawful claims and demands of all persons
whomsoever.
The court finds that the language of these deeds
viewed as a whole weighs in favor of finding that the
parties intended to grant a fee to the railroad. These
deeds use the phrase “right of way” twice. It is clear
from the context of these deeds that the phrase “right
of way” is not intended to describe the interest granted
but rather the geographic location of the land.
Additionally, the amount of consideration paid was not
nominal ($75), there is no mention of a railroad
purpose, and the deed does not contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Rowntree 11/618 deed (Def.’s
Ex. 92), the Sampson 11/617 deed (Def.’s Ex. 95),
the Sampson 11/619 deed (Def.’s Ex. 96), and the
Sampson 11/620 deed (Def.’s Ex. No. 97), all
granted fee simple title to the railroad.
67. The Roy 11/516 Deed

338a

The Roy 11/516 deed (Def.’s Ex. 93) provides in
pertinent part:
Felix Roy
Railway Deed.
to
No. 7464.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One Thousand & 00/100 DOLLARS,
the receipt whereof is hereby acknowledged, I
Felix Roy, a bachelor of Tillamook County,
Oregon, hereinafter called the grantors, [sic]
do hereby bargain, sell, grant, convey and
confirm to PACIFIC RAILWAY AND
NAVIGATION COMPANY, hereinafter called
the grantee, and to its successors and assigns
forever, all of the following described real
property situate in the County of Tillamook
and State of Oregon, to-wit:
“A strip of land one hundred (100) feet
wide, being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lot
three of Section 36 Township 3 North of Range
9 West of W. M. Lots two, three and thirteen of
Section 31, Township 3 North of Range 9 West
of W. M. Also through a certain tract described
as follows:- Beginning at the meander post on
the North bank of Nehalem River on the line
between Section 31 Tp. 3 N. Range 9 West and
Section 36 Tp. 3 North Range 10 West,
running thence North 30 rods, thence West
208 feet, thence South to Nehalem River,
thence in an Easterly direction following the

339a

North bank of Nehalem River to place of
beginning in Sec. 36 Tp. 3 N. R. 10 W. of W.M.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors [sic] above named do
covenant that they are seised of the aforesaid
premises in fee simple and that the same are
free from all encumbrances, and that they [sic]
will warrant and defend the premises herein
granted unto the grantee aforesaid, and unto
its successors and assigns against the lawful
claims of all persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, the amount of consideration
is not nominal ($1,000), there is no use of the “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences. As such, the court finds that
the Roy 11/516 deed (Def.’s Ex. 93), conveyed fee
simple title to the railroad.
68. The Rupp 13/245 Deed
The Rupp 13/245 deed (Def.’s Ex. 94) provides in
pertinent part:

340a

Know all Men by These Presents: That for
and in consideration of the sum of Ten Dollars
($10.00), the receipt whereof is hereby
acknowledged, and other valuable
considerations moving to them, John J. Rupp
and Betty N. Rupp, of Saginaw, Michigan,
hereinafter called the grantor, does bargain,
grant, convey and confirm to Pacific Railway
and Navigation Company, hereinafter called
the grantee, a strip of land one hundred (100)
feet in width, being fifty (50) feet on each side
of the center line of the railway of the grantee,
as the same is surveyed and located through
the following described real property, situate
in the County of Tillamook and State of
Oregon, to wit:
* * * [Describing the property through
which the strip conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging, or in anywise appertaining.
To Have and to Hold to the grantee and to
its successors and assigns forever.
The grantors covenant with the grantee
that they will warrant and defend the
premises herby granted against the lawful
claims and demands of all persons whomsoever
claiming the same by, through or under the
grantor. [sic]
Here, the amount of consideration is not nominal
($10), there is no reference to a “right of way” in the
title or body of the deed, and no mention of a railroad

341a

purpose nor does the deed contain any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences. As such, the court finds that
the Rupp 13/245 deed (Def.’s Ex. 94), conveyed fee
simple title to the railroad.
69. The Schrader & Groat 11/354 Deed
The Schrader & Groat 11/354 deed (Def.’s Ex.
98) provides in pertinent part:
Paul Schrader et ux
& John Groat et ux
Railway Deed.
to
No. 7235.
Pacific Railway and Navigation Co.
KNOWN ALL MEN BY THESE
PRESENTS, That for and in consideration of
Two Hundred & 00 DOLLARS, the receipt
whereof is hereby acknowledged, we, Paul
Schrader and Lillie R. Schrader[,] husband
and wife, and John Groat and Lillian A. Groat
, [sic] husband and wife, hereinafter called the
grantors[,] do hereby bargain, sell, grant,
convey and confirm to PACIFIC RAILWAY
AND NAVIGATION COMPANY, hereinafter
called the grantee[,] and to its successors and
assigns forever, all of the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit:
“A strip of land sixty feet wide being thirty
feet on each side of the center line of railway of
the grantee as the same is surveyed and
located through Lot one of Section five, in
Township One North of range ten West of
Willamette Meridian, save and except seven

342a

acres off the South[]and a strip of land twenty
feet wide off the North end of said Lot one.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, the deed provides for
consideration that is not nominal ($200), does not use
the phrase “right of way” in the title or body of the
deed, and does not mention a railroad purpose, nor any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the court
finds that the Schrader & Groat 11/354 deed (Def.’s
Ex. 96), conveyed fee simple title to the railroad.
70. The Sibley 23/301 Deed
The Sibley 23/301 deed (Def.’s Ex. 100) is
entitled “14999 Warranty Deed” and provides in
pertinent part:

343a

Know all Men by These Presents: That for
and in consideration of the sum of Four
Hundred Ninety Four ($495.00) Dollars, the
receipt whereof is hereby acknowledged,
Hiram W. Sibley and Margaret D. Sibley, his
wife, hereinafter called the grantors, do
bargain, sell, grant, convey and confirm to
Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred feet wide,
being fifty feet on each side of the center line of
the Pacific Railway and Navigation Company’s
railway as located and staked out over the
south half of the southeast quarter and lot 2 of
section 9, lot 1 of section 15 and lots 1 and 2 of
section 16, all of Township 3 North, range 8
West, Willamette Meridian, containing nine
and seventeen one hundredths (9.17) acres,
said center line being more particularly
described as follows:* * * [Description] * * *
Also a strip of land one hundred feet wide,
being fifty feet on each side of the center line of
the Pacific Railway and Navigation Company’s
railway as located and staked out over the
northeast quarter of section 14, township 3
North range 8 West, Willamette Meridian,
containing four and seventy six one

344a

hundredths (4.76) acres, said center line being
more particularly described as follows:* * * [Description] * * *
Also a strip of land one hundred feet wide,
being fifty feet on each side of the center line of
the Pacific Railway and Navigation Company’s
railway as located and staked out over lot 1 of
section 8 and lots 1 and 2 of section 17, all of
township 3 North, range 8 West, Willamette
Meridian, containing seven and seventy eight
one hundredths (7.78) acres, said center line
being more particularly described as follows:* * * [Description] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining,
confirming to the grantee specifically the right
to build, maintain and operate a railway line
thereover.
To Have and to Hold unto the above
named grantee and unto its successors and
assigns forever.
The grantors do warrant with the grantee
that they will warrant and defend the
premises hereby granted against the lawful
claims and demands of all persons claiming
under the grantors.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes is not dispositive on the

345a

question of whether an easement was granted. Here,
the amount of consideration is not nominal ($495),
there is no “right of way” language in the title or body
of the deed, nor any requirement for the railroad to
build structures such as crossings, cattle guards, or
fences. Therefore, the court finds that Sibley 23/301
deed (Def.’s Ex. 100), conveyed fee simple title to the
railroad.
71. The Slattery 94/161 Deed
The Slattery 94/161 deed (Def.’s Ex. 101)
provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of Ten Dollars to them in hand paid,
the receipt whereof is hereby acknowledged,
and other valuable considerations moving to
them, W. C. Slattery and Delia Slattery, his
wife, hereinafter called the grantors , do
bargain, grant, convey and confirm to Pacific
Railway and Navigation Company, hereinafter
called the grantee, and to its successors and
assigns forever, all of the following described
real property situate in the County of
Washington and State[]of Oregon, to-wit: A
strip of land one hundred feet in width, being
fifty feet on each side of the center line of the
grantee's railway as the same is surveyed,
staked out and located through the northwest
quArter [sic] of Section 32 in Township 3
North of Range 5 West of the Willamette
Meridian. Together with the appurtenances,
tenements and hereditaments thereunto
belonging, or in any wise [sic] appertaining,

346a

with the right to construct, maintain and
operate a railway thereover. TO HAVE AND
TO HOLD to the grantee and to its successors
and assigns forever. And the grantors do
covenant with the grantee that they will
warrant and defend the premises above
granted unto the grantee, and to its successors
and assigns against the lawful claims and
demands of all persons whomsoever claiming
or to claim under the grantors.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Here, the amount of
consideration is not nominal ($10), there is no “right of
way” language in the title or body of the deed, nor any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. Therefore, the
court finds that Slattery 94/161 deed (Def.’s Ex.
101), conveyed fee simple title to the railroad.
72. The Smith, Loyd 16/515 Deed
The Smith, Loyd 16/515 deed (Def.’s Ex. 103)
provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of One
Hundred Fifty and 0 0 / 1 0 0 Dollars, the receipt
whereof is hereby acknowledged, I, Lloyd C
Smith a widower, of Garibaldi, Tillamook
County[,] Oregon[,] hereinafter called the
grantor, do hereby bargain, sell, grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and

347a

to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred(100) [sic] feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lot 3 of
Section 8, Lot 4 of Section 7, Lots 1, 2, 3, and 4
and North-West [sic] quarter of SouthWest[]quarter of Section 17, Lot 3 of Section 20
and Tide Land fronting and abutting upon
Lots 3 and 4 of Section 20, all in Township 1
North of Range 10 West of Willamette
Meridian; save and except that from Station
No 651 to Station No. 677 said right of way
hereby conveyed shall be only 65 feet wide
being 50 feet on the Easterly side and 15 feet
on the Westerly side of said center line.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the above
named grantee and unto its successors and
assigns forever.
The grantor above named does covenant
that he is seised of the aforesaid premises in
fee simple, and that the same are free from all
incumbrances, and that they will warrant and
defend the premises herein granted unto the
grantee aforesaid, and unto its successors and
assigns against the lawful claims of all persons
whomsoever.

348a

The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, the court finds that the deed’s use
of the phrase “right of way” is not a description of the
interest being conveyed but provides a geographic
location. Even though the amount of consideration is
nominal ($1), without any mention of a railroad
purpose, nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences,
the court finds that the Smith, Loyd 16/515 deed
(Def.’s Ex. 103), granted fee simple title to the
railroad.
73. The Stanley 11/113 Deed
The Stanley 11/113 deed (Def.’s Ex. 104)
provides in pertinent part:
F. S; [sic] Stanley et al
Railway Deed.
to
NO. 6844.
Pacific Railway and Navigation Co.
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One DOLLARS, [sic] the receipt
whereof is hereby acknowledged, F. S. Stanley
and Ruth M. Stanley, his wife, Robert Smith,
a single man; W. D. Wheelwright, a single
man; - [sic] E. E. Lytle and Lizzie M Lytle, his
wife, and May Enright, a single woman,
hereinafter called the grantors, do herby
bargain, sell, grant, convey and confirm, to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property, situate

349a

in the County of Tillamook and State of
Oregon, to-wit:
“A strip of land one hundred (100) feet
wide, being fifty (50) feet on each side of the
center line of the railway of the grantee, as the
same is surveyed and located through the East
half of the South East [sic] quarter of Section
Twenty [sic] (20) in Township Three [sic] (3)
North, [sic] of Range Seven [sic] (7) West, W.
M.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for

350a

the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the
Stanley 11/113 deed (Def.’s Ex. 104), conveyed fee
simple title to the railroad.
74. The State of Oregon 70/76 Deed
The State of Oregon 70/76 deed (Loveridge,
ECF No. 28, Ex. J-54) provides in pertinent part:
State of Oregon, by and through
the State Highway Commission
No. 63061
To
Bargain and Sale Deed.
Southern Pacific Company, a corp.
BARGAIN AND SALE DEED
THIS INDENTURE WITNESSETH, that
the STATE OF OREGON, by and through its
State Highway Commission, for the
consideration of the sum of One and no/100
Dollars ($1.00) and other valuable
considerations to it paid, has bargained and
sold and by these presents does bargain, sell
and convey unto the SOUTHERN PACIFIC
COMPANY, a corporation, the following
described premises, to-wit:
A parcel of land in Lots 5 and 6 of Section
22, Twp. 1 North, Range 10 West, W. M.,
Tillamook County, Oregon, said parcel being a
strip of land of varying width lying on the
westerly side of and contiguous to the present
right of way of the Tillamook Brach of the
Southern Pacific Company; said parcel of land
being more particularly described as follows:

351a

Commencing at a point in the original
center line of the Tillamook Brach of the
Southern Pacific Company as it is now laid
out, owned and operated over and across
Section 22, Twp. 1, Range 10 West, W. M.,
County of Tillamook, State of Oregon, said
point being known as Engineer’s Station
497+19.8 E. C. of the said center line; thence
North 24º 25’ West at right angles to said
center line a distance of 50.0 feet to a point in
the original northwesterly right of way line of
said Branch railroad; said point being the
actual point of beginning of this description;
thence along said original right of way line in
a southwesterly direction on the arc of a taper
curve to the left parallel to and always 50 feet
northwesterly from the center line of the
original location of said railroad, (the long cord
of said taper curve bears South 64º 35’ West) a
distance of 122.6 feet to a point, said point
being 50.0 feet northwesterly from Engineer’s
Station 495+99.8 C. C. T 2 of the center line of
the original constructed line; thence * * * *;
containing 0.32 acres.
This deed is an exchange deed given under
terms of Section 44-118, Oregon Code 1930.
TO HAVE AND TO HOLD the said
premises, with their appurtenances, unto the
said Southern Pacific Company, a corporation,
its successors and assigns forever.
This deed is entitled “BARGAIN AND SALE
DEED” and specifies that the deed “is an exchange
deed given under terms of Section 44-118, Oregon

352a

Code 1930.” According to the Oregon Court of Appeals,
it is “the settled common-law understanding of the
purpose and effect of a bargain and sale deed” that
“[t]he essential purpose of a bargain and sale deed is to
convey whatever title the seller has, without providing
a warranty on the seller's part of the nature or quality
of that title.” Winters v. Cty. of Clatsop, 150 P.3d 1104,
1107 (Or. App. 2007) (citing City of Bend v. Title &
Trust Co., 289 P. 1044 (Or. 1930) (a bargain and sale
deed “contain[]no warranties” and only “act as an
instrument of conveyance.
Although this deed uses the phrase “right of way”
in the body of the deed it is not describing the interest
being conveyed by the deed but rather the geographic
location. In addition, although the deed provides for
only $1 in consideration it does not contain any
railroad purpose language. The court finds that the
State of Oregon 70/76 deed (Loveridge, ECF No.
28, Ex. J-54), granted fee simple title to the railroad.
75. The Stowell 75/32 Deed
The Stowell 75/32 deed (Def.’s Ex. 105) provides
in pertinent part:
THIS INDENTURE, made this 8th day of
February A.D.1907, between S. H. Stowell and
Josephine Stowell, his wife, of Washington
County, Oregon, parties of the first part, and
the PACIFIC RAILWAY & NAVIGATION
COMPANY, party of the second part,
WITNESSETH:
That the parties of the first part, for and in
consideration of the sum of $50.00 and other
good and valuable consideration to them in

353a

hand paid, by the party of the second part, the
receipt whereof is hereby acknowledged, have
granted, bargained and sold, conveyed and
confirmed and by these presents do grant,
bargain and sell, convey and confirm unto the
said party of the second part, and its
successors and assigns all that certain lot,
piece, parcel and tract of land, lying, being and
situate in t[h]e County of Washington, State of
Oregon and being more particularly described
as follows:Being in the S. W. [1/4] of Sec.[]33 and in
the N. E. [1/4] of Sec 32, all in[]T. 3 N R. 4. W.
Will. Mer. a strip of land 100 feet wide being
50 feet on each side of the center line of the
Pacific Railway and Navigation Company’s
Railway, as surveyed, located and adopted
across said lands and described as follows:Beginning at a point where the East line of
said Right of Way intersects the West line of
said Stowells [sic] land, 475 feet North and 109
feet East of the Southwest corner of said
Section 33; Running [sic] thence in a
Northwesterly direction along said West line,
180 feet; thence in a North Easterly direction
along said West line, 520 feet to its intersection
with the West line of said Right of Way;
thence
4
in a Northeasterly dire[c]tion along said Right
of way, [sic] on a spiral to the Right, 170 feet;
thence * * * *; Also Beginning [sic] at a point
where the West line of said Right of Way
intersects the East line of said N. E. l of said
Sec. 32, 390 feet North of the Southeast corner

354a

thereof; Running * * * *, and containing 6.96
acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining and the reversion and reversions,
remainder and remainders, rents, issues and
profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said Pacific Railway &
Navigation Company, its successors and
assigns forever,[]And [sic] We, [sic] S. H,.
Stowell and Josephine Stowell, his wife,
grantors above named, do covenant to and
with the Pacific Railway & Navigation
Company, the above n[a]med grantee, its
successors and assigns, that the above granted
premises are fee from all incumbrances, and
that we will and our heirs, executors and
administrators, shall warrant and forever
defend the above granted premises and every
part and parcel thereof against the lawful
claims and demands of all persons
whomsoever.
The court finds that the phrase “right of way” is
being used to describe the geographic location of the
preexisting railway line, rather than to refer to the
interest being conveyed by the deed. Additionally, the
amount of consideration paid was not nominal ($50),
there is no mention of a railroad purpose nor does the
deed contain any requirement for the railroad to build
structures such as crossings, cattle guards, or fences.

355a

Therefore, the court finds that the Stowell 75/32 deed
(Def.’s Ex. 105), conveyed fee simple title to the
railroad.
76. The Surman 6/40 Deed
The Surman 6/40 deed (Def.’s Ex. 106) provides
in pertinent part:
Know all Men By These Presents: That for
and in consideration of the sum of $150.00 to
him in hand paid, the receipt whereof is
hereby acknowledged, James Surman,
unmarried, does hereby grant, bargain, sell
and convey to the Pacific Railway and
Navigation Company, and to its successors and
assigns forever: all that portion of the land
owned by him embraced in a strip of land 100
ft. wide, being 50 ft. on each side of the center
line of the Pacific Railway and Navigation
Company’s railway as now surveyed, located
and adopted thru the lands of the aforesaid
James Surman, in Lot 2 Section 22, T. 1 N., R.
10 W., W. M., said center line being more
particularly described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining;
To Have and to Hold unto the Pacific
Railway and Navigation Company and to its
successors and assigns forever; together with
the right to build, maintain and operate
thereover a railway and telegraph line.

356a

For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Here, the amount of
consideration is not nominal ($150), there is no “right
of way” language in the title or body of the deed, nor
any requirement for the railroad to build structures
such as crossings, cattle guards, or fences. Therefore,
the court finds that the Surman 6/40 deed (Def.’s Ex.
106), conveyed fee simple title to the railroad.
77. The Thayer 11/355
The Thayer 11/355 deed (Def.’s Ex. 107)
provides in pertinent part:
Claude Thayer and wife
Railway Deed.
to
No. 7236.
Pacific Railway and Navigation Co.
KNOW ALL MEN By [sic] THESE
PRESENTS; That for and in consideration of
the sum of One & 00 DOLLARS, the receipt
whereof is hereby acknowledged, we, Claude
Thayer and Estelle Thayer, husband and wife,
hereinafter called the grantors, do hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAy [sic] AND NAVIGATION
COMPANy, [sic] hereinafter called the
grantee, and to its successors and assigns
forever, all of the following described real
property situate in the County of Tillamook
and State of Oregon, to-wit:
“A strip of land one hundred (100 ) [sic]
feet wide being fifty (50) feet on each side of

357a

the center line of the railway of the grantee as
the same is now surveyed and located through;
[sic] Tide Land fronting and abutting on Lot 1
of Sec. 21, T. 1 N. R. 10 W. except Town of
Garibaldi.
Also beginning at a point at ordinary high
water line South 84º West 24 links dist. from
the meander corner between Sections 20 and
21, T. 1 N. R. 10 W. thence South 65º East on
ordinary high water line 3.21 chains, thence
North 17.89 chains, thence West 2.91 chains,
thence South 16.53 chains to point of
beginning.
Also through an undivided one half
interest in the following tracts;- Beginning at
a point on ordinary high water line 34 links
South and 320 links West of the meander
corner between Sections 20 and 21 T. 3 N. R.
10 W. thence N. 84º East 3.02 chains on
ordinary high water line, thence North 16.53
chains, thence West 3.00 chains, thence South
16.84 chains to place of beginning; also
through an undivided one half interest in Lots
5, 6, 7, and 8 in Block 3 and Lots 4, [sic] and 5
in Block 4, all in the Town of Garibaldi.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.

358a

The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all en[c]umbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the
Thayer 11/355 deed (Def.’s Ex. 107), conveyed fee
simple title to the railroad.
78. The Thayer 18/39 Deed
The Thayer 18/39 deed (Def.’s Ex. 108) is
entitled “1134 Railway Deed” and provides in
pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of One & 00/100
Dollars, the receipt whereof is hereby
acknowledged, We, Claude Thayer and Estelle
Thayer[,] husband and wife, of Tillamook,
Oregon, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its

359a

successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land one hundred(100) [sic] feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lot
eight of Section twenty two, in Township one
North of Range ten West of Willamette
Meridian, save and except a certain one acre
tract heretofore conveyed out of said Lot eight;
Also through the tide lands fronting and
abutting upon Lots seven and eight in said
Section twenty two, in Township one North of
Range ten West of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To have and to hold unto the above named
grantee and unto its successors and assigns
forever.
The grantors above named do covenant
that they are seized of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does

360a

not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the
Thayer 18/39 deed (Def.’s Ex. 108), conveyed fee
simple title to the railroad.
79. The Thronburgh 72/531 Deed
The Thornburgh 72/531 deed (Def.’s Ex. 109)
provides in pertinent part:
THIS INDENTURE , [sic] made this 12th
day of October 1906, between A. Thornburgh,
widower, and O. C. Thornburgh, of
Washington County, Oregon, parties of the
first part, and the Pacific Railway &
Navigation Company, a Corporation, party of
the second part, WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of Three
hundred dollars ($300) to them in hand paid
by the party of the second part, the receipt of
which is hereby acknowledged, have granted,
bargained and sold, conveyed and confirmed
and by these presents do grant, bargain and
sell, convey and confirm unto the said party of
the second part, and its successors and
assigns, all that certain, [sic] lot, piece, parcel
and tract of land, lying, being and situate in
Washington County, Oregon, and particularly

361a

described as a portion of Sec. 24, T. 2. N. R.
W., Will. Mer., a strip of land 80 feet wide,
being 40 feet on each side of the center line of
the Pacific Railway and Navigation Company’s
Railway, as now surveyed and located on said
land and described as follows:
* * * [Description] * * * and containing 4.11
acres, and also
A part of Sections 14 and 15, T. 2. N. R. 4
W. ; [sic] a strip of land 80 feet wide, being 40
feet on each side of the center line of the
Pacific Railway & Navigation Company’s
Railway, as now surveyed and located on said
land, and described as follows:
* * * [Description] * * *, and containing
6.45 acres.
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining, and the reversion and
reversions, remainder and[]remainders, rents,
issues and profits thereof.
TO HAVE AND TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and
assigns forever. And the parties of the first
part hereby covenant to and with the party of
the second part, its successors and assigns,
that the parties of the first part, [sic] are the
owners in fee simple of the tract of land above
described, and the whole thereof; That [sic]

362a

said premises are fee from all incumbrances,
and that the parties of the first part, their
heirs, executors and administrators, shall
warrant and forever defend the above
described and granted premises and every part
and parcel thereof against the lawful claims
and demands of all persons whomsoever.
Here, the amount of consideration paid was not
nominal ($300), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Thornburgh 72/531 deed (Def.’s
Ex. 109), granted fee simple title to the railroad.
80. The Thurnheer 114/339 Deed
The Thurnheer 114/339 deed (Def.’s Ex. 110) is
a form deed and provides in pertinent part:
Know all Men by these Presents, that
Lawrence Thurnheer and Alice Thurnheer,
husband and wife of Washington County
xxxxxx State of Oregon, in consideration of
Fifty ($50.00) DOLLARS, to them paid by
Southern Pacific ComPany, [sic] a corporation
of the State of Kentucky, * * * * * * have
bargained and sold, and by these presents do
grant, bargain, sell and convey unto said
Southern Pacific ComPany, [sic] its successors
and * * * assigns, all the following bounded
and described real property, situated in the
County of Washington and State of Oregon

363a

A strIP [sic] of land 20 feet in width
adjoining the 100 foot right-of- way of the
Tillamook Brach of said Railroad ComPany
[sic] through section 30, townshiP [sic] 3 N,
range 4 W, WM, on its northerly side and
extending from the east line of section 30
westerly adjacent to said 100 foot right-of-way
a distance of 930 feet, more or less, to the
northerly line of County Road through said
section 30, said parcel of land containing 0.43
acres, more or less, all in section 30, T 3 N. R
4 W. WM. [sic]
* * * * * * [Blank Space] * * * * * *
Together with all and singular the
tenements, hereditaments and appurtenances
there to [sic] belonging or in anywise
appertaining, and also all their estate, right,
title and interest in and to the same, including
dower and claim of dower.
To Have and to Hold the above described
and granted premises unto the said Southern
Pacific Company[,] its successors *** and
assigns forever. And Lawrence Thurnheer and
Alice Thurnhere, grantors above named do
covenant to and with Southern Pacific
Company[,] the above named grantee[,] its
successors * * * and assigns that they are
lawfully seized in fee simple of the above
granted premises[,] that the above granted
premises are free from all incumbrances * * *
and that they will and their heirs, executors
and administrators shall warrant and forever
defend the above granted premises, and ever

364a

part and parcel thereof, against the lawful
claims and demands of all persons
whomsoever. (italics in original).
The court finds that the language of this deed
viewed as a whole weighs in favor of finding that a fee
was granted. Here, the court finds that the deed’s use
of the phrase “right of way” is not a description of the
interest being conveyed but provides a geographic
location. Additionally, the amount of consideration
paid was not nominal ($50) and there is no reference to
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. As such, the court
finds that the Thurnheer 114/339 deed (Def.’s Ex.
110), granted fee simple title to the railroad.
81. The Tillamook Beach Realty 11/599 Deed
The Tillamook Beach Realty 11/599 deed
(Def.’s Ex. 111) provides in pertinent part:
KNOW ALL MEN BY THESE PRESENTS
that for and in consideration of the covenants
and agreements entered into between the
PACIFIC RAILWAY AND NAVIGATION
COMPANY, a corporation[,] and the
TILLAMOOK BEACH REALTY COMPANY,
a corporation[,] by agreement dated this 27th.
day of July, 1909, said TILLAMOOK BEACH
REALTY COMPANY, a corporation, does
hereby grant, bargain, sell and convey to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, its successors and assigns forever,
all of the following described real property
situated in the County of Tillamook and State
of Oregon, to-wit:

365a

A strip of land sixty (60) feet wide, being
thirty (30) feet on each side of the center line
of the railway of the Pacific Railway and
Navigation, as the same is surveyed and
located through the following described
premises, situated in Tillamook County,
Oregon, to-wit:
* * * [Description of the premises through
which the strip runs, not the strip itself] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold unto the above
named Pacific Railway and Navigation
Company, its successors and assigns.
Although this deed does not list any money as
consideration, there are other indicia that the parties
intended to convey fee simple title. The deed lacks any
“right of way” language in the title or body, there is no
mention of railroad purposes, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences. As such, the court finds that
the Tillamook Beach Realty 11/599 deed (Def.’s
Ex. 111), conveyed fee simple title to the railroad.
82. The Turner 72/538 Deed
The Turner 72/528 deed (Def.’s Ex. 113)
provides in pertinent part:
THIS INDENTURE, made this 21st day of
August 1906, between Montgomery Turner
and Bessie Turner, his wife, of Washington
County, parties of the first part, and the

366a

Pacific Railway & Navigation Company, a
Corporation, a Corporation, party of the second
part, WITNESSETH:
That the said parties of the first part, for
and in consideration of the sum of Fifteen
Dollars ($15) to them in hand paid by the
party of the second part, the receipt of which is
hereby acknowledged, have granted, bargained
and sold, conveyed and confirmed and by these
presents do grant, bargain and sell, convey
and confirm unto the said party of the second
part, and its successors and assigns, all that
certain lot, piece, parcel and tract of land,
lying, being and situate in Washington
County, Oregon, and particularly described as
a portion of Sec. 25, T. 2 N. R. 4 W. Will. Mer.
a strip of land 60 feet wide, being 30 feet on
each side of the center line of the Pacific
Railway and Navigation Company’s Railway,
as now surveyed and located on said land, and
described as follows:* * * [Description] * * *
Together with all and singular, the
tenements, hereditaments and appurtenances
thereunto belonging or in anywise
appertaining,
and the reversion and
reversions, remainder and remainders, rents,
issues and profits thereof.
[T]O HAVE aND [sic] TO HOLD, all and
singular, the said premises together with the
appurtenances unto the said party of the
second part and unto its successors and assigns

367a

as long as used and operated for Railway and
Transportation purposes.
And the parties of the first part hereby
covenant to and with the party of the second
part, its successors and assigns, that the
parties of the first part, [sic] are the owners in
fee simple of the tract of land above described,
and the whole thereof. That said premises are
free from all incumbrances,
This deed states that the railroad shall have
the property “as long as used and operated for Railway
and Transportation purposes.” The government argues
that this language indicates that the parties intended
to convey a fee simple determinable. However, for the
same reasons as discussed in the court’s analysis of the
Carstens 72/530 deed (Def.’s Ex. 20), this deed is
different from the deed in Tolke, in which the Oregon
court found a fee simple determinable interest, because
the deed does not provide for an express reversion back
to the grantor. Therefore, the court finds that the
Turner 72/528 deed (Def.’s Ex. 113), grants an
easement the railroad.
83. The Twin Rocks Land Co. 13/450 Deed
The Twin Rocks Land Co. 13/450 deed (Def.’s
Ex. 114) provides in pertinent part:
Know all Men by These Presents that for
an[d] in consideration of the covenants and
agreements entered into between the Pacific
Railway and Navigation Company, a
corporation, and the Twin Rocks Land
Company, a corporation, by agreement dated
this 6th day of November, 1909, said Twin

368a

Rocks Land Company, a corporation, does
hereby bargain, grant, sell and convey to
Pacific Railway and Navigation Company, its
successors and assigns forever, all of the
following described real property situated in
the County of Tillamook and State of Oregon,
to-wit:
A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line of
the railway of the PACIFIC RAILWAY AND
NAVIGATION COMPANY, as the same is
surveyed and located through the following
described premises, situated in Tillamook
County, Oregon, to-wit:
* * * [Description of the premises through
which the strip runs, not the strip itself] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named PACIFIC RAILWAY AND
NAVIGATION COMPANY, its successors and
assigns.
Although this deed does not list any money as
consideration, there are other indicia that the parties
intended to convey a fee simple. The deed lacks any
“right of way” language in the title or body, there is no
mention of railroad purposes, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences. As such the court finds that
the Twin Rocks Land Co. 13/450 deed (Def.’s Ex.
114), conveyed fee simple title to the railroad.

369a

84. The Vantress 13/98 Deed
The Vantress 13/98 deed (Def.’s Ex. 115), which the
parties in Loveridge stipulated as having granted a fee
simple to the railroad, but the Albright plaintiffs did
not, and provides in pertinent part:
Know all Men by These Presents[:] That
for and in consideration of the sum of Five
Hundred and 00/100 Dollars[,] the receipt
whereof is hereby acknowledged, We[,] P.B.
Vantress and Bessie Vantress[,] husband and
wife, hereinafter called the grantors[,] do
hereby bargain, sell[,] grant, convey and
confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and
to its successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land one hundred (100) feet wide
being fifty (50) feet in each side of the center
line of the railway of the grantee as the same
[is] surveyed and located through Lots one and
two and 1044 acres off the East side of Lot
three, all in Section five, Township two North
of Range nine West of the Willamette
Meridian, said strip containing seven acres
and center line being more particularly
described as follows:* * * [Description] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining[.]

370a

To Have and to Hold unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
Here, the amount of consideration paid was not
nominal ($500), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any
requirement for the railroad to build structures such as
crossings, cattle guards, or fences. As such, the court
finds that the Vantress 13/98 deed (Def.’s Ex. 115),
granted fee simple title to the railroad.
85. The Watt 12/343 Deed
The Watt 12/343 deed (Def.’s Ex. 116) is entitled
“No. 8225. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One and 00/100 DOLLARS, [sic] The
[sic] receipt whereof is hereby acknowledged,
we, George Watt and Helen Watt, his wife[,]
and Robert Watt and Lois A. Watt, his wife,
hereinafter called the grantors, do bargain,
sell, grant, convey and confirm to PACIFIC
RAILWAY AND NAVIGATION COMPANY,

371a

hereinafter called the grantee, and * * * to its
successors and assigns forever, all of the
following described real property situate in the
County of Tillamook and State of Oregon, towit:
“A strip of land sixty (60) feet wide being
thirty (30) feet on each side of the center line
of the railway o f [sic] the grantee as the same
is surveyed and located through Lots One, two
and three of Section Seven and Lot one of
Section eight, all in Township One North of
Range ten Wes t [sic] of Willamette Meridian.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of

372a

way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the Watt
12/343 deed (Def.’s Ex. 116), conveyed fee simple title
to the railroad.
86. The Watt 12/344 Deed
The Watt 12/344 deed (Def.’s Ex. 117) is entitled
“No. 8226. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One and 00/100 DOLLARS, the
receipt whereof is hereby acknowledged, we,
George Watt and Helen Watt, husband and
wife, hereinafter called the grantors, do
bargain, sell, grant, convey and confir, [sic] to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property situate in
the County of Tillamook and State of Oregon,
to-wit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side * * * of
the center line of the railway of the grantee as
the same in [sic] surveyed and located through
Lot one of Section nine and also through the
tide land fronting and abutting upon Lots One
[sic] and Four [sic] of said Section nine; also
through Lot one of Section sixteen and the tide
fronting and abutting upon said Lot one of
Section sixteen, all in Township two North of

373a

Range ten West of Willamette Meridian. Save
and except a tract 105 feet by 210 feet in Lot 1
of Section 9, Township 2 North Range 10 West
reserved by G. M. Lock.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and[]unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the Watt
12/344 deed (Def.’s Ex. 117), conveyed fee simple title
to the railroad.
87. The Watt 12/345 Deed

374a

The Watt 12/345 deed (Def.’s Ex. 118) is entitled
“No. 8227. Railway Deed.” and provides in pertinent
part:
KNOW ALL MEN BY THESE
PRESENTS: That for and in consideration of
the sum of One and 00/100 DOLLARS, the
receipt whereof is hereby acknowledged, we,
John Watt and Sarah M. Watt[,] husband and
wife, hereinafter called the grantors, do
bargain, sell, grant, convey and confirm [sic] to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property situate in
the County of Tillamook and State of Oregon,
to-wit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same in [sic] surveyed and located through
Lots two, three and four of Section nine, in
Township two North of Range ten West of
Willamette Meridian[.]
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee, and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seised of the aforesaid premises
in fee simple, and that the same are free from

375a

all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and[]unto its successors
and assigns against the lawful claims of all
persons whomsoever.
As discussed above in the court’s analysis of the
Batterson 12/163 deed (Def.’s Ex. 5), the court does
not find that the term “Railway Deed” indicates an
easement in the same way that a deed entitled “Right
of Way Deed” does. Here, even though the amount of
consideration is nominal ($1), without any “right of
way” language in the title or body of the deed, and no
mention of a railroad purpose, nor any requirement for
the railroad to build structures such as crossings,
cattle guards, or fences, the court finds that the Watt
12/345 deed (Def.’s Ex. 118), conveyed fee simple title
to the railroad.
88. The Western Timber 77/108 Deed
The Western Timber 77/108 deed (Def.’s Ex.
119) provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS, ThAt [sic] the Western Timber
Co., a corporation organized and existing
under the laws of the State of Washington, for
and in consideration of the sum of the sum of
One Dollar ($1.00) and other valuable
considerations to it paid, the receipt whereof is
hereby acknowledged, does hereby bargain,
sell, grant, convey and confirm to the Pacific
Railway and Navigation Company, a
Corporation, and to its successors and assigns
forever, all of the following described real

376a

property situate in the County Washington,
State of Oregon, to-wit:A strip of land one hundred (100) feet in
width, being fifty (50) feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is surveyed, located and adopted
through the northeast quarter of Section
Twenty seven (27) and the southeast quarter of
Section Twenty two (22), in Township Three
(3) North, Range Five (5) West of the
Willamette Meridian, said center line being
described as follows:
* * * [Description] * * *
Together
with
the
tenements,
hereditaments and appurtenances thereunto
belonging or in anywise appertaining.
Reserving, however, unto the said Western
Timber Co. , [sic] its successors and assigns,
the right to cross said right of way at any point
or points where such crossing is desired. TO
HAVE AND TO HOLD unto the said Pacific
Railway and Navigation Company, and to its
successors and assigns forever.
The aforesaid grantor, the Western Timber
Co., does here covenant that it is the owner in
fee simple of the above granted premises and
that it will forever warrant and defend the
same unto the grantee, its successors and
assigns forever, against the lawful claims of all
persons whomsoever.

377a

Here, the court finds that the deed’s use of the
phrase “right of way” is a description of the interest
being conveyed. Additionally, the amount of
consideration is nominal ($1) and the grantor retained
a right to cross the right of way at any points it
desired. Therefore, the court finds that the Western
Timber 77/108 deed (Def.’s Ex. 119), conveyed an
easement to the railroad.
89. The Westinghouse 84/54 Deed
The Westinghouse 84/54 deed (Def.’s Ex. 120)
is a form deed and provides in pertinent part:
Know all Men by these Presents, THAT
We, G.E.Westinghouse and Ida C.
Westinghouse[,] his wife of Timber * * * State
of Oregon, in consideration of Six hundred and
seventy five DOLLARS, to us paid by Pacific
Railway and Navigation Company[,] its
successors and assigns of * * * * State of
Oregon * * * * * * * * ha[ve] bargained and
sold, and by these presents do grant, bargain,
sell and convey unto said Pacific Railway
Navigation Company[,] heirs and assigns, all
the following bounded and described real
property, situated in the County of Washington
and State of Oregon
A strip of land one hundred fEet [sic] in
width, being fifty feet on each side of and
parallel with the center line of the tracks of
the Pacific Railway and Navigation Company
on the Nehalem line and also on the
Salmonberry line as the same are surveyed

378a

and located through the North West quarter of
Section, [sic] twenty seven (27) in Township
three (3) North of Range five (5) West W. M.
and containing seven and one tenth (7 1/10)
acres no more and no less * * * * * * [Empty
space] * * * * Together with all and singular
the tenements, hereditaments and
appurtenances thereto belonging or in anywise
appertaining, and also all our estate, right,
title and interest in and to the same, including
dower and claim of dower.
TO HAVE AND TO HOLD the above
described and granted premises unto the said
Pacific Railway and Navigation Company and
to its successors * * * and assigns forever. And
G.E. Westinghouse and Ida C. Westinghouse
grantor s [sic] above named do covenant to and
with the Pacific Railway and Navigation Co
the above named grantee[,] its
succe[ssors][]and assigns that we are lawfully
seized in fee simple of the above granted
premises, that the above granted premises are
free from all incumbrances * * * [Empty space]
* * * and that we will and our heirs, executors
and administrators shall warrant and forever
defend the above granted premises, and ever
part and parcel thereof, against the lawful
claims and demands of all persons whomsoever.
(italics in original).
Here, the amount of consideration paid was not
nominal ($665), there is no reference to a “right of
way” in the title or body of the deed, and no mention of
a railroad purpose nor does the deed contain any

379a

requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Westinghouse 84/54 deed (Def.’s
Ex. 120), granted fee simple title to the railroad.
90. The Westinghouse 85/39 Deed
The Westinghouse 85/39 deed (Def.’s Ex. 121)
provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That I, John F. Westinghouse, a
single man[,] for and in consi deration [sic] of
the sum of One Dollars, [sic] to me in hand
paid, the receipt whereof is hereby
acknowledged, do hereby bargain, sell,
grant,[]convey and confirm to Pacific Railway
and Navigation Company, and to its successors
and assigns forever, all of the following
described real property situate in the County
of Washington and State of Oregon, to-wit:
A strip of land one hundred (100) feet in
width, being fifty (50) feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is surveyed and located through a
strip of land more particularly described as the
West one half of Southwest one quarter and
the Southwest one quarter of Northwest one
quarter of Northwest one quarter [of] Sec.[]26,
T 3 N. R. 5 W., Willamette Meridian and
containing four and forty two hundredths
(4.42) acres more or less. Together with the
tenements, hereditaments and appurtenances

380a

thereunto belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to its successors and assigns forever.
The aforesaid grantor John F. Westinghouse
does hereby he is the owner in fee simple of the
ab[o]ve grante[d] premises, and that he will
forever qarrant [sic] and defend the same unto
the Pacific Railway and Navigation Company,
its successors and assigns against the lawful
claims of all persons whomsoever.
Even though the amount of consideration paid was
nominal ($1), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Westinghouse 85/39 deed (Def.’s
Ex. 121), granted fee simple title to the railroad.
91. The Wheeler 16/2 Deed
The Wheeler 16/2 deed (Def.’s Ex. 122) provides
in pertinent part:
Know All Men by These Presents: That
Coleman H. Wheeler and Cora E. Wheeler,
hereinafter called the grantors, for and in
consideration of the sum of $1.00 to them in
hand paid, the receipt whereof is hereby
acknowledged, does [sic] hereby release, remit
and forever quit claim [sic] unto Pacific
Railway and Navigation Company, hereinafter
called the grantee, its successors and assigns

381a

forever, all of the following described real
property situate in the County of Tillamook
and State of Oregon, to wit: A right of way 60
feet in width, being 30 feet on each side of and
parallel with the center line of the grantee’s
railway as the same is surveyed, staked out,
located and adopted through the following
described real property, to-wit:
All that tract or parcel of land in Lots Four
(4) and Five (5) of Section Two (2), Township
Two (2) North of Range Ten (10) West of the
Willamette Meridian Beginning at the
Northeast corner of Charles Seaman’s four
acre tract on the meander line of the Nehalem
River; thence Easterly along and up said River
sixteen (16) rods; thence South twenty (20)
rods parallel with Charles Seaman’s line;
thence West to Charles Seaman’s East line;
thence North to the Nehalem River to the
place of beginning and containing two acres
more or less.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever.
This deed uses the phrase “right of way” in the
granting clause to describe the geographic location of
the interest being conveyed. Even though the amount
of consideration is nominal ($1), without any mention
of a railroad purpose, nor any requirement for the
railroad to build structures such as crossings, cattle

382a

guards, or fences, the court finds that the Wheeler
16/2 deed (Def.’s Ex. 122), granted fee simple title to
the railroad.
92. The Wheeler Lumber 16/3 Deed
The Wheeler Lumber 16/3 deed (Albright, ECF
No. 34, Ex. 82) provides in pertinent part:
Know All Men by These Presents: That for
and in consideration of the sum of $1.00 to it in
hand paid, the receipt whereof is hereby
acknowledged, The Wheeler Lumber
Company, hereinafter called the grantor, does
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
county of Tillamook and State of Oregon, towit:
A strip of land 60 feet in width, being
thirty 30 feet on each side of and parallel with
the center line of the grantee's railway as the
same is located, staked out, and surveyed
through the following described three parcels
of real property, to-wit:
* * * [Describing the three parcels through
which the strip being conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns

383a

forever; the grantors confirming also to the
grantee, its successors and assigns, the right
to build, maintain and operate a line of
railway thereover.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Here, even though the
amount of consideration is nominal ($1.00), without
any “right of way” language in the title or body of the
deed nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences,
the court finds that the Wheeler Lumber 16/3 deed
(Albright, ECF No. 35, Ex. 82), conveyed fee simple
title to the railroad.
93. The Wheeler Lumber Co. 16/5 Deed
The Wheeler Lumber Co. 16/5 deed (Def.’s Ex.
123), which is very similar to the above-analyzed
Wheeler Lumber Co. 16/3 deed, provides in pertinent
part:
Know All Men by These Presents, that for
and in consideration of the sum of One Dollar
($1.00) to it in hand paid, the receipt whereof
is hereby acknowledged, The Wheeler Lumber
Company, hereinafter called the grantor, does
hereby bargain, sell, grant, convey and confirm
to Pacific Railway and Navigation Company,
hereinafter called the grantee, and to its
successors and assigns forever, all of the
following described real property situate in the
county of Tillamook and state of Oregon, towit:

384a

A strip of land sixty feet in width being
thirty feet on each side of and parallel with the
center line of the grantee’s railway as the
same is last located, staked out, surveyed and
being constructed through Lots Four (4),
Five[](5), Six[](6) and that part of Lot Three (3)
lying west of the lands in said lot heretofore
conveyed by said grantor to Willie G. Du Bois,
all in Section Three (3) and the East Half (E ½)
of Lot One (1) in Section Four (4) and through
all tide lands fronting and abutting on all of
the above described lands, all in Township
Two[](2), North Range Ten (10) West
Willamette Meridian.
Also, a strip of land sixty feet in width
being thirty feet on each side of and parallel
with the center line of the grantee’s railway as
the same is last located, staked out, surveyed
and being constructed through all the tide
lands fronting and abutting on that part of
said Lot Three (3) in said Section Three (3) in
said Township Two[](2) North, Range Ten (20)
West, Willamette Meridian, described as
follows: * * * * [Describing the land through
which the strip being conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
To Have and to Hold to the above named
grantee and to its successors and assigns
forever; the grantors confirming also to the
grantee, its successors and assigns, the right to

385a

build, maintain and operate a line of railway
thereover.
The aforesaid grantor does hereby
covenant that it is the owner in fee simple of
the above granted premises, and that it will
warrant and defend same unto the said
grantee aforesaid, its successors and assigns,
against the lawful claims and demands of all
persons whomsoever.
For the same reasons as discussed in this court’s
review of the Alley 5/475 deed, the court finds that
the language confirming that the land granted can be
used for railroad purposes does not limit the railroad’s
use to only railroad purposes. Here, even though the
amount of consideration is nominal ($1), without any
“right of way” language in the title or body of the deed
nor any requirement for the railroad to build
structures such as crossings, cattle guards, or fences,
the court finds that the Wheeler Lumber Co. 16/5
deed (Def.’s Ex. 123), conveyed fee simple title to the
railroad.
94. The Williams 6/607 Deed
The Williams 6/607 deed (Def.’s Ex. 125)
provides in pertinent part:
George H. Willaims et ux
-toP. R. and N. Co.

RAILWAY DED
No. 4113.

KNOW ALL MEN BY THESE
PRESENTS, That for and in consideration of
the sum of Ten 00/100 DOLLARS[,] the receipt
whereof is hereby acknowledged, and other

386a

valuable consideration moving to them[,]
George H. Williams and Bessie Williams, his
wife,, hereinafter called the grantors, do
hereby bargain, sell, grant, convey and confirm
to PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee,
and to its successors and assigns forever, all of
the following described real property situate in
the County of Tillamook and State of Oregon,
to wit:
“A strip of land one hundred (100) feet
wide being fifty (50) feet on each side of the
center line of the railway of the grantee as the
same is surveyed and located through Lots
Three, [sic] Four, [sic] Five [sic] and Six [sic] of
Block Eleven [sic] in Cone and McCoy’s
Addition to Bay City, according to the plat
thereof of record in Tillamook County, Oregon.
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD unto the above
named grantee and unto its successors and
assigns forever.
The grantors above named do covenant
that they are seized of the aforesaid premises
in fee simple, and that the same are free from
all encumbrances, and that they will warrant
and defend the premises herein granted unto
the grantee aforesaid, and unto its successors
and assigns against the lawful claims of all
persons whomsoever.

387a

Here, the amount of consideration paid was not
nominal ($10), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Williams 6/607 deed (Def.’s Ex.
125), conveyed fee simple title to the railroad.
95. The Wilson 75/244 Deed
The Wilson 75/244 deed (Def.’s Ex. 126) provides
in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That we Brice Wilson and Sarah
E. Wilson[,] husband and wife, for and in
consideration of the sum[]of One Dollars, [sic]
to them in hand paid, the receipt whereof is
hereby acknowledged, do hereby bargain, sell,
grant, convey and confirm to Pacific Railway
and Navigation Company, and to its successors
and assigns forever, all of the following
described real property situate, in the County
of Washington and State of Oregon, to-wit:
A strip of land one Hundred [sic] feet in
width, being fifty feet on each side of and
parallel with the center line of the track of the
Pacific Railway and Navigation Company, as
the same is surveyed and located through the
East half of the Northeast quarter of Section
twenty eight (28) in Township three (3) North
Range five (5) West of the Willamette
Meridian.

388a

The said center line enters said land about
1185 feet south of the Northeast corner and
runs southwesterly across the same to a point
about 105 feet west of the South east [sic]
corner thereof.
Together
with
the
tenements,
hereditaments and appurtenances, thereunto
belon[g]ing or in anywise appertaining.
TO HAVE AND TO HOLD to the said
Pacific Railway and Navigation Company, and
to its successors and assigns forever.
The aforesaid Brice Wilson and Sarah E.
Wilson do hereby covenant that they are the
owners in fee simple of the above granted
premises, and that they will forever warrant
and defend the same unto the Pacific Railway
Company, its successors and assigns, against
the lawful claims of all persons whomsoever.
Even though the amount of consideration is
nominal ($1), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Wilson 75/244 deed
(Def.’s Ex. 126), conveyed fee simple title to the
railroad.
96. The Woodbury 16/481 Deed
The Woodbury 16/481 deed (Def.’s Ex. 127) is
entitled “No. 10888 Warranty Deed” and provides in
pertinent part:

389a

Know All Men by These Presents: That for
and in consideration of the sum of Ten ($10.00)
Dollars, to them in hand paid, the receipt
whereof is hereby acknowledged, and of other
valuable considerations, E. D. Woodbury and
Maude Woodbury, his wife,, hereinafter called
the grantors, do bargain, sell[,] grant, convey
and confirm to Pacific Railway and Navigation
Company, hereinafter called the grantee, and
to its successors and assigns forever, the
following described real property situate in the
County of Tillamook and State of Oregon, to
wit:
A strip of land sixty (60) feet in width,
being thirty (30) feet on each side of the center
line of the grantee’s railway as the same is
surveyed and located through the following
described real property, to wit:
* * * [Describing the property through
which the strip conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining,
To Have and to Hold to the grantee, and to
its successors and assigns forever.
The grantors covenant with the grantee
that they will warrant and defend the
premises herein granted against the lawful
claims and demands of all persons whomsoever
claiming by, through or under the grantors or
either of them.

390a

Here, the amount of consideration paid was not
nominal ($10), there is no reference to a “right of way”
in the title or body of the deed, and no mention of a
railroad purpose nor does the deed contain any
requirement for the railroad to build structures such
as crossings, cattle guards, or fences. As such, the
court finds that the Woodbury 16/481 deed (Def.’s
Ex. 127), conveyed fee simple title to the railroad.
97. The Woodbury 23/399 Deed
The Woodbury 23/399 deed (Def.’s Ex. 128)
provides in pertinent part:
Know All Men by These Presents: That we,
E.E. Woodbury and Maude Woodbury, his
wife, the grantors, in consideration of the sum
of Two + 0 0 / 1 0 0 Dollars, paid by Pacific
Railway and Navigation, the grantee herein,
the receipt whereof is hereby acknowledged,
have bargained and sold, and by these
presents do bargain, sell, transfer and convey
unto said Pacific Railway and Navigation
Company, an Oregon Corporation, and to its
successors and assigns forever, a strip of land
sixty (60) feet in width, being thirty (30) feet
on each side of the center line of the railway of
said Company as the same is now located,
staked out, and operated through Section
Twenty-Nine (29), Township Two (2) North,
Range Ten (10) West of the Willamette
Meridian. Which strip lies between the line
between Sections 29 and 32 on the South and
the North boundary of North Street of said
Lake Lytle Tract, as the same is platted in and
by Lake Lytle Plat and between Blks. [sic] 1, 7

391a

and 3 of Lake Lytle on the East and Blks [sic]
4, 8 and 14 of Lake Lytle on the West.
To Have and to Hold the above described
premises unto the said Pacific Railway and
Navigation Company and to its successors and
assigns forever.
Even though the amount of consideration is
nominal ($2), without any “right of way” language in
the title or body of the deed, and no mention of a
railroad purpose, nor any requirement for the railroad
to build structures such as crossings, cattle guards, or
fences, the court finds that the Woodbury 23/399
deed (Def.’s Ex. 128), conveyed fee simple title to the
railroad.
98. The Wright-Blodgett Co. 15/493 Deed
The Wright-Blodgett Co. 15/493 deed (Def.’s
Ex. 129) is entitled “Right of Way Deed. NO. 10598”
and provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That , [sic] in consideration of the
sum of[]Ten (10) Dollars, the receipt whereof is
hereby acknowledged, and other valuable
considerations moving to it, WRIGHTBLODGETT COMPANY, [sic] LIMITED,
hereinafTer [sic] called the grantor, does
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee, a
strip of land one hundred (100) feet in width,
being fifty (50) feet on each side of and parallel
with the center line of the railway of the
grantee, as the same is surveyed, staked out

392a

and located through the following described
real property situate in the County of
Tillamook and State of Oregon, to-wit :- [sic]
* * * [Describing the property through
which the strip conveyed runs] * * *
Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining.
TO HAVE AND TO HOLD to the grantee
and to its successors and assigns forever.
Provided, however, and this conveyance is
made upon the express understanding and
condition that the grantor reserves to itself, its
successors and assigns, the right to construct
across the strip of land herein conveyed and
across the railway of the grantee constructed
thereon, a logging railroad, without
compensation to the grantee, its successors
and assigns, said crossing to be at grade and
at some suitable point, the point of crossing
and the manner of its construction to be
subject to the approval of the chief engineer of
the grantee and an engineer to be selected by
the grantor; the said logging railroad to be
operated at all times in such a manner as not
to interfere with the operation by the[]grantee
of its railway over said strip of land.
And further provided that the grantee dur
ing [sic] the construction of its railway upon
the right of way herein granted shall
indemnify and save harmless the grantor from
loss or damage by fire to its remaining timber

393a

upon the land across which right of way is
herein granted, and its acceptance to this grant
may be deemed its obligation so to do.
The grantor covenants with the grantee
that it will warrant and defend the premises
herein granted against all lawful claims and
demands of all persons claiming the same, by,
through or under the grantor.
This deed is entitled “Right of Way Deed” and
contains “‘language relating to the use or purpose to
which the land is to be put or in other ways cutting
down or limiting, directly or indirectly, the estate
conveyed[.]’” Bouche, 293 P.2d at 209 (quoting 132
A.L.R. 145). The deed specifically states that “this
conveyance is made upon the express understanding
and condition that the grantor reserves to itself, its
successors and assigns, the right to construct across
the strip of land herein conveyed and across the
railway of the grantee constructed thereon, a logging
railroad, without compensation to the grantee, its
successors and assigns, said crossing to be at grade
and at some suitable point, the point of crossing and
the manner of its construction to be subject to the
approval of the chief engineer of the grantee and an
engineer to be selected by the grantor; the said logging
railroad to be operated at all times in such a manner
as not to interfere with the operation by the[]grantee
of its railway over said strip of land.” The fact that the
grantor reserved to itself the right to construct a
logging railroad across the lands conveyed in the deed
is inconsistent with the grant of a fee to the railroad
and thus indicates the original parties’ intent to only
grant an easement. The deed also provides that “the
grantee dur ing [sic] the construction of its railway

394a

upon the right of way herein granted shall indemnify
and save harmless the grantor from loss or damage by
fire to its remaining timber upon the land across which
right of way is herein granted, and its acceptance to
this grant may be deemed its obligation so to do.” This
language also suggests the grant of only an easement.
The court finds that the Wright-Blodgett Co. 15/493
deed (Def.’s Ex. 129), conveyed an easement to the
railroad.
99. The Wright-Blodgett Co. 105/393 Deed
The Wright-Blodgett Co. 105/393 deed (Def.’s
Ex. 130) provides in pertinent part:
KNOW ALL MEN BY THESE
PRESENTS: That , [sic] in consideration of the
sum of Ten (10) Dollars, the receipt whereof is
hereby acknowledged, and other valuable
considerations moving to it, WRIGHTB L O D G E T T COMPAN Y, L I MI T E D ,
hereinafter called the grantor, does hereby
bargain, sell, grant, convey and confirm to
PACIFIC RAILWAY AND NAVIGATION
COMPANY, hereinafter called the grantee ,
[sic] and to its successors and assigns , [sic] a
strip of land one hundred (100) feet in width,
being fifty (50) feet on each side of and parallel
with the center line of the railway of the
grantee, as the same is surveyed, staked out
nad [sic] located through the following
described real property situate in the County
of Washington and State of Oregon,[] to-wit:* * * [Describing the property through
which the strip conveyed runs] * * *

395a

Together with the appurtenances,
tenements and hereditaments thereunto
belonging or in anywise appertaining. TO
HAVE AND TO HOLD to the grantee and to
its successors and assigns forever. Provided,
however , [sic] and this conveyance is made
upon the express understanding and condition
that the grantor resreves [sic] to itself, its
successors and assigns, the right to construct
across the strip of land herein conveyed and
across the railway of the grantee constructed
thereon, a logging railroad, without
compensation to the grantee, its successors
and assigns, said crossing to be at grade and
at some suitable point, the point of crossing
and the manner of its construction to be
subject to the approval of the chief engineer of
the[]grantee and an engineer to be selected by
the grantor; the said logging railroad to be
operated at all times in such a manner as not
to interfere with the operation by the[]grantee
of its railway over said strip of land. A n d
further provided, that the grantee during the
construction of its railway upon the right of
way herein granted shall indemnify and save
harmless the grantor from loss or damage by
fire to its remaining timber upon the land
across which right of way is herein granted,
and its acceptance to this grant may be
deemed its obligation so to do.
The grantor covenants with the grantee
that it will warrant and defend the premises
herein granted against all lawful claims and

396a

demands of all persons claiming the same by,
[]through [sic] or under the grantor.
As described above in the courts analysis of
Wright-Blodgett Co. 15/493 deed (Def.’s Ex.139),
this includes purpose language or limiting language
establishing that an easement and not fee was
intended to be conveyed. Therefore, the court finds
that the Wright-Blodgett Co. 105/393 deed (Def.’s
Ex. 130), conveyed an easement to the railroad.
VIII.

Conclusion

For the foregoing reasons the court GRANTS-INPART and DENIES-IN-PART the parties’ motions for
partial summary judgment. The parties shall have
until September 7, 2018, to file a proposed schedule
for resolving the remaining issues in these cases. The
court will thereafter schedule a status conference to
finalize the parties’ next steps.
IT IS SO ORDERED.
s/Nancy B. Firestone
NANCY B. FIRESTONE
Senior Judge

397a

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
GARY E. ALBRIGHT, et al.,
Plaintiff-Appellants
CLAUDE J. ALLBRITTON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
PERRY LOVERIDGE, et al.,
Plaintiffs
NEAL ABRAHAMSON, et al.,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
GARY E. ALBRIGHT, et al.,
Plaintiffs
DANIEL EARL HIGGINS, III, MICHAEL J. OPOKA,
ZELDA L. OPOKA,
Plaintiff-Appellants,
v.
UNITED STATES,
Defendant- Appellee.
Nos. 2019-2078, 2019-2080, 2019-2090, 2019-2316

398a

Appeals from the United States Court
of Federal Claims in Nos. 1:16-cv-00912-NBF,
1:16-cv-01565-NBF, 1:18-cv-00375-NBF,
Senior Judge Nancy B. Firestone
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC

Before PROST, Chief Judge, NEWMAN, LOURIE,
LINN*, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appelants filed a combined petition for panel
rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
It is Ordered That:
The petiton for panel hearing is denied.
The petition for rehearing en banc is denied,
The mandate of the court will issue on February 25,
2021.

*

Circuit Judge Linn participated only in the decision on
the petition for panel rehearing.

399a

For the Court
February 18, 2021
Date

/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

400a

APPENDIX F
United States Code Annotated
Title 16. Conservation
Chapter 27. National Trials Systems
(Refs & Annos)
16 U.S.C.A. § 1241
§ 1241. Congressional statement of
policy and declaration of purpose
Currentness
(a) C o n s i d e r a t i o n s
for
establishment of trails

determining

In order to provide for the ever-increasing outdoor
recreation needs of an expanding population and in
order to promote the preservation of, public access to,
travel within, and enjoyment and appreciation of the
open-air, outdoor areas and historic resources of the
Nation, trails should be established (i) primarily, near
the urban areas of the Nation, and (ii) secondarily,
within scenic areas and along historic travel routes of
the Nation, which are often more remotely located.
(b) Initial components
The purpose of this chapter is to provide the means for
attaining these objectives by instituting a national
system of recreation, scenic and historic trails, by
designating the Appalachian Trail and the Pacific Crest
Trail as the initial components of that system, and by
prescribing the methods by which, and standards
according to which, additional components may be
added to the system.

401a

(c) Volunteer citizen involvement
The Congress recognizes the valuable contributions
that volunteers and private, nonprofit trail groups have
made to the development and maintenance of the
Nation's trails. In recognition of these contributions, it
is further the purpose of this chapter to encourage and
assist volunteer citizen involvement in the planning,
development, maintenance, and management, where
appropriate, of trails.
16 U.S.C.A. § 1247
§ 1247. State and local area
recreation and historic trails
Effective: December 19, 2014
Currentness
(a) Secretary of the Interior to encourage States,
political subdivisions, and private interests;
financial assistance for State and local
projects
The Secretary of the Interior is directed to encourage
States to consider, in their comprehensive statewide
outdoor recreation plans and proposals for financial
assistance for State and local projects submitted
pursuant to chapter 2003 of Title 54, needs and
opportunities for establishing park, forest, and other
recreation and historic trails on lands owned or
administered by States, and recreation and historic
trails on lands in or near urban areas. The Secretary is
also directed to encourage States to consider, in their
comprehensive statewide historic preservation plans

402a

and proposals for financial assistance for State, local,
and private projects submitted pursuant to division A of
subtitle III of Title 54, needs and opportunities for
establishing historic trails. He is further directed, in
accordance with the authority contained in chapter
2003 of Title 54) 1 , to encourage States, political
subdivisions, and private interests, including nonprofit
organizations, to establish such trails.
(b) Secretary
of
Housing
and
Urban
Development to encourage metropolitan and
other urban areas; administrative and
financial assistance in connection with
recreation and transportation planning;
administration of urban open-space program
The Secretary of Housing and Urban Development is
directed, in administering the program of
comprehensive urban planning and assistance under
section 701 of the Housing Act of 1954, to encourage
the planning of recreation trails in connection with the
recreation and transportation planning for
metropolitan and other urban areas. He is further
directed, in administering the urban open-space
program under title VII of the Housing Act of 1961, to
encourage such recreation trails.
(c) Secretary of Agriculture to encourage States,
local agencies, and private interests
The Secretary of Agriculture is directed, in accordance
with authority vested in him, to encourage States and
local agencies and private interests to establish such
trails.

403a

(d) Interim use of railroad rights-of-way
The Secretary of Transportation, the Chairman of the
Surface Transportation Board, and the Secretary of the
Interior, in administering the Railroad Revitalization
and Regulatory Reform Act of 1976, shall encourage
State and local agencies and private interests to
establish appropriate trails using the provisions of such
programs. Consistent with the purposes of that Act, and
in furtherance of the national policy to preserve
established railroad rights-of-way for future
reactivation of rail service,
to protect rail
transportation corridors, and to encourage energy
efficient transportation use, in the case of interim use
of any established railroad rights-of-way pursuant to
donation, transfer, lease, sale, or otherwise in a manner
consistent with this chapter, if such interim use is
subject to restoration or reconstruction for railroad
purposes, such interim use shall not be treated, for
purposes of any law or rule of law, as an abandonment
of the use of such rights-of-way for railroad purposes. If
a State, political subdivision, or qualified private
organization is prepared to assume full responsibility
for management of such rights- of-way and for any legal
liability arising out of such transfer or use, and for the
payment of any and all taxes that may be levied or
assessed against such rights-of-way, then the Board
shall impose such terms and conditions as a
requirement of any transfer or conveyance for interim
use in a manner consistent with this chapter, and shall
not permit abandonment or discontinuance inconsistent
or disruptive of such use.

404a

(e) Designation and marking of trails; approval
of Secretary of the Interior
Such trails may be designated and suitably marked as
parts of the nationwide system of trails by the States,
their political subdivisions, or other appropriate
administering agencies with the approval of the
Secretary of the Interior.

405a

APPENDIX G
United States Code Annotated
Title 28. Judiciary and Judicial Procedure
(Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 91. United States Court of Federal
Claims (Refs & Annos)
28 U.S.C.A. § 1491
§ 1491 Claims against United States generally;
actions involving Tennessee Valley Authority
Effective: December 21, 2011
Currentness
(a)(1) The United States Court of Federal Claims shall
have jurisdiction to render judgment upon any claim
against the United States founded either upon the
Constitution, or any Act of Congress or any regulation
of an executive department, or upon any express or
implied contract with the United States, or for
liquidated or unliquidated damages in cases not
sounding in tort. For the purpose of this paragraph, an
express or implied contract with the Army and Air
Force Exchange Service, Navy Exchanges, Marine
Corps Exchanges, Coast Guard Exchanges, or Exchange
Councils of the National Aeronautics and Space
Administration shall be considered an express or
implied contract with the United States.
(2) To provide an entire remedy and to complete the
relief afforded by the judgment, the court may, as an
incident of and collateral to any such judgment, issue
orders directing restoration to office or position,

406a

placement in appropriate duty or retirement status, and
correction of applicable records, and such orders may be
issued to any appropriate official of the United States.
In any case within its jurisdiction, the court shall have
the power to remand appropriate matters to any
administrative or executive body or official with such
direction as it may deem proper and just. The Court of
Federal Claims shall have jurisdiction to render
judgment upon any claim by or against, or dispute with,
a contractor arising under section 7104(b)(1) of title 41,
including
a dispute concerning termination of a
contract, rights in tangible or intangible property,
compliance with cost accounting standards, and other
nonmonetary disputes on which a decision of the
contracting officer has been issued under section 6 of
that Act.

(b)(1) Both the Unites1 States Court of Federal
Claims and the district courts of the United States shall
have jurisdiction to render judgment on an action by an
interested party objecting to a solicitation by a Federal
agency for bids or proposals for a proposed contract or
to a proposed award or the award of a contract or any
alleged violation of statute or regulation in connection
with a procurement or a proposed procurement. Both
the United States Court of Federal Claims and the
district courts of the United States shall have
jurisdiction to entertain such an action without regard
to whether suit is instituted before or after the contract
is awarded.

1

So in original.

407a

(2) To afford relief in such an action, the courts may
award any relief that the court considers proper,
including declaratory and injunctive relief except that
any monetary relief shall be limited to bid preparation
and proposal costs.
(3) In exercising jurisdiction under this subsection, the
courts shall give due regard to the interests of national
defense and national security and the need for
expeditious resolution of the action.
(4) In any action under this subsection, the courts shall
review the agency's decision pursuant to the standards
set forth in section 706 of title 5.
(5) If an interested party who is a member of the
private sector commences an action described in
paragraph (1) with respect to a public-private
competition conducted under Office of Management
and Budget Circular A-76 regarding the performance of
an activity or function of a Federal agency, or a decision
to convert a function performed by Federal employees
to private sector performance without a competition
under Office of Management and Budget Circular A-76,
then an interested party described in section 3551(2)(B)
of title 31 shall be entitled to intervene in that action.
(6) Jurisdiction over any action described in paragraph
(1) arising out of a maritime contract, or a solicitation
for a proposed maritime contract, shall be governed by
this section and shall not be subject to the jurisdiction
of the district courts of the United States under the
Suits in Admiralty Act (chapter 309 of title 46) or the
Public Vessels Act (chapter 311 of title 46).

408a

(c) Nothing herein shall be construed to give the
United States Court of Federal Claims jurisdiction of
any civil action within the exclusive jurisdiction of the
Court of International Trade, or of any action against,
or founded on conduct of, the Tennessee Valley
Authority, or to amend or modify the provisions of the
Tennessee Valley Authority Act of 1933 with respect to
actions by or against the Authority.

409a

APPENDIX H
United States Code Annotated
Title 49. Transportation (Refs & Annos)
Subtitle IV. Interstate Transportation
(Refs & Annos)
Part A. Rail (Refs & Annos)
Chapter 105. Jurisdiction (Refs & Annos)
49 U.S.C.A. § 10502
§ 10502. Authority to exempt rail carrier
transportation
Currentness
(a) In a matter related to a rail carrier providing
transportation subject to the jurisdiction of the Board
under this part, the Board, to the maximum extent
consistent with this part, shall exempt a person, class of
persons, or a transaction or service whenever the Board
finds that the application in whole or in part of a
provision of this part–

(1) is not necessary to carry out the
transportation policy of section 10101 of
this title; and
(2) either –
(A)

the transaction or service is of
limited scope; or

(B)

the application in whole or in part of
the provision is not needed to
protect shippers from the abuse of

410a

market power.
(b) The Board may, where appropriate, begin a
proceeding under this section on its own initiative
or on application by the Secretary of
Transportation or an interested party. The Board
shall, within 90 days after receipt of any such
application, determine whether to begin an
appropriate proceeding. If the Board decides not to
begin a class exemption proceeding, the reasons for
the decision shall be published in the Federal
Register. Any proceeding begun as a result of an
application under this subsection shall be
completed within 9 months after it is begun.
(c) The Board may specify the period of time
during which an exemption granted under this
section is effective.
(d) The Board may revoke an exemption, to the
extent it specifies, when it finds that application in
whole or in part of a provision of this part to the
person, class, or transportation is necessary to
carry out the transportation policy of section 10101
of this title. The Board shall, within 90 days after
receipt of a request for revocation under this
subsection, determine whether to begin an
appropriate proceeding. If the Board decides not to
begin a proceeding to revoke a class exemption, the
reasons for the decision shall be published in the
Federal Register. Any proceeding begun as a result
of a request under this subsection shall be

411a

completed within 9 months after it is begun.
(e) No exemption order issued pursuant to this
section shall operate to relieve any rail carrier from
an obligation to provide contractual terms for
liability and claims which are consistent with the
provisions of section 11706 of this title. Nothing in
this subsection or section 11706 of this title shall
prevent rail carriers from offering alternative terms
nor give the Board the authority to require any
specific level of rates or services based upon the
provisions of section 11706 of this title.
(f) The Board may exercise its authority under this
section to exempt transportation that is provided by
a rail carrier as part of a continuous intermodal
movement.
(g) The Board may not exercise its authority under
this section to relieve a rail carrier of its obligation
to protect the interests of employees as required by
this part.

412a

APPENDIX I
United States Code Annotated
Title 49. Transportation (Refs & Annos)
Subtitle IV. Interstate Transportation
(Refs & Annos)
Part A. Rail (Refs & Annos)
Chapter 109. Licensing (Refs & Annos)
49 U.S.C.A. § 10903
§ 10903. Filing and procedure for application to
abandon or discontinue
Effective: October 1, 2012
Currentness
(a)(1) A rail carrier providing transportation subject to
the jurisdiction of the Board under this part who
intends to–
(A)

abandon any part of its railroad lines; or

(B)

discontinue the operation of all rail
transportation over any part of its railroad
lines,

must file an application relating thereto with the Board.
An abandonment or discontinuance may be carried out
only as authorized under this chapter.
(2) When a rail carrier providing transportation subject
to the jurisdiction of the Board under this part files an
application, the application shall include–
(A)

an accurate and understandable summary
of the rail carrier's reasons for the proposed

413a

abandonment or discontinuance;
(B)

a statement indicating that each interested
person is entitled to make
recommendations to the Board on the
future of the rail line; and

(C)(i) a statement that the line is available for
subsidy or sale in accordance with section
10904 of this title, (ii) a statement that the
rail carrier will promptly provide to each
interested party an estimate of the annual
subsidy and minimum purchase price,
calculated in accordance with section 10904
of this title, and (iii) the name and business
address of the person who is authorized to
discuss the subsidy or sale terms for the
rail carrier.
(3) The rail carrier shall–
(A)

send by certified mail notice of the
application to the chief executive officer of
each State that would be directly affected
by the proposed abandonment or
discontinuance;

(B)

post a copy of the notice in each terminal
and station on each portion of a railroad
line proposed to be abandoned or over
which all transportation is to be
discontinued;

414a

(C)

publish a copy of the notice for 3
consecutive weeks in a newspaper of
general circulation in each county in which
each such portion is located;

(D)

mail a copy of the notice, to the extent
practicable, to all shippers that have made
significant use (as designated by the Board)
of the railroad line during the 12 months
preceding the filing of the application; and

(E)

attach to the application filed with the
Board an affidavit certifying the manner in
which subparagraphs (A) through (D) of
this paragraph have been satisfied, and
certifying that subparagraphs (A) through
(D) have been satisfied within the most
recent 30 days prior to the date the
application is filed.

(b)(1) Except as provided in subsection (d),
abandonment and discontinuance may occur as
provided in section 10904.
(2) The Board shall require as a condition of any
abandonment or discontinuance under this section
provisions to protect the interests of employees.
The provisions shall be at least as beneficial to
those interests as the provisions established under
sections 11326(a) and 24706(c) of this title before
May 31, 1998.
(c)(1) In this subsection, the term “potentially
subject to abandonment” has the meaning given the

415a

term in regulations of the Board. The regulations
may include standards that vary by region of the
United States and by railroad or group of railroads.
(2) Each rail carrier shall maintain a complete
diagram of the transportation system operated,
directly or indirectly, by the rail carrier. The rail
carrier shall submit to the Board and publish
amendments to its diagram that are necessary to
maintain the accuracy of the diagram. The diagram
shall–
(A)

include a detailed description of each of
its railroad lines potentially subject to
abandonment; and

(B)

identify each railroad line for which the
rail carrier plans to file an application to
abandon or discontinue under
subsection (a) of this section.

(d) A rail carrier providing transportation subject
to the jurisdiction of the Board under this part
may–
(1)

abandon any part of its railroad lines; or

(2)

discontinue the operation of all rail
transportation over any part of its
railroad lines;

only if the Board finds that the present or future
public convenience and necessity require or permit

416a

the abandonment or discontinuance. In making the
finding, the Board shall consider whether the
abandonment or discontinuance will have a serious,
adverse impact on rural and community
development.
(e) Subject to this section and sections 10904 and
10905 of this title, if the Board–
(1) finds public convenience and necessity, it
shall–
(A)

approve the application as filed; or

(B)

approve the application with
modifications and require
compliance with conditions that the
Board finds are required by public
convenience and necessity; or

(2) fails to find public convenience and necessity, it
shall deny the application.

417a

APPENDIX J
United States Code Annotated
Title 49. Transportation
Subtitle B. Other Regulations Relating to
Transportation
Chapter X. Surface Transportation Board
(Refs & Annos)
Subchapter B. Rules of Practice
Parts 1150 to 1174 – Licensing Procedures
Parts 1150 to 1159 – Rail Licensing Procedures
Part 1152. Abandonment and Discontinuance
of Rail Lines and Rail Transportation Under 49
U.S.C. 10903 (Refs & Annos)
Subpart C. Procedures Governing Notice,
Applications, Financial Assistance, Acquisition
for Public Use, and Trail Use
49 C.F.R.. § 1152.29
§ 1152.29. Prospective use of rights-of-way for
interim trail use and rail banking.
Effective: February 2, 2020
Currentness
(a) Contents of request for interim trail use. If any
state, political subdivision, or qualified private
organization is interested in acquiring or using a
right-of-way of a rail line proposed to be abandoned for
interim trail use and rail banking pursuant to 16 U.S.C.
1247(d), it must file a comment or otherwise include a
request in its filing (in a regulated abandonment
proceeding) or a petition (in an exemption proceeding)

418a

indicating
that would like to do
comment/request or petition must include:

so.

The

(1) A map depicting, and an accurate description
of, the right-of-way, or portion thereof
(including mileposts), proposed to be acquired
or used;
(2) A statement indicating the trail sponsor's
willingness to assume full responsibility for:
(i) Managing the right-of-way;
(ii) Any legal liability arising out of the transfer or
use of the right-of-way (unless the user is
immune from liability, in which case it need
only indemnify the railroad against any
potential liability); and
(iii)The payment of any and all taxes that may be
levied or assessed against the right-of-way; and
(3) An acknowledgment that interim trail use is
subject to the sponsor's continuing to meet its
responsibilities described in paragraph (a)(2) of
this section, and subject to possible future
reconstruction and reactivation of the
right-of-way for rail service. The statement
must be in the following form:
Statement of Willingness To
Assume Financial Responsibility
In order to establish interim trail use and rail
banking under 16 U.S.C. 1247(d) and 49 CFR
1152.29 with respect to the right- of-way owned by
_____ (Railroad) and operated by _____ (Railroad),

419a

_____ (Interim Trail Sponsor) is willing to assume
full responsibility for: (1) Managing the
right-of-way, (2) any legal liability arising out of the
transfer or use of the right-of-way (unless the
sponsor is immune from liability, in which case it
need only indemnify the railroad against any
potential liability), and (3) the payment of any and
all taxes that may be levied or assessed against the
right of way. The property, known as _____ (Name
of Branch Line), extends from railroad milepost
_____ near _____ (Station Name), to railroad
milepost _____, near _____ (Station name), a
distance of _____ miles in [County(ies), (State(s) ].
The right-of-way is part of a line of railroad
proposed for abandonment in Docket No. STB AB
_____ (Sub–No.). A map of the property depicting
the right-of-way is attached.
_____ (Interim Trail Sponsor) acknowledges that
use of the right-of-way is subject to the sponsor's
continuing to meet its responsibilities described
above and subject to possible future reconstruction
and reactivation of the right-of-way for rail service.
A copy of this statement is being served on the
railroad(s) on the same date it is being served on
the Board.
(b) When to file.
(1) In abandonment application proceedings under
49 U.S.C. 10903, interim trail use statements
are due within the 45- day protest and
comment period following the date the
abandonment application is filed. See §

420a

1152.25(c). The applicant carrier's response
notifying the Board whether and with whom it
intends to negotiate a trail use agreement is
due within 15 days after the close of the protest
and comment period (i.e., 60 days after the
abandonment application is filed).
(i) In every proceeding where a Trails Act request
is made, the Board will determine whether the
Trails Act is applicable.
(ii) If the Trails Act is not applicable because of
failure to comply with paragraph (a) of this
section, or is applicable but the carrier either
does not intend to negotiate an agreement, or
does not timely notify the Board of its intention
to negotiate, a decision on the merits will be
issued and no Certificate of Interim Trail Use
or Abandonment (CITU) will be issued. If the
carrier is willing to negotiate an agreement,
and the public convenience and necessity
permit abandonment, the Board will issue a
CITU.
(2) In exemption proceedings, a petition containing
an interim trail use statement is due within 10
days after the date the notice of exemption is
published in the Federal Register in the case of
a class exemption and within 20 days after
publication in the Federal Register of the notice
of filing of a petition for exemption in the case
of a petition for exemption. When an interim
trail use comment(s) or petition(s) is filed in an
exemption proceeding, the railroad's reply to

421a

the Board (indicating whether and with whom
it intends to negotiate an agreement) is due
within 10 days after the date a petition
requesting interim trail use is filed.
(3) Late-filed trail use statements must be
supported by a statement showing good cause
for late filing.
(c) Abandonment application proceedings.
(1) In abandonment application proceedings, if
continued rail service does not occur pursuant
to 49 U.S.C. 10904 and § 1152.27, and a
railroad agrees to negotiate an interim trail
use/railbanking agreement, then the Board will
issue a CITU to the railroad and to the interim
trail sponsor for that portion of the right-of-way
as to which both parties are willing to
negotiate.
(i) The CITU will permit the railroad to
discontinue service, cancel any applicable
tariffs, and salvage track and material
consistent with interim trail use and
railbanking, as long as such actions are
consistent with any other Board order, 30 days
after the date the CITU is issued; and permit
the railroad to fully abandon the line if no
interim trail use agreement is reached within
one year from the date on which the CITU is
issued, subject to appropriate conditions,
including labor protection and environmental
matters.

422a

(ii) Parties may request a Board order to extend,
for one-year periods, the interim trail use
negotiation period. Up to three one-year
extensions of the initial period may be granted
if the trail sponsor and the railroad agree.
Additional one-year extensions, beyond three
extensions of the initial period, are not favored
but may be granted if the trail sponsor and the
railroad agree and extraordinary circumstances
are shown.
(2) The CITU will indicate that any interim trail
use is subject to future restoration of rail
service and to the sponsor's continuing to meet
its responsibilities described in paragraph (a)(2)
of this section. The CITU will also provide that,
if an interim trail use agreement is reached
(and thus interim trail use established), the
parties shall file the notice described in
paragraph (h) of this section. Additionally, the
CITU will provide that if the sponsor intends to
terminate interim trail use on all or any portion
of the right-of-way covered by the interim trail
use agreement, it must send the Board a copy
of the CITU and request that it be vacated on a
specified date. If a party requests that the
CITU be vacated for only a portion of the
right-of-way, the Board will issue an
appropriate replacement CITU covering the
remaining portion of the right-of-way subject to
the interim trail use agreement. The Board will
reopen the abandonment proceeding, vacate the
CITU, and issue a decision permitting

423a

immediate abandonment for the involved
portion of the right-of-way. Copies of the
decision will be sent to:
(i) The abandonment applicant;
(ii) The owner of the right-of-way; and
(iii) The current trail sponsor.
(3) If an application to construct and operate a rail
line over the right-of-way is authorized under
49 U.S.C. 10901 and part 1150 of this title, or
exempted under 49 U.S.C. 10502, then the
CITU will be vacated accordingly.
(d) Abandonment exemption proceedings.
(1) In abandonment exemption proceedings, if
continued rail service does not occur under 49
U.S.C. 10904 and § 1152.27, and a railroad
agrees to negotiate an interim trail
use/railbanking agreement, then the Board will
issue a Notice of Interim Trail Use or
Abandonment (NITU) to the railroad and to
the interim trail sponsor for the portion of the
right-of-way as to which both parties are
willing to negotiate.
(i) The NITU will permit the railroad to
discontinue service, cancel any applicable
tariffs, and salvage track and materials,
consistent with interim trail use and
railbanking, as long as such actions are
consistent with any other Board order, 30 days
after the date the NITU is issued; and permit

424a

the railroad to fully abandon the line if no
interim trail use agreement is reached within
one year from the date on which the NITU is
issued, subject to appropriate conditions,
including labor protection and environmental
matters.
(ii) Parties may request a Board order to extend,
for one-year periods, the interim trail use
negotiation period. Up to three one-year
extensions of the initial period may be granted
if the trail sponsor and railroad agree.
Additional one-year extensions, beyond three
extensions of the initial period, are not favored
but may be granted if the trail sponsor and
railroad agree and extraordinary circumstances
are shown.
(2) The NITU will indicate that interim trail use is
subject to future restoration of rail service and
to the sponsor's continuing to meet its
responsibilities described in paragraph (a)(2) of
this section. The NITU will also provide that, if
an interim trail use agreement is reached (and
thus interim trail use established), the parties
shall file the notice described in paragraph (h)
of this section. Additionally, the NITU will
provide that if the sponsor intends to terminate
interim trail use on all or any portion of the
right-of-way covered by the interim trail use
agreement, it must send the Board a copy of the
NITU and request that it be vacated on a
specific date. If a party requests that the NITU
be vacated for only a portion of the right-of-

425a

way, the Board will issue an appropriate
replacement NITU covering the remaining
portion of the right-of-way subject to the
interim trail use agreement. The Board will
reopen the exemption proceeding, vacate the
NITU, and issue a decision reinstating the
exemption for that portion of the right-of-way.
Copies of the decision will be sent to:
(i) The abandonment exemption applicant;
(ii) The owner of the right-of-way; and
(iii) The current trail sponsor.
(3) If an application to construct and operate a rail
line over the right-of-way is authorized under
49 U.S.C. 10901 and part 1150 of this title, or
exempted under 49 U.S.C. 10502, then the
NITU will be vacated accordingly.
(e) Late-filed requests; notices of consummation.
(1) Where late-filed trail use statements are
accepted, the Director (or designee) will
telephone the railroad to determine whether
abandonment has been consummated and, if
not, whether the railroad is willing to negotiate
an interim trail use agreement. The railroad
shall confirm, in writing, its response, within 5
days. If abandonment has been consummated,
the trail use request will be dismissed. If
abandonment has not been consummated but
the railroad refuses to negotiate, then trail use
will be denied. If abandonment has not been
consummated and the railroad is willing to

426a

negotiate, the abandonment proceeding will be
reopened, the abandonment decision granting
an application, petition for exemption or notice
of exemption will be vacated, and an
appropriate CITU or NITU will be issued. The
effective date of the CITU or NITU will be the
same date as the vacated decision or notice.
(2) A railroad that receives authority from the
Board to abandon a line (in a regulated
abandonment proceeding under 49 U.S.C.
10903, or by individual or class exemption
issued under 49 U.S.C. 10502) shall file a notice
of consummation with the Board to signify that
it has exercised the authority granted and fully
abandoned the line (e.g., discontinued
operations, salvaged the track, canceled tariffs,
and intends that the property be removed from
the interstate rail network). The notice shall
provide the name of the STB proceeding and its
docket number, a brief description of the line,
and a statement that the railroad has
consummated, or fully exercised, the
abandonment authority on a certain date. The
notice shall be filed within 1 year of the service
date of the decision permitting the
abandonment (assuming that the railroad
intends to consummate the abandonment).
Notices will be deemed conclusive on the point
of consummation if there are no legal or
regulatory barriers to consummation (such as
outstanding conditions, including Trails Act
conditions). If, after 1 year from the date of

427a

service of a decision permitting abandonment,
consummation has not been effected by the
railroad's filing of a notice of consummation,
and there are no legal or regulatory barriers to
consummation, the authority to abandon will
automatically expire. In that event, a new
proceeding would have to be instituted if the
railroad wants to abandon the line. Copies of
the railroad's notice of consummation shall be
filed with the Chief, Section of Administration,
Office of Proceedings. In addition, the notice of
consummation shall be sent to the State Public
Service Commission (or equivalent agency) of
every state through which the line passes. If,
however, any legal or regulatory barrier to
consummation exists at the end of the 1– year
time period, the notice of consummation must
be filed not later than 60 days after satisfaction,
expiration or removal of the legal or regulatory
barrier. For good cause shown, a railroad may
file a request for an extension of time to file a
notice so long as it does so sufficiently in
advance of the expiration of the deadline for
notifying the Board of consummation to allow
for timely processing.
(f) Substitution of trail user.
(1) When a trail user intends to terminate trail use
and another person intends to become a trail
user by assuming financial responsibility for
the right-of-way, then the existing and future
trail users shall file, jointly:

428a

(i) A copy of the extant CITU or NITU; and
(ii) A Statement of Willingness to Assume
Financial Responsibility by the new trail user.
(iii) An acknowledgement that interim trail use is
subject to possible future reconstruction and
reactivation of the right- of-way for rail service.
(2) The parties shall indicate the date on which
responsibility for the right-of-way is to transfer
to the new trail user. The Board will reopen the
abandonment or exemption proceeding, vacate
the existing NITU or CITU; and issue an
appropriate replacement NITU or CITU to the
new trail user.
(g) Consent after Board decision or notice. In
proceedings where a timely trail use statement is filed,
but due to either the railroad's indication of its
unwillingness to negotiate interim trail use agreement,
or its failure to timely notify the Board of its willingness
to negotiate, a decision authorizing abandonment or an
exemption notice or decision is issued instead of a CITU
or NITU, and subsequently the railroad and trail use
proponent nevertheless determine to negotiate an
interim trail use agreement under the Trails Act, then
the railroad and trail use proponent must file a joint
pleading requesting that an appropriate CITU or NITU
be issued. If the abandonment has not been
consummated, the Board will reopen the proceeding,
vacate the outstanding decision or notice (or portion
thereof), and issue an appropriate CITU or NITU that
will permit the parties to negotiate for a period agreed
to by the parties in their joint filing, but not to exceed

429a

one year, at the end of which, the CITU or NITU will
convert into a decision or notice permitting
abandonment.
(h) Notice of interim trail use agreement reached. When
the parties negotiating for rail banking/interim trail use
reach an agreement, the trail sponsor and railroad shall
jointly notify the Board within 10 days that the
agreement has been reached. The notice shall include a
map depicting, and an accurate description of, the
involved right-of-way or portion thereof (including
mileposts) that is subject to the parties' interim trail
use agreement and a certification that the interim trail
use agreement includes provisions requiring the
sponsor to fulfill the responsibilities described in
paragraph (a)(2) of this section. Additionally, if the
interim trail use agreement establishes interim trail use
over less of the right-of-way than is covered by the
CITU or NITU, the notice shall also include a request
that the Board vacate the CITU or NITU and issue a
replacement CITU/NITU for only the portion of the
right-of-way covered by the interim trail use agreement.
The Board will reopen the abandonment proceeding,
vacate the CITU or NITU, issue an appropriate
replacement CITU or NITU for only the portion of the
right-of-way covered by the interim trail use agreement,
and issue a decision permitting immediate
abandonment of the portion of the right-of-way not
subject to the interim trail use agreement. Copies of the
decision will be sent to:
(1) The rail carrier that sought abandonment
authorization;

430a

(2) The owner of the right-of-way; and
(3) The current trail sponsor.

